<html>
<title> - DATA OR DOGMA? PROMOTING OPEN INQUIRY IN THE DEBATE OVER THE MAGNITUDE OF HUMAN IMPACT ON EARTH'S CLIMATE</title>
<body><pre>[Senate Hearing 114-373]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-373

                 DATA OR DOGMA? PROMOTING OPEN INQUIRY
                  IN THE DEBATE OVER THE MAGNITUDE OF
                    HUMAN IMPACT ON EARTH'S CLIMATE

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON SPACE, SCIENCE, 
                          AND COMPETITIVENESS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       U.S. GOVERNMENT PUBLISHING OFFICE
21-644 PDF                      WASHINGTON : 2016                       
_______________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f584f507f5c4a4c4b575a534f115c505211">[email&#160;protected]</a>  
       
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

          SUBCOMMITTEE ON SPACE, SCIENCE, AND COMPETITIVENESS

TED CRUZ, Texas, Chairman            GARY PETERS, Michigan, Ranking
MARCO RUBIO, Florida                 EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  CORY BOOKER, New Jersey
DAN SULLIVAN, Alaska                 TOM UDALL, New Mexico
CORY GARDNER, Colorado               BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 8, 2015.................................     1
Statement of Senator Cruz........................................     1
    E-mail dated November 23, 2015 between Hon. Ted Cruz and John 
      Coequyt....................................................    15
Statement of Senator Peters......................................     2
    Letter dated December 7, 2015 to Hon. Ted Cruz and Hon. Gary 
      Peters from Gerald R. Fink, Chair, AAAS Board of Directors, 
      Herman and Margaret Sokol Professor, Whitehead Institute/
      Massachusetts Institute of Technology......................     4
    Article dated December 9, 2006 from the AAAS Board...........     5
    Letter dated December 7, 2015 to Hon. Ted Cruz from Dr. Keith 
      L. Seitter, Executive Director, American Meteoreological 
      Society....................................................     7
    Letter dated December 7, 2015 to Hon. Ted Cruz and Hon. Gary 
      Peters from Robert Gropp, Ph.D., Interim Co-Executive 
      Director, American Institute of Biological Sciences........     9
Statement of Senator Nelson......................................    10
    Prepared statement...........................................    12
    Letter dated December 2, 2015 from Hon. John Thune to Dr. 
      John R. Christy, Professor and Director, Earth System 
      Science Center, NSSTC, University of Alabama in Huntsville.    17
    Letter dated December 2, 2015 from Hon. John Thune to Dr. 
      Judith Curry, School of Earth & Atmospheric Sciences, 
      Georgia Institute of Technology............................    18
    Letter dated December 2, 2015 from Hon. John Thune to Dr. 
      William Happer, Department of Physics, Princeton University    19
    Letter dated December 2, 2015 from Hon. John Thune to Mr. 
      Mark Steyn.................................................    20
    Letter dated December 2, 2015 from Hon. John Thune to Dr. 
      David W. Titley, RADM (ret.), Professor of Practice in 
      Meteorology, Penn State Department of Meteorology..........    21
Statement of Senator Daines......................................    94
Statement of Senator Schatz......................................    96
Statement of Senator Udall.......................................    99
Statement of Senator Markey......................................   101

                               Witnesses

John R. Christy, Ph.D., Distinguished Professor of Atmospheric 
  Science and Director of the Earth System Science Center, 
  University of Alabama..........................................    22
    Prepared statement...........................................    23
Judith A. Curry, Ph.D., Chair of the School of Earth and 
  Atmospheric Sciences, Georgia Institute of Technology..........    38
    Prepared statement...........................................    40
William Happer, Ph.D., Cyrus Fogg Bracket Professor of Physics, 
  Princeton University...........................................    55
    Prepared statement...........................................    57
Mark Steyn, International Bestselling Author.....................    70
    Prepared statement...........................................    71
David W Titley, Rear Admiral USN (Ret.), Ph.D., Professor of 
  Practice and Director, Center for Solutions to Weather and 
  Climate Risk, Pennsylvania State University....................    78
    Prepared statement...........................................    80

                                Appendix

Response to written questions submitted to Admiral David Titley 
  by:
    Hon. Richard Blumenthal......................................   181
    Hon. Edward Markey...........................................   185
    Hon. Gary Peters.............................................   188

 
                     DATA OR DOGMA? PROMOTING OPEN
                     INQUIRY IN THE DEBATE OVER THE
                       MAGNITUDE OF HUMAN IMPACT
                           ON EARTH'S CLIMATE

                              ----------                              


                       TUESDAY, DECEMBER 8, 2015

                               U.S. Senate,
       Subcommittee on Space, Science, and Competitiveness,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:10 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Ted Cruz, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cruz [presiding], Gardner, Daines, 
Nelson, Schatz, Markey, Booker, Udall, and Peters.

              OPENING STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. This hearing will come to order.
    Good afternoon, everyone. Welcome to what I hope will be an 
important and informative hearing.
    This is a hearing on the science behind claims of global 
warming. Now this is the Science Subcommittee of the Senate 
Commerce Committee, and we are hearing from distinguished 
scientists, sharing their views, their interpretation, their 
analysis of the data and the evidence.
    Now I am the son of two mathematicians, two computer 
programmers and scientists. And I believe that public policy 
should follow the actual science and the actual data and 
evidence and not political and partisan claims that run 
contrary to the science and data and evidence.
    On November 28, 2013, an intrepid band of explorers set off 
from New Zealand on a research expedition to the Antarctic. 
Among their goals was investigating the impact of global 
warming on the Antarctic continent and islands.
    On Christmas Eve, they became stuck in ice, ice that the 
climate industrial complex had assured us were vanishing. This 
expedition was there to document how the ice was vanishing in 
the Antarctic, but the ship became stuck. It had run into an 
inconvenient truth, as Al Gore might put it.
    Three icebreakers tried and failed to reach the trapped 
ship because the ice was too thick. After a week of rescue 
attempts, the passengers were airlifted from the vessel.
    Here are the inconvenient facts about the polar ice caps. 
The Arctic is not ice-free. This year's minimum sea ice extent 
was well above the record low observed in 2011. In the 
Antarctic, a recent study from the Journal of Glaciology 
indicates that the ice is not only not decreasing but is, in 
fact, increasing in mass, directly contrary to what the global 
warming alarmists had told us would be happening. This is not 
what their climate models projected.
    Yet these inconvenient facts never seem to get the 
attention of people like John Kerry. And indeed, I would note 
behind me, on August 31, 2009, then-Senator John Kerry said, 
``Scientists project that the Arctic will be ice free in the 
summer of 2013. Not in 2050, but 4 years from now.''
    Well, the summer of 2013 has come and gone, and John Kerry 
was not just a little bit, he was wildly, extraordinarily, 
entirely wrong. Had the Antarctic expedition in the picture 
next to it not believed the global warming alarmists, had they 
actually looked to the science and the evidence, they wouldn't 
have gone down and been surprised when they got stuck in ice.
    Facts matter. Science matters. Data matters. That is what 
this hearing is about--data.
    According to the satellite data, there has been no 
significant global warming for the past 18 years. Those are the 
data. The global warming alarmists don't like these data. They 
are inconvenient to their narrative. But facts and evidence 
matters.
    And I would note that many in the media reflexively take 
the side of the global warming alarmists. Reflexively oppose 
anyone who actually points out, well, was John Kerry's 
prediction accurate? No, it was stunningly and entirely false.
    Was the prediction of computer model after computer model 
that showed dramatic warming, were those predictions correct? 
No. The satellite data demonstrate no significant warming over 
18 years.
    Public policy should follow science and evidence and data, 
and I would note that I found it amusing that our friends on 
the Democratic side of the aisle, I have discovered, held a 
press conference today as a ``prebuttal'' to this hearing. I 
suppose I should view that, in a sense, as a back-handed 
compliment. I am reminded of the Bard, ``Methinks she doth 
protest too much.''
    What does it say when members of the United States Senate 
are protesting how dare the Science Subcommittee in the U.S. 
Senate hear testimony from scientists about actual science? How 
dare we focus on such topics? I think that is, indeed, exactly 
what we were elected to do.
    Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And I would first like to thank the witnesses for being 
here today and for your testimony on what is surely a very 
important topic.
    When we think about global warming, there are risks and 
there are certainties. Let us talk first about the certainties. 
By burning fossil fuels, humans are releasing carbon into the 
atmosphere that would have otherwise remained locked away. This 
process creates carbon dioxide, a greenhouse gas that traps 
heat that otherwise would have been radiated off into space.
    We know that by the law of conservation of energy that 
additional heat can't just magically disappear. Instead, it 
causes our planet to get warmer.
    What else is certain? We are already seeing the symptoms of 
a warming planet not just in the temperature records, but in 
the rising sea and shrinking ice levels, in toxic algae blooms 
that are flourishing in the Great Lakes that were made worse by 
increased precipitation, runoff, and warmer water temperatures, 
tainting drinking water for 2.8 million people in recent years. 
All of that is certain.
    Now let us talk about the risk. Managing risk is all about 
looking at a range of possible outcomes and consequences, 
looking at the likelihood of each of those consequences, and 
then looking to see if there is anything you can do to reduce 
the likelihood of those consequences or both.
    From our models and from our understanding of the science, 
we see a range of potential outcomes, a range of possible 
warming trends, a range of consequences based on those trends. 
There are implications for our national security, for the 
economic health of our country, for our food supply and 
agriculture, and for the health and safety of Michiganders, 
Americans, as well as people all around the planet.
    The possible consequences of all these areas range from the 
bad to the catastrophic. Given our best scientific judgment of 
our risk posture of the consequences we face as a civilization 
and the likelihood of those consequences occurring, we must do 
what we can to mitigate these risks.
    We are going to hear today that there is some disagreement, 
some disagreement in the scientific community over the 
magnitude of that risk. As a matter of fact, I know we are 
going to hear from three scientists and a political commentator 
and blogger who disagree with varying aspects of the scientific 
consensus, as well as to argue that the science is not settled.
    We will hear we need to support our scientific community so 
that they can continue to answer the open questions and help 
policymakers make better--or better understand the risks that 
we face. And we will hear that scientists need to be protected 
from political interference from either side of the aisle. And 
I certainly agree that we need to support our scientific 
community and protect them from political influence, but I also 
know that while we continue to refine the science, we have to 
act on the risks and findings that our scientists have 
discovered.
    I would like to introduce into the record statements and 
letters from various science professional organizations 
representing tens of thousands, tens of thousands of 
scientists, including the American Association for the 
Advancement of Science, the American Chemical Society, the 
American Geophysical Union, the American Meteorological 
Society, the American Society for Agronomy, Crop Science 
Society of America, Soil Science Society of America, the 
American Statistical Association, the Ecological Society of 
America, the American Institute of Biological Sciences, and the 
Geological Society of America.
    It is the position of these organizations that the evidence 
is overwhelming that the Earth is warming, global warming is 
real, and that human activity is the primary contributor.
    I would like unanimous consent, Mr. Chairman, to enter 
these statements into the record.
    Senator Cruz. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
       

    Senator Peters. Thank you.
    We know that there will always be more to learn. We will 
undoubtedly find more down the road that there is more to 
discover about what we don't know. And that is really the 
beautiful thing about science, we always have more to learn.
    But knowing that there is more to learn should not, it 
should not stop us from acting on what we know now. We must 
discuss and determine what actions we need to take to limit the 
serious risks that we face, and there are many things that we 
can do that are not just good for the environment, but are good 
for the economy. Investments in clean energy create good-paying 
jobs and help us produce the energy we need right here in the 
United States.
    For example, Michigan is home to more than 220 wind and 
solar companies, representing tens of thousands of jobs. The 
growth in Michigan's clean energy sector can be attributed in 
part to the state's renewable electricity standard, which 
requires 10 percent of the state's energy to come from 
renewables.
    But there is a lot of room to grow. If industry sourced its 
parts from local manufacturers, renewable energy could support 
over 20,000 Michigan jobs in manufacturing alone by 2020. What 
is more, expanding Michigan's renewable electricity standard 
from 10 percent to over 30 percent by 2030 would generate more 
than $9 million--$9 billion, $9 billion in new capital 
investments, investments in research and science, including the 
understanding of our Sun-Earth system, pay dividends for our 
country's future economic growth, our economic competitiveness, 
and our very way of life.
    China certainly understands that. So if we miss this 
opportunity to make these investments now, we may soon find 
ourselves falling behind in the global economy. So let us focus 
on innovating our way out of this problem, and let us take a 
big step forward as a country.
    Senator Cruz. Thank you, Senator Peters.
    Senator Nelson, the Ranking Member on the Full Committee, 
has requested to give an opening statement as well.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Before I make a couple of comments, I want to address a 
parliamentary inquiry. There is a sign out there on the witness 
table--Mr. Mair, Aaron Mair, president of the Sierra Club. 
Did--was Mr. Mair extended a formal invitation by the Chairman 
of this committee, Senator Thune?
    Senator Cruz. He was invited by me, the Chairman of this 
subcommittee, and he declined. And momentarily, I am going to 
describe the circumstances behind that invitation and his 
decision not to attend.
    Senator Nelson. OK. I would just note that the protocol and 
the rules of the Committee are such that invitations for all 
witnesses are extended by the Chairman of the Committee, and I 
would like the record to reflect that such an invitation by 
Senator Thune, our Chairman, was not extended. And therefore, 
there should be no place up there at the witness table, but 
that should be noted for the record.
    Now, Mr. Chairman, rather than get this started off in an 
adversarial way, you and I have had a very good relationship. 
We have worked together on the space program, and you and I 
have some significant differences about this issue. And so, 
rather than it be contentious, I want it to be factual.
    First of all, I would like to show a couple of pictures of 
what is happening in Miami Beach right now. Now I had the 
privilege a couple of years ago, when I was Chairman of the 
Science and Space Subcommittee, of taking our Commerce 
Committee to Miami Beach. And Miami Beach is basically ground 
zero in the United States for what we are seeing as a 
consequence of global warming, and that is sea level rise.
    We had a NASA scientist that testified at the hearing that 
over the last 40 years, measurements--these are measurements, 
not forecasts, not projections, they are measurements--that the 
seas have risen in south Florida from 5 to 8 inches. This 
photograph is a consequence at seasonal high tide of what is 
happening on the streets of Miami Beach.
    Now, interestingly, a couple of years earlier, the present 
Mayor of Miami Beach, in running for Mayor, did an actual 
campaign commercial in a kayak on Alton Road, which is on the 
opposite side of the barrier island, the west side of the 
barrier island from this. This is not far from the actual 
ocean.
    This one as well, you can look down the street there and 
see the sky in the background. That is about a couple of blocks 
down toward the beach.
    The campaign commercial in a kayak was at the October 
seasonal high tide on Alton Road, which is on the opposite side 
of the barrier island. And the fact is that we are having to 
deal with this.
    Now there is another consequence of this, and that is what 
you heard of saltwater intrusion. Saltwater is heavier than 
freshwater. Florida sits on a honeycomb of limestone that is 
filled with freshwater. That is where we get our freshwater, 
from the aquifer underneath.
    As the saltwater rises and sea level rise, the greater 
pressure because of the heavier water is intruding into the 
interior, and we have had a number of municipal wells that are 
now too salty. And it is another consequence.
    So some of us, representing our constituents, have to deal 
with the realities of what we see. I might point out that when 
you talk about measurements, 1992 we launched a satellite 
called Topex. It had an altimeter. It takes precise 
measurements of the surface of the ocean, and its successor 
satellites, Jason-1 and Jason-2, have been collecting that 
data. And observation, not projections, the data tells us that 
the average global sea level is rising at about 3.2 millimeters 
a year since 1993. That is about a tenth of an inch, or over a 
decade an inch.
    So I am glad that you were kind enough to let Senator 
Peters invite a minority witness, and we brought in Admiral 
David Titley, a lifelong public servant, a scientist, a 
decorated military officer from his naval career. And he is 
going to discuss this much more in detail. In addition to 
climate science, the admiral is an expert in oceanography, 
tropical meteorology, weather risk, and how all of this will 
impact our national security.
    We need to understand how climate change is affecting all 
of the calculations that go into our national security by our 
national security teams. And after 32 years in the U.S. Navy, 
he now works at Pennsylvania State University.
    So I will conclude my remarks and insert the rest of them 
in the record, with the Chairman's permission.
    Senator Cruz. Without objection.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, I welcome today's debate about science surrounding 
the impact of climate change.
    In my state of Florida, we have over 1,260 miles of coastline--more 
than any other state in the continental U.S.
    Over three quarters of the state's residents live in coastal 
counties. And Florida is quite flat. Britton Hill is the highest point 
at 345 feet above sea level.
    In Florida, you can see and touch sea level rise. I'm going to show 
you some photographs taken on Miami Beach in September.
    The first was taken along Indian Creek Road, and you can see the 
water flooding higher than the curb as this gentleman attempts to cross 
the street.
    In the second, you can see leaves and debris floating down a city 
sidewalk.
    So as you can see, Floridians do care a great deal about what the 
sea level is doing on any given day.
    In 1992, NASA launched a satellite called TOPEX/Poseidon with an 
instrument called an altimeter, which takes precise measurements of the 
surface of the ocean. Since then, its successor satellites, JASON-1 and 
JASON-2, have been collecting that data.
    Observation--not models, not projections, not dogma, but the data--
tells us that the average global sea level is rising at about the rate 
of 3.2 millimeters a year since 1993.
    Today it is my distinct pleasure to welcome one of our panelists, 
Admiral David Titley--a lifelong public servant, a scientist, and a 
decorated military officer, who will discuss this data in more detail.
    In addition to climate science, Admiral Titley is an expert in 
oceanography, tropical meteorology, weather risk, and how those 
phenomena impact our national security. After 32 years in service to 
the U.S. Navy, Admiral Titley now works at Pennsylvania State 
University.
    I look forward to hearing from him and the other members of our 
panel.
    Mr. Chairman, while I welcome today's debate, I'm sorry to say that 
it won't represent the kind of objective and representative dialogue 
that's needed.
    It's ironic that we've got three scientists giving one side of the 
story, and only one opportunity to present a different perspective.
    As one who fiercely opposes any attempts to intimidate, censor or 
muzzle scientists, for this panel to hold a hearing without having a 
broad cross-section of experts only invites questions about the true 
openness of the hearing and the motives behind it.
    Whatever that motive is, I think it's worth mentioning that when 
the Senate voted in March on my amendment to prohibit the use of tax 
dollars to censor publically-funded climate-related science a majority 
of Senators--51 to be exact--agreed with me.
    In fact, some of my Republican colleagues on this committee voted 
for my amendment--so I thank Senator Ayotte and Senator Rubio for their 
support.
    But even with a majority of the Senate's support, the amendment 
failed because of politics.
    To most people, a vote against scientific censorship is common 
sense. But in the Senate, that was actually a courageous vote.
    In the future, I hope more members of this committee will join my 
fight for open inquiry.

    Senator Cruz. Thank you, Senator Nelson.
    I would now like to welcome each of our expert witnesses. 
Thank you for coming to testify to this panel.
    The first witness is Dr. John Christy. Dr. John Christy is 
the Distinguished Professor of Atmospheric Science at the 
University of Alabama in Huntsville and is Alabama's State 
climatologist.
    He has been awarded NASA's Medal for Exceptional Scientific 
Achievement, was elected a fellow of the American 
Meteorological Society, which also selected him for the special 
award for building climate datasets from satellites, and served 
as lead author of the U.N.'s Intergovernmental Panel on Climate 
Change. Beginning as a teenager, Dr. Christy has studied 
climate for the past 50 years.
    Dr. Judith Curry currently serves as a professor and is 
former Chair of the School of Earth and Atmospheric Sciences at 
the Georgia Institute of Technology, in addition to serving as 
President of Climate Forecast Applications Network. Dr. Curry 
received a Ph.D. in atmospheric science from the University of 
Chicago.
    Dr. Curry has recently served on the NASA Advisory Council 
Earth Science Subcommittee, the DOE Biological and 
Environmental Research Advisory Committee, the National 
Academy's Climate Research Committee and the Space Studies 
Board, and the NOAA Climate Working Group. Dr. Curry is a 
fellow of the American Meteorological Society, the American 
Association for the Advancement of Science, and the American 
Geophysical Union.
    Dr. William Happer currently serves as a Cyrus Fogg Bracket 
Professor of Physics at my alma mater, Princeton University, 
and has spent most of his professional life studying the 
interactions of visible and infrared radiation with gases, one 
of the main physical phenomena behind the greenhouse effect.
    Throughout his career, he has published over 200 papers in 
peer-reviewed scientific journals and is a member of a number 
of professional organizations, including the American Physical 
Society, and the National Academy of Sciences. Dr. Happer also 
served as the Director of Energy Research at the Department of 
Energy from 1990 to 1993, where he supervised all of DOE's work 
on climate change.
    Mr. Mark Steyn is an international bestselling author, a 
top five jazz recording artist, and a leading Canadian human 
rights activist. Mr. Steyn recently contributed to the number 
one climatology bestseller, Climate Change: The Facts, and 
edited another number one climatology bestseller, A Disgrace to 
the Profession: The World's Scientists in Their Own Words on 
Michael Mann, His Hockey Stick, and Their Damage to Science, 
Volume 1.
    In his capacity as a human rights activist, Mr. Steyn's 
human rights campaign to restore free speech to Canada led to 
the repeal by parliament of the notorious Section 12 hate 
speech law, a battle he recounts in his book, Lights Out: 
Islam, Free Speech, and the Twilight of the West.
    And then Dr. David Titley, who Senator Nelson mentioned 
already. Dr. Titley currently serves as Professor of Practice 
in the Department of Meteorology at the Pennsylvania State 
University and is the Founding Director of Penn State's Center 
for Solutions to Weather and Climate Risk.
    Dr. Titley holds a Bachelor of Science in meteorology from 
the Pennsylvania State University. From the Naval Postgraduate 
School, he earned a Master's of Science in meteorology and 
physical oceanography and a Ph.D. in meteorology. Prior to 
joining Penn State, Dr. Titley served as a naval officer for 32 
years and rose to the rank of Rear Admiral.
    His career included duties as Commander, Naval Meteorology 
and Oceanography Command; oceanographer and navigator of the 
Navy; and Deputy Assistant Chief of Naval Operations for 
Information Dominance. He has also served as Senior Military 
Assistant for the Director, Net Assessment in the Office of the 
Secretary of Defense. While serving in the Pentagon, Dr. Titley 
initiated and led the U.S. Navy's task force on climate change.
    After retiring from the Navy, Dr. Titley served as the 
Deputy Under Secretary of Commerce for Operations, the Chief 
Operating position at the National Oceanic and Atmospheric 
Administration, NOAA.
    The final witness that we had hoped to have today is Mr. 
Aaron Mair, the President of the Sierra Club. I would note a 
number of weeks ago, Mr. Mair was witness at another hearing 
that I chaired in the Oversight Subcommittee of the Judiciary 
Committee. This was a hearing concerning the effect of 
overregulation on minority communities and, in particular, the 
devastating impacts of overregulation in the Obama 
administration on the Hispanic community and the African-
American community.
    There were a host of witnesses that testified to the job 
losses, to the stagnating wages as a consequence of 
overregulation from the Federal Government. Mr. Mair was one of 
the witnesses, a minority witness invited by the Democrats. Mr. 
Mair's testimony concerned global warming.
    In the course of that hearing, I asked Mr. Mair about the 
scientific basis for his testimony. In particular, I asked him 
how he responded to the fact that the satellite data 
demonstrate no significant warming whatsoever for the past 18 
years.
    Mr. Mair, by all appearances, did not have the foggiest 
idea what the satellite data demonstrated. Indeed, he 
repeatedly turned to his staff members behind him and was 
unable to answer even basic questions.
    At the conclusion of the questioning, my friend, the 
Ranking Democrat on the Committee, Senator Chris Coons, stepped 
to Mr. Mair's defense, and he said--in fact, I will read his 
quote directly.
    Senator Coons said, ``Thank you, Mr. Chairman. I just 
simply wanted to observe that we have a broadly representative 
and qualified group of folks who were brought here to talk 
about overregulation and its impact on minority communities. 
And I do not speak for the Sierra Club, obviously, but it is my 
hope and expectation that if you want to pursue that line of 
inquiry with them further, they would be happy to.''
    At that suggestion from Democratic Senator Coons that we 
hold a subsequent hearing on global warming, we have announced 
this hearing. Now I did note at the time that the entire 
substance of Mr. Mair's both written and oral testimony to the 
Subcommittee concerned global warming, and yet he was 
unprepared to discuss even the basic science behind what he was 
testifying to.
    My office reached out to Mr. Mair and invited him to come 
testify on this panel, and we did so in consultation with the 
Chairman of the full Committee, Senator Thune. Mr. Mair turned 
down that invitation. And so, without objection, I would like 
to enter into the record the written correspondence, the e-mail 
between my office and Mr. Mair extending the invitation and the 
Sierra Club's response to that, declining to attend.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

    Senator Cruz. In Mr. Mair's honor, we have a spot at the 
table for him.
    I would note that it is striking the Sierra Club, a 
national advocacy organization that devotes the lion's share of 
its energy to advocating for global warming, was unwilling to 
come and defend the merits of its position based on the science 
or the data. To any fair or impartial observer, the Sierra 
Club's refusal even to engage in a discussion of the science 
should speak volumes.
    And with that, Dr. Christy, we are ready to receive your 
testimony.
    Senator Nelson. Mr. Chairman, if I may, I would like to 
likewise enter into the record all the letters of invitation 
extended to the witnesses, and the record will note that there 
is no such letter of invitation to the gentleman that you are 
speaking about.
    Senator Cruz. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

    Senator Cruz. And there was no formal letter issued because 
he had preemptively turned down the invitation on the front 
end.
    And with that, Dr. Christy?

       STATEMENT OF JOHN R. CHRISTY, Ph.D., DISTINGUISHED

        PROFESSOR OF ATMOSPHERIC SCIENCE AND DIRECTOR OF

           EARTH SYSTEM SCIENCE CENTER, UNIVERSITY OF

                     ALABAMA IN HUNTSVILLE

    Dr. Christy. Thank you, Chairman Cruz and Ranking Member 
Peters and Ranking Member Nelson, for this opportunity to speak 
about climate change.
    I am John Christy, Professor of Atmospheric Science at the 
University of Alabama in Huntsville and Alabama State 
climatologist. I have served in many climate science 
capacities, including lead authorship of the United Nations 
IPCC.
    I, along with Dr. Curry, have the distinction of being two 
of the seven scientists targeted by Representative Grijalva for 
investigation because our views about climate change differ 
from those of the administration.
    My research might best be described as building datasets 
from scratch for 50 years to help us understand what the 
climate is doing and what it might do and why it does what it 
does. The two main points of my verbal testimony are simple.
    First, the basis on which the popular view that human-
caused climate change is dangerous does not pass simple 
validation tests. Second, the attempt to study climate change 
with an objective eye is thwarted by the Federal funding 
process.
    Now we at UAH monitor climate change for such variables as 
temperature. However, no one has a direct means to tell us why 
the temperature changes. Our thermometers only tell us what has 
happened. They do not tell us why it happened. There is really 
no way to prove why climate does what it does.
    Now so to try to understand why the changes occur, we make 
claims or hypotheses using climate models whose equations 
attempt to approximate all of the important factors that affect 
the climate. If these equations are accurate, we can then see 
how each factor, such as greenhouse gases or volcanoes, might 
affect the climate, and therefore, we could learn what the 
cause of these changes might be.
    Now one variable, according to climate models, that has the 
largest response to extra greenhouse gases is the temperature 
of the bulk atmosphere, and this is the layer from the surface 
to about 50,000 feet in altitude. As shown in my written 
testimony and as you can see on the chart to my left, the 
models fail this very simplest of validation tests. They can't 
even reproduce what has already happened in the past 37 years.
    One hundred and two climate model runs warm up the bulk 
layer of the atmosphere by an average factor of 3 more than 
what has actually occurred. Now being off by a factor of 3 does 
not qualify as settled science in my view.
    Now why are studies like this so hard to find? It goes back 
to the way Federal funding occurs. Today, contrarian proposals, 
such as one I might write, that want to, say, look rigorously 
and test climate models against reality or to test various 
ideas about how natural variability causes these changes are 
rarely, if ever, funded.
    This is due to the fact the panels which decide this type 
of funding are dominated by those with the establishment point 
of view about dangerous climate change. Since there are many 
more proposals than funding allows, a contrarian proposal has 
essentially no chance of receiving funding because the panel 
decides these things by votes.
    Now in my view, Congress needs to fix this problem by 
directly funding red teams which are not part of the climate 
modeling industry to test the basis for the claims that human-
induced climate change is dangerous. The Congress needs 
objective eyes on this issue because it is such a big-ticket 
item for everyone involved.
    Now it is no secret that the State of Alabama is in a 
desperate fight with the Federal EPA. Our elected officials 
understand, as do I, their state climatologist, that the 
regulations being established will do nothing to alter whatever 
the climate is going to do. In fact, even if the United States 
of America disappeared today--no people, no cars, no 
factories--the impact would be negligible on whatever the 
climate does.
    Alabama is fighting for our industries, which are being 
tempted by lower costs in Mexico and China, where their 
emissions would actually rise if they move there. We are 
fighting for our utilities, which sell over 30 percent of their 
electricity production to nearby states who need it. And we are 
fighting for the many poor people in our state who do not need 
another hike in their utility rates to satisfy a regulation 
whose only impact will be to further drain their meager 
resources.
    This is a time when even so-called green countries like 
Germany and Japan--that is Germany and Japan--are adding to 
their carbon emissions by building more coal-fired power plants 
while the rest of the world moves toward more carbon-based 
energy.
    To me, it is not scientifically justifiable or economically 
rational, that this Nation should establish regulations whose 
only discernible consequence is an increase in economic pain 
visited most directly and harshly on the poorest among us. This 
happens when the scientific process that allegedly underpins 
regulations lacks objectivity and transparency.
    Thank you.
    [The prepared statement of Dr. Christy follows:]

   Prepared Statement of John R. Christy, Distinguished Professor of 
 Atmospheric Science and Director of the Earth System Science Center, 
     University of Alabama, Huntsville; Alabama State Climatologist
    I am John R. Christy, Distinguished Professor of Atmospheric 
Science, Alabama's State Climatologist and Director of the Earth System 
Science Center at The University of Alabama in Huntsville. I have 
served as a Lead Author, Contributing Author and Reviewer of United 
Nations IPCC assessments, have been awarded NASA's Medal for 
Exceptional Scientific Achievement, and in 2002 was elected a Fellow of 
the American Meteorological Society.
    It is a privilege for me to offer my analysis of the current 
situation regarding our understanding of climate change, the effect of 
regulations on climate, the popular notion of extreme climate events, 
and the unfortunate direction research in this area has taken. My 
research area might be best described as building datasets from scratch 
to advance our understanding of what the climate is doing and why--an 
activity I began as a teenager over 50 years ago. I have used 
traditional surface observations as well as measurements from balloons 
and satellites to document the climate story. Many of our UAH datasets 
are used to test hypotheses of climate variability and change.
How well do we understand climate change?
    A critical issue in our era is to determine whether emissions from 
human activities impact the climate and by how much. This is made 
especially difficult because we know the climate system already is 
subject to changes without the influence of humans. Because there is no 
measuring device that explicitly determines the cause of the climate 
changes we can measure, such as temperature, our science must take a 
different approach to seek understanding as to what causes the changes, 
i.e., how much is natural and how much is human induced. The basic 
approach today utilizes climate models. (The projections of these 
models are being utilized for carbon policies as well.)
    It is important to understand that output from these models, (i.e., 
projections of the future climate and the specific link that increasing 
CO<INF>2</INF> might have on the climate) are properly defined as 
scientific hypotheses or claims--model output cannot be considered as 
providing proof of the links between climate variations and greenhouse 
gases. These models are complex computer programs which attempt to 
describe through mathematical equations as many factors that affect the 
climate as is possible and thus estimate how the climate might change 
in the future. The model, it is hoped, will provide accurate responses 
of the climate variables, like temperature, when extra greenhouse gases 
are included in the model. However, the equations for nearly all of the 
important climate processes are not exact, representing the best 
approximations modelers can devise and that computers can handle at 
this point.
    A fundamental aspect of the scientific method is that if we say we 
understand a system (such as the climate system) then we should be able 
to predict its behavior. If we are unable to make accurate predictions, 
then at least some of the factors in the system are not well defined or 
perhaps even missing. [Note, however, that merely replicating the 
behavior of the system (i.e., reproducing ``what'' the climate does) 
does not guarantee that the fundamental physics are well-known. In 
other words, it is possible to obtain the right answer for the wrong 
reasons, i.e., getting the ``what'' of climate right but missing the 
``why''.]
    Do we understand how greenhouse gases affect the climate, i.e., the 
link between emissions and climate effects? A very basic metric for 
climate studies is the temperature of the bulk atmospheric layer known 
as the troposphere, roughly from the surface to 50,000 ft altitude. 
This is the layer that, according to models, should warm significantly 
as CO<INF>2</INF> increases--even faster than the surface. Unlike the 
surface temperature, this bulk temperature informs us regarding the 
crux of the global warming question--how much heat is accumulating in 
the global atmosphere? And, this CO<INF>2</INF>-caused warming should 
be easily detectible by now, according to models. This provides a good 
test of how well we understand the climate system because since 1979 we 
have had two independent means of monitoring this layer--satellites 
from above and balloons with thermometers released from the surface.
    I was able to access 102 CMIP-5 rcp4.5 (representative 
concentration pathways) climate model simulations of the atmospheric 
temperatures for the tropospheric layer and generate bulk temperatures 
from the models for an apples-to-apples comparison with the 
observations from satellites and balloons. These models were developed 
in institutions throughout the world and used in the IPCC AR5 
Scientific Assessment (2013).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Above: Global average mid-tropospheric temperature variations (5-
year averages) for 32 models (lines) representing 102 individual 
simulations. Circles (balloons) and squares (satellites) depict the 
observations.

    The information in this figure provides clear evidence that the 
models have a strong tendency to over-warm the atmosphere relative to 
actual observations. On average the models warm the global atmosphere 
at a rate three times that of the real world. This is not a short-term, 
specially-selected episode, but represents the past 37 years, over a 
third of a century. This is also the period with the highest 
concentration of greenhouse gases and thus the period in which the 
response should be of largest magnitude.
    Using the scientific method we would conclude that the models do 
not accurately represent at least some of the important processes that 
impact the climate because they were unable to ``predict'' what has 
already occurred. In other words, these models failed at the simple 
test of telling us ``what'' has already happened, and thus would not be 
in a position to give us a confident answer to ``what'' may happen in 
the future and ``why.'' As such, they would be of highly questionable 
value in determining policy that should depend on a very confident 
understanding of how the climate system works.
    There is a related climate metric that also utilizes atmospheric 
temperature which in models has an even larger response than that of 
the global average shown above. This metric, then, provides a stronger 
test for understanding how well models perform regarding greenhouse 
gases specifically. In the models, the tropical atmosphere warms 
significantly in response to the added greenhouse gases--more so than 
that of the global average atmospheric temperature.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Above: Tropical average mid-tropospheric temperature variations (5-
year averages) for 32 models (lines) representing 102 individual 
simulations. Circles (balloons) and squares (satellites) depict the 
observations.

    In the tropical comparison here, the disparity between models and 
observations is even greater, with models on average warming this 
atmospheric region by a factor of four times greater than in reality. 
Such a result re-enforces the implication above that the models have 
much improvement to undergo before we may have confidence they will 
provide information about what the climate may do in the future or even 
why the climate varies as it does. For the issue at hand, estimates of 
how the global temperature might be affected by emission reductions 
from regulations would be exaggerated and not reliable.
Impact of Regulations Will Not Be Attributable or Detectable
    The impact on global temperature for current and proposed 
reductions in greenhouse gases will be tiny. To demonstrate this, let 
us assume, for example, that the total emissions from the United States 
were reduced to zero, as of last May 13th, 2015 (the date of the last 
congressional hearing on which I testified). In other words as of that 
day and going forward, there would be no industry, no cars, no 
utilities, no people--i.e., the United States would cease to exist as 
of that day. Regulations, of course will only hope to reduce emissions 
a small amount, but to make the point of how minuscule the regulatory 
impact will be, we shall simply go way beyond reality and cause the 
United States to vanish. With this we shall attempt to answer the 
question of climate change impact due to emissions reductions.
    Using the U.N. IPCC impact tool known as Model for the Assessment 
of Greenhouse-gas Induced Climate Change or MAGICC, graduate student 
Rob Junod and I reduced the projected growth in total global emissions 
by U.S. emission contribution starting on this date and continuing on. 
We also used the value of the equilibrium climate sensitivity as 
determined from empirical techniques of 1.8 +C. After 50 years, the 
impact as determined by these model calculations would be only 0.05 to 
0.08 +C--an amount less than that which the global temperature 
fluctuates from month to month. [These calculations used emission 
scenarios A1B-AIM and AIF-MI with U.S. emissions comprising 14 percent 
to 17 percent of the 2015 global emissions. There is evidence that the 
climate sensitivity is less than 1.8 +C, which would further lower 
these projections.]
    Because changes in the emissions of our entire country would have 
such a tiny calculated impact on global climate, it is obvious that 
fractional reductions in emissions through regulation would produce 
imperceptible results. In other words, there would be no evidence in 
the future to demonstrate that a particular climate impact was induced 
by the proposed and enacted regulations. Thus, the regulations will 
have no meaningful or useful consequence on the physical climate 
system--even if one believes climate models are useful tools for 
prediction.
Alleged impacts of human-induced climate changes regarding extreme 
        events
    Much of the alarm related to increasing greenhouse gas 
concentrations shifted in the past decade from global temperature 
changes to changes in extreme events, i.e., those events which 
typically have a negative impact on the economy. These events may be 
heat waves, floods, hurricanes, etc.
    In terms of heat waves, below is the number of 100 +F days observed 
in the U.S. from a controlled set of weather stations. It is not only 
clear that hot days have not increased, but it is interesting that in 
the most recent years there has been a relative dearth of them.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Above: Average number of days per-station in each year reaching or 
exceeding 100+F in 982 stations of the USHCN database (NOAA/NCEI, 
prepared by JRChristy).

    Forest and wild fires are documented for the US. The evidence below 
indicates there has not been any change in frequency of wildfires. 
Acreage (not shown) shows little change as well.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Above: Number of U.S. wildfires. As the management of these events 
changes, and thus the number also changes, but the number of events 
since 1985 has remained constant. (National Interagency Fire Center 
https://www.nifc.gov/fireInfo/nfn.htm)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Above: Number of U.S. forest fires per year since 1965.

    The two figures above demonstrate that fire events have not 
increased in frequency in the United States during the past several 
decades.
    The claims that droughts and floods are increasing may be examined 
by the observational record as well.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Above: Global areal extent of five levels of drought for 1982-2012 
where dryness is indicated in percentile rankings with D0 < 30, D1 < 
20, D2 < 10, D3 < 5 and D4 < 2 percentile of average moisture 
availability. (Hao et al., 2014)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Above: Areal fraction of conterminous U.S. under very wet (blue) or 
very dry (red) conditions. NOAA/NCEI.

    The two figures above demonstrate that moisture conditions have not 
shown a tendency to have decreased (more drought) or increased (more 
large-scale wetness). Such information is rarely consulted when it is 
more convenient simply to make unsubstantiated claims that moisture 
extremes, i.e., droughts and floods (which have always occurred), are 
somehow becoming even more extreme. Over shorter periods and in certain 
locations, there is evidence that the heaviest precipitation events are 
tending to be greater. This is not a universal phenomenon and it has 
not been established that such changes may be due to changes in 
greenhouse gas concentrations as demonstrated earlier because the model 
projections are unable to reproduce the simplest of metrics.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Above: World grain production 1961-2012. U.N. Food and Agriculture 
Organization.

    It is a simple matter to find documentation of the ever-rising 
production of grains. One wonders about the Federal Council on 
Environmental Quality's allegation that there has been ``harm to 
agriculture'' from human-induced climate change because when viewing 
the total growth in production, which appears to be accelerating, one 
would assume no ``harm'' has been done during a period of rising 
greenhouse gases.
    With the evidence in these examples above, it is obviously 
difficult to establish the claims about worsening conditions due to 
human-caused climate change, or more generally that any change could be 
directly linked to increasing CO<INF>2</INF>. This point also relates 
to the issue of climate model capability noted earlier. It is clear 
that climate models fall short on some very basic issues of climate 
variability, being unable to reproduce ``what'' has happened regarding 
global temperature, and therefore not knowing ``why'' any of it 
happened. It is therefore premature to claim that one knows the causes 
for changes in various exotic measures of weather, such as rainfall 
intensity over short periods, which are not even explicitly generated 
in climate model output.
The Disappointing Scientific Process
    I have written much for previous congressional hearings and other 
venues about the failure of the scientific community to objectively 
approach the study of climate and climate change. (See Appendix) 
Climate science is a murky science with large uncertainties on many 
critical components such as cloud distributions and surface heat 
exchanges. As mentioned above, there is no objective instrumentation 
that can tell us ``why'' changes occur. That being the case, we are 
left with hypotheses (claims) to put forward and then to test. The 
information given above, in my view, is clear evidence that the current 
theoretical understanding of ``why'' the climate changes, as embodied 
in models (and on which current policy is based), fails such tests. 
Indeed, the theoretical (model) view as expressed in the IPCC AR5 in 
every case overestimated the bulk tropical atmospheric temperature 
response of extra greenhouse gases (see above and IPCC Supplementary 
Material Figure 10.SM.1) indicating the theoretical understanding of 
the climate response is too sensitive to greenhouse gases.
    One problem with our science relates to the funding process for 
climate studies, the vast majority of which is provided through Federal 
agencies. Funding decisions are decided by people, and people have 
biases. Our science has also seen the move toward ``consensus'' science 
where ``agreement'' between people and groups is elevated above 
determined, objective investigation. The sad progression of events here 
has even led to congressional investigations designed to silence (with 
some success) those whose voices, including my own, have challenged the 
politically-correct views on climate (i.e., congressional investigation 
by Rep. Grijalva, 22 Feb 2015, http://www.scribd.com/doc/256811029/
Letter-to-UAH-re-John-Christy.)
    Today, funding decisions are made by review panels. In this 
process, many proposals for funding are submitted to the agencies, but 
the agencies only have a fraction of the funds available to support the 
proposals, so only a few proposals can be funded and these are selected 
by panels. In the area of climate, it is clear the agencies are 
convinced of the consensus view of dangerous climate change as 
indicated by their various statements and press releases on the issue. 
Therefore, when a contrarian proposal is submitted that seeks to 
discover other possible explanations besides greenhouse gases for the 
small changes we now see, or one that seeks to rigorously and 
objectively investigate climate model output, there is virtually no 
chance for funding. This occurs because the panel determines by 
majority vote whom to fund, and with tight competition, any bias by 
just a couple of panel members against a contrarian proposal is 
sufficient for rejection. Of course, the agencies will claim all is 
done in complete objectivity, but that would be precisely the expected 
response of someone already within the ``consensus'' and whose agency 
has stated its position on climate change. This brings me to 
``consensus science.''
    The term ``consensus science'' will often be appealed to regarding 
arguments about climate change to bolster an assertion. This is a form 
of ``argument from authority.'' Consensus, however, is a political 
notion, not a scientific notion. As I testified to the Inter-Academy 
Council in June 2010, wrote in Nature that same year (Christy 2010), 
and documented in my written testimony for several congressional 
hearings (e.g., House Space, Science and Technology, 31 Mar 2011) the 
IPCC and other similar Assessments do not represent for me a consensus 
of much more than the consensus of those selected to agree with a 
particular consensus.
    The content of these climate reports is actually under the control 
of a relatively small number of individuals--I often refer to them as 
the ``climate establishment''--who through the years, in my opinion, 
came to act as gatekeepers of scientific opinion and information, 
rather than brokers. The voices of those of us who object to various 
statements and emphases in these assessments are by-in-large dismissed 
rather than accommodated. This establishment includes the same 
individuals who become the ``experts'' called on to promote IPCC claims 
in government reports such as the endangerment finding by the 
Environmental Protection Agency.
    As outlined in my previous testimonies, these ``experts'' become 
the authors and evaluators of their own research relative to research 
which challenges their work. This becomes an obvious conflict of 
interest. But with the luxury of having the ``last word'' as ``expert'' 
authors of the reports, alternative views vanish. This is not a process 
that provides the best information to the peoples' representatives. The 
U.S. Congress must have the full range of views on issues such as 
climate change which are (a) characterized by considerable ambiguity 
(see model results) (b) used to promote regulatory actions which will 
be economically detrimental to the American people and, most 
ironically, (c) will have no impact on whatever the climate will do.
    I've often stated that climate science is a ``murky'' science. We 
do not have laboratory methods of testing our hypotheses as many other 
sciences do. As a result what passes for science includes, opinion, 
arguments-from-authority, dramatic press releases, and fuzzy notions of 
consensus generated by preselected groups. This is not science.
    We know from Climategate e-mails and many other sources that the 
IPCC has had problems with those who take different positions on 
climate change than what the IPCC promotes. There is another way to 
deal with this however. Since the IPCC activity and climate research in 
general is funded by U.S. taxpayers, then I propose that five to ten 
percent of the funds be allocated to a group of well-credentialed 
scientists to produce an assessment that expresses legitimate, 
alternative hypotheses that have been (in their view) marginalized, 
misrepresented or ignored in previous IPCC reports (and thus the EPA 
Endangerment Finding and National Climate Assessments).
    Such activities are often called ``Red Team'' reports and are 
widely used in government and industry. Decisions regarding funding for 
``Red Teams'' should not be placed in the hands of the current 
``establishment'' but in panels populated by credentialed scientists 
who have experience in examining these issues. Some efforts along this 
line have arisen from the private sector (i.e., The Non-governmental 
International Panel on Climate Change at http://nipccreport.org/ and 
Michaels (2012) ADDENDUM:Global Climate Change Impacts in the United 
States). I believe policymakers, with the public's purse, should 
actively support the assembling all of the information that is vital to 
addressing this murky and wicked science, since the public will 
ultimately pay the cost of any legislation alleged to deal with 
climate.
    Topics to be addressed in this ``Red Team'' assessment, for 
example, would include (a) evidence for a low climate sensitivity to 
increasing greenhouse gases, (b) the role and importance of natural, 
unforced variability, (c) a rigorous and independent evaluation of 
climate model output, (d) a thorough discussion of uncertainty, (e) a 
focus on metrics that most directly relate to the rate of accumulation 
of heat in the climate system, (f) analysis of the many consequences, 
including benefits, that result from CO<INF>2</INF> increases, and (g) 
the importance that affordable and accessible energy has to human 
health and welfare.
    What this proposal seeks is to provide to the Congress and other 
policymakers a parallel, scientifically-based assessment regarding the 
state of climate science which addresses issues which here-to-for have 
been un-or under-represented by previous tax-payer funded, government-
directed climate reports. In other words, our policymakers need to see 
the entire range of findings regarding climate change.
Summary
    The messages of the four points outlined above are: (1) the 
theoretical understanding of the way greenhouse gases affect climate, 
as embodied on climate models, fails simple evaluation tests, (2) even 
if one accepts climate model output, the impact of reducing emissions 
by any of the regulations now enforce or proposed will be negligible, 
(3) the claims about increases in frequency and intensity of extreme 
events are generally not supported by actual observations and, (4) 
official information about climate science is largely controlled by 
agencies through (a) funding choices for research and (b) by the 
carefully-selected (i.e., biased) authorship of reports such as the EPA 
Endangerment Finding and the National Climate Assessment.
                                 ______
                                 
                                          IAC 15 June 2010 Montreal
    John R. Christy, Distinguished Professor of Atmospheric Science 
  Director, Earth System Science Center, Alabama State Climatologist, 
                  University of Alabama in Huntsville
        IPCC Lead Author: 2001 TAR, Contributor: 1992 Supplement
         Contributor: 1994 Radiative Forcing of Climate Change
                       Key Contributor: 1995 SAR
               Contributing Author: 2007 AR4, WG I and II
      NASA Medal for Exceptional Scientific Achievement, American 
    Meteorological Society Special Award for satellite observations
                Fellow, American Meteorological Society
    Mr. Chairman and members of the IAC panel, thank you for inviting 
me to offer my views on the IPCC process. Five years ago the New York 
Times quoted me saying that an IPCC-like process, ``. . . is the worst 
way to generate scientific information, except for all the others.'' 
(23 Aug 2005) I now think I was a bit too generous.
    A fundamental problem with the entire issue here is that climate 
science is not a classic, experimental science. As an emerging science 
of a complex, chaotic climate system, it is plagued by uncertainty and 
ambiguity in both observations and theory. Lacking classic, laboratory 
results, it easily becomes hostage to opinion, groupthink, arguments-
from-authority, overstatement of confidence, and even Hollywood movies. 
When climate scientists are placed in the limelight because this issue 
can generate compelling disaster scenarios, we simply don't want to 
say, ``We just don't know.''
    I have been a contributor to the IPCC Assessments since 1992 and a 
Lead Author in the Third Assessment of 2001. Though I had some good 
things to say about the IPCC, I did respond in 2001 to the U.S. 
National Academy of Sciences when they solicited information about 
certain problems (see Appendix A).
    At the time, I was more concerned about the product rather than the 
process. The first objection I raised regarding the Third Assessment 
was that the fabled Hockey Stick was oversold as an indicator of past 
climate change. This was well before the critical work of the Wegman 
Report, National Academy of Sciences, McIntyre's papers and the East 
Anglia e-mails. Indeed, I urge you in the strongest terms to engage 
Stephen McIntyre in your deliberations at a high level as he has 
accurately documented specific failures in the IPCC process, some of 
which I can attest to, as I was there.
    My second objection to the TAR was its overstatement of confidence 
in model projections.
    My role in the Fourth Assessment of 2007 was limited to that of a 
Contributing Author. This means I submitted recommendations that were 
dealt with by the Lead Authors who tended to disagree with my published 
findings. Thus, their views carried the day in the report. In this 
process, the final result really boils down the opinions of those 
selected as Lead Authors, a point I will address below.
    In March of last year, 8 months before the e-mail fiasco, about 140 
former IPCC Lead Authors gathered in Hawaii for a preview of what the 
Fifth Assessment might tackle. I was the only one there well-known to 
be essentially outside the IPCC ``consensus.'' I had come to the 
conclusion that the IPCC establishment demonstrated a disturbing 
homogeneity-of-thought regarding the hypothesized but unproven role 
that greenhouse gases might impose on the climate system. My short talk 
(Appendix B) and poster (Appendix C) at that meeting last year dealt 
with three science issues and offered a recommendation. The three 
issues were (1) the surface temperature record is flawed in many ways, 
but is flawed in particular as a metric to detect greenhouse-imposed 
warming, (2) direct tests of the so-called fingerprint of climate model 
temperature changes versus observations indicated significant 
differences, failing simple hypothesis tests, and (3) the critical 
value of climate sensitivity to greenhouse gases was overstated because 
it had not been properly calculated. All of these were supported by 
peer-reviewed publications which even now continue to appear.
    In my view, the IPCC process had drifted away from allowing authors 
to serve as Brokers of climate science, in which various views are 
given attention, to becoming Gatekeepers of climate science in which 
one view is elevated and promoted. The IPCC Assessment had become a 
``consensus of those who agreed with the consensus.'' Since 
``consensus'' is a political notion, not a scientific notion, a goal of 
``consensus'' in any forum is at its heart a political goal.
    My recommendation last year was to include a chapter written by 
credentialed climate scientists who would provide evidence concerning 
these heretofore minimized issues, in particular the low sensitivity of 
the climate system. My assumption at that time was that the IPCC 
writing process would be the same, i.e., that the Lead Authors of this 
chapter, as the others, would be given the sacred right of being their 
own final reviewers to let a new voice be heard. No one at the meeting 
thought this was a useful suggestion, I believe, because it would allow 
the expression of reasonable alternatives to claims too entrenched in 
the message of looming climate disasters promoted with IPCC indulgence.
    Since last March, much has happened to expose some of the 
scientists who dominated the IPCC, whom I call the establishment, as 
less than transparent, subject to bias, and who suppress alternative 
views while using the IPCC's perception as a near-sacred document to 
promote their own opinions. This establishment dominates not only the 
IPCC but also the review process of the peer-reviewed literature, 
making it extremely difficult for alternative evidence to even be 
published now. This happens when your type of science is rather murky 
to begin with.
    In my view, the three fundamental flaws in the current IPCC process 
are (1) the two-step political filter by which Lead Authors are 
selected, (2) the review-authority granted the Lead Authors who write 
the chapters and synthesis reports, and, (3) the very limited word-
count available for each topic, which encourages short and 
overconfident statements about questions that in truth are plainly 
nasty to deal with.
    In February of this year, Nature magazine asked me for a brief 
discussion about the IPCC and a way forward (Appendix D, last page). My 
main concern there was to define a process that would let the world 
know that our ignorance of much of the climate system is simply 
enormous and we have much to do. Mother Nature has a tremendous number 
of degrees of freedom up her sleeves, many of which we don't even know 
about or account for.
    So, I suggested a living, carefully-managed, wikipedia-style 
process. Important questions, most of which are already laid out in the 
IPCC manifest, would be addressed by teams of Lead Authors who would be 
far less constrained by the word-count rules, and so would allow fuller 
expression of uncertainty and disagreement--expressions contributed by 
the specific people who perform whatever research is being discussed. 
The Lead Authors main task would be to organize and summarize the 
information on each question, acting strictly as Brokers, not 
Gatekeepers. With web-based links to actual text (and data) the Lead 
Authors would be far less tempted to be biased. Lead Authors need to 
know they do not have to agree with the findings they report. I believe 
such transparency would spur the Lead Authors to be fairer and more 
humble in their summary comments.
    Peer-reviewed research of course would dominate the source 
material, but other documents--whose source is clearly identified--
could contribute to the discussion. I know there would be significant 
issues of managing such a process, but I believe it would be far better 
than producing big books every six years that are limited, biased and 
out-of-date when they are printed. We are in the 21st Century, and, to 
the despair of those who find comfort in absolute answers, there are 
only continuously evolving levels of understanding (and ignorance) to 
most of the climate questions being asked. This situation begs for a 
dynamic assessment process.
    The selection of Lead Authors through a two-step political process 
is a problem too. Presently, national governments nominate to the IPCC 
those who over the years, they can generally count on to be consistent 
with national policy. From this pool, the IPCC itself selects those it 
wants to be Lead Authors. To combat the political influence of 
governments and the U.N., to a small extent, I would recommend that 
Lead Authors be nominated by appropriate learned societies, such as 
yours, and selected for overlapping, rotating terms. I'm not completely 
comfortable with this as I'm aware that councils of science are deeply 
involved in political maneuvering which is why I state that to a 
``small extent'' the political influence of governments and the U.N. 
might be mitigated.
    Some Lead Authors could and should be scholars from other 
disciplines but who have a keen awareness of the hard rules of 
hypothesis testing, admissible evidence, and the power of language. . 
.physicists, chemists, engineers and yes, even lawyers. As I told a 
colleague the other day, it is clear to me now that climate science 
needs some adult supervision.
    I realize such a recommendation creates consternation among those 
who have controlled the process up to now and who believe deeply that 
the ``science is settled'' because they find comfort in easy and 
unimaginative answers to difficult questions. For example, why doesn't 
the IPCC report on (and funding agencies invest in) major research 
about the internal dynamical properties of the climate system? At 
present these properties are incapably represented in climate models to 
date, and yet have been shown to be a major source of the variability 
we've seen. Why must we be so unimaginative that we just give up and 
claim that nothing else but enhanced greenhouse forcing explains most 
of the temperature rise in the past 50 years?
    Others will complain that such an open process I describe will not 
generate the definitive statements necessary to drive policy. To those 
I say, ``Welcome to climate science.'' If a specific policy is desired, 
climate science is a weak leg on which to stand which means a policy 
should have multiple, defensible reasons for adoption.
    You will hear from those within the IPCC establishment that the 
IPCC does a terrific job of getting down to the truth about climate 
science and that the consensus reports are the best documents for 
policymakers. But as one mostly outside the ``consensus'', I can not 
agree, and I am far, far from being alone in that disagreement. I say 
this as a working-stiff climate scientist who builds datasets from 
scratch to create understanding and test assertions about the climate 
system. The process followed in the Fourth Assessment, in my view, 
simply did not provide to the world the true ambiguities, uncertainties 
and contentions of our fledgling science.
    In summary, to me, the impediments to providing a more honest 
expression of our science to the world in the current IPCC process are 
(1) Lead Authors essentially having final review authority, (2) the 
Lead Author selection process which encourages government-approved, 
homogeneity-of-thought, and (3) the limited size, the dead-line 
character, and the past-expiration-date of printed documents. Thank 
you.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Senator Cruz. Thank you, Dr. Christy.
    At this point in the hearing is when Mr. Aaron Mair, the 
President of the Sierra Club, would be afforded his opportunity 
to present the Sierra Club's views on global warming. 
Unfortunately, as we discussed a minute ago, even though he was 
invited to present the Sierra Club's views, he chose not to 
attend, and presumably, one reason for that is the last time he 
presented testimony on this topic, he was unable to answer even 
the most basic questions on the scientific basis for the 
political theory he was advancing, that we should massively 
increase the Federal Government regulation of the economy and 
dramatically drive up the cost of living, the electricity bills 
of millions of hard-working Americans.
    And so we will not be hearing from Mr. Mair now. Instead, 
we will hear from Dr. Curry.

       STATEMENT OF JUDITH A. CURRY, Ph.D., CHAIR OF THE

       SCHOOL OF EARTH AND ATMOSPHERIC SCIENCES, GEORGIA

                    INSTITUTE OF TECHNOLOGY

    Dr. Curry. I thank the Chairman and the Ranking Members for 
the opportunity to offer testimony today.
    Prior to 2009, I felt that supporting the IPCC consensus on 
climate change was a responsible thing to do. I bought into the 
argument don't trust what one scientist says, trust what an 
international team of 1,000 scientists have said after years of 
careful deliberation.
    That all changed for me in November 2009, following the 
leaked ``Climategate'' e-mails that illustrated the sausage 
making and even bullying that went into building the consensus. 
I started speaking out, saying that scientists needed to do 
better at making the data and supporting information publicly 
available, being more transparent about how they reach 
conclusions, doing a better job of assessing uncertainties, and 
actively engaging with scientists having minority perspectives.
    The response of my colleagues to this is summed up by the 
title of a 2010 article in the Scientific American, ``Climate 
Heretic: Judith Curry Turns on Her Colleagues.'' I came to the 
growing realization that I had fallen into the trap of group 
think. I had accepted the consensus based on second-order 
evidence, the assertion that a consensus existed.
    I began making an independent assessment of topics in 
climate science that had the most relevance to policy. And what 
have I concluded from this assessment? Human-caused climate 
change is a theory in which the basic mechanism is well 
understood, but whose magnitude is highly uncertain.
    No one questions that surface temperatures have increased 
overall since 1880 or that humans are adding carbon dioxide to 
the atmosphere, or that carbon dioxide and other greenhouse 
gases have a warming effect on the planet. However, there is 
considerable uncertainty and disagreement about the most 
consequential issues--whether the warming has been dominated by 
human causes versus natural variability, how much the planet 
will warm in the 21st century, and whether warming is 
dangerous.
    The central issue in the scientific debate on climate 
change is the extent to which the recent and future warming is 
caused by humans versus natural climate variability. Research 
effort and funding has focused on understanding human causes of 
climate change. However, we have been misled in our quest to 
understand climate change by not paying sufficient attention to 
natural causes of climate variability, in particular from the 
Sun and from the long-term oscillations in ocean circulations.
    Why do scientists disagree about climate change? The 
historical data is sparse and inadequate. There is disagreement 
about the value of different classes of evidence, notably the 
value of global climate models. There is disagreement about the 
appropriate logical framework for linking and assessing the 
evidence, and scientists disagree over assessments of areas of 
ambiguity and ignorance.
    How then and why have climate scientists come to a 
consensus about a very complex scientific problem that the 
scientists themselves acknowledge has substantial and 
fundamental uncertainties? Climate scientists have become 
entangled in an acrimonious political debate that has polarized 
the scientific community.
    As a result of my analyses that challenge IPCC conclusions, 
I have been called a denier by other climate scientists and 
most recently by Senator Sheldon Whitehouse. My motives have 
been questioned by Representative Grijalva in a recent letter 
sent to the president of Georgia Tech.
    There is enormous pressure for climate scientists to 
conform to the so-called consensus. This pressure comes not 
only from politicians, but from Federal funding agencies, 
universities, and professional societies, and scientists 
themselves who are green activists. Reinforcing this consensus 
are strong monetary, reputational, and authority interests.
    In this politicized environment, advocating for carbon 
dioxide emissions reductions is becoming the default expected 
position for climate scientists. This advocacy extends to the 
professional society that publish journals and organize 
conferences.
    Policy advocacy, when combined with understating the 
uncertainties, risks destroying science's reputation for 
honesty and objectivity without which scientists become 
regarded as merely another lobbyist group.
    I would like to thank the Committee for raising the issue 
of data versus dogma in support of improving the integrity of 
climate science. This concludes my testimony.
    [The prepared statement of Dr. Curry follows:]

  Prepared Statement of Judith A. Curry, Professor and former Chair, 
    School of Earth and Atmospheric Sciences, Georgia Institute of 
                               Technology
    I thank the Chairman and the Committee for the opportunity to offer 
testimony today on `Data or Dogma? Promoting Open Inquiry in the Debate 
on Climate Change.' I am Professor and former Chair of the School of 
Earth and Atmospheric Sciences at the Georgia Institute of Technology. 
As a climate scientist, I have devoted 30 years to conducting research 
on a variety of topics including climate dynamics of the Arctic, 
climate dynamics of extreme weather events, and reasoning about climate 
uncertainty. As president of Climate Forecast Applications Network LLC, 
I have been working with decision makers on climate impact assessments, 
assessing and developing climate adaptation strategies, and developing 
subseasonal climate forecasting strategies to support adaptive 
management and tactical adaptation.
    Over the past decade, I have become increasingly concerned about 
the integrity of climate research, which is being compromised by the 
politicization of the science. My research on understanding the 
dynamics of uncertainty at the climate science-policy interface has led 
me to conclude these dynamics are not operating in a manner that is 
healthy for either the science or the policy process.
    My testimony focuses on the following issues of central relevance 
to the state of climate science:

  <bullet> Consensus, uncertainty and disagreement

  <bullet> Unsettled climate science: the importance of natural climate 
        variability

  <bullet> Scenarios for the 21st century climate

  <bullet> The broken contract between climate science and society
Consensus, uncertainty and disagreement
    Under the auspices of the Intergovernmental Panel on Climate Change 
(IPCC), the international climate community has worked for more than 20 
years to establish a scientific consensus on human-caused climate 
change. The IPCC consensus about dangerous anthropogenic climate change 
is portrayed as nearly total among scientists with prominence in the 
field of climate science, and the IPCC consensus has been endorsed by 
the relevant national and international science academies and 
scientific societies.
    The IPCC consensus building process arguably played a useful role 
in the early synthesis of the scientific knowledge. However, I have 
argued that the ongoing process to negotiate a scientific consensus has 
had the unintended consequence of oversimplifying both the problem and 
its solution, introducing biases into the both the science and related 
decision making processes.
    A scientist's job is to critically evaluate evidence and challenge 
and reassess conclusions drawn from the evidence. Disagreement and 
minority perspectives have an important and respected role to play in 
advancing science, as a mean for testing ideas and pushing the 
knowledge frontier forward. How then, and why, have climate scientists 
come to a scientific consensus about a very complex scientific problem 
that the scientists themselves acknowledge has substantial and 
fundamental uncertainties?
    Climate scientists have become entangled in an acrimonious 
political debate that has polarized the scientific community and has 
resulted in political attacks on scientists on both sides of the 
debate. A scientist's `side' is often defined by factors that are 
exogenous to the actual scientific debate. Scientific controversies 
surrounding evidence of climate change have become a proxy for 
political battles over whether and how to react to climate change. 
Therefore, `winning' a scientific debate means attaining a privileged 
position in political battle, hence providing motivation for defending 
the scientific consensus. The quality of both scientific and policy 
debate has suffered as a consequence.
    A climate scientist making a statement about uncertainty or degree 
of doubt in the climate debate is categorized as a denier or a 
`merchant of doubt,' whose motives are assumed to be ideological or 
motivated by funding from the fossil fuel industry. My own experience 
in publicly discussing concerns about how uncertainty is characterized 
by the IPCC has resulted in my being labeled as a `climate heretic' \1\ 
that has turned against my colleagues.
---------------------------------------------------------------------------
    \1\ http://www.scientificamerican.com/article/climate-heretic/
---------------------------------------------------------------------------
    There is enormous pressure for climate scientists to conform to the 
so-called consensus. This pressure comes not only from politicians, but 
from Federal funding agencies, universities and professional societies, 
and scientists themselves who are green activists and advocates. 
Reinforcing this consensus are strong monetary, reputational, and 
authority interests.
    As a result, I have become very concerned about the integrity of 
climate science. In the last 5 years, I have published a series of 
papers that address the inadequacies that I see in how climate 
scientists address the issue of uncertainty, and provide ways forward 
for improved reasoning about the complex problems in climate science:

  <bullet> Climate science and the uncertainty monster \2\
---------------------------------------------------------------------------
    \2\ http://journals.ametsoc.org/doi/pdf/10.1175/2011BAMS3139.1

  <bullet> Reasoning about climate uncertainty \3\
---------------------------------------------------------------------------
    \3\ http://www.climateaccess.org/sites/default/files/
Curry_Reasoning%20about
%20climate%20uncertainty.pdf

  <bullet> Nullifying the climate null hypothesis \4\
---------------------------------------------------------------------------
    \4\ http://onlinelibrary.wiley.com/doi/10.1002/wcc.141/
abstract?userIsAuthenticated=false
&deniedAccessCustomisedMessage=

  <bullet> Climate science: no consensus on consensus \5\
---------------------------------------------------------------------------
    \5\ http://curryja.files.wordpress.com/2012/10/consensus-paper-
revised-final.doc

    How to deal with the politicization of climate science is less 
obvious, but I regard it as highly important to shine some light on 
these problems. On my blog Climate Etc. at judithcurry.com, under the 
tags of `Ethics' \6\, `Consensus' 1A\7\ and `Sociology of Science' \8\, 
I have written a series of essays on biases, the problems of advocacy 
and partisanship among climate scientists, conflicts of interest, and 
suppressions of climate inquiry.
---------------------------------------------------------------------------
    \6\ http://judithcurry.com/category/ethics/
    \7\ http://judithcurry.com/category/consensus/
    \8\ http://judithcurry.com/category/sociology-of-science/
---------------------------------------------------------------------------
Unsettled climate science
    Anthropogenic climate change is a theory in which the basic 
mechanism is well understood, but whose magnitude is highly uncertain 
owing to feedback processes. Scientists agree that surface temperatures 
have increased overall since 1880, humans are adding carbon dioxide to 
the atmosphere, and carbon dioxide and other greenhouse gases have a 
warming effect on the planet. However there is considerable 
disagreement about the most consequential issues: whether the warming 
has been dominated by human causes versus natural variability, how much 
the planet will warm in the 21st century, and whether warming is 
`dangerous'.
    Why do climate scientists disagree? The historical data is sparse 
and inadequate. There is disagreement about the value of different 
classes of evidence, notably the value of global climate models. There 
is disagreement about the appropriate logical framework for linking and 
assessing the evidence in this complex problem. Scientists disagree 
over assessments of areas of ambiguity and ignorance. And finally, 
belief polarization resulting from politicization of the science and 
the IPCC's consensus building process contributes substantially to the 
disagreement among scientists.
What is causing the warming?
    The key conclusion of the 2013 IPCC AR5 Report \9\ is that it is 
extremely likely that more than half of the warming since 1950 has been 
caused by humans, and climate model simulations indicate that all of 
this warming has been caused by humans.
---------------------------------------------------------------------------
    \9\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_SPM_FINAL.pdf
---------------------------------------------------------------------------
    Global surface temperature anomalies since 1850 are shown below.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Figure 1: Global surface temperature anomalies from the UK HadCRUT4 
dataset http://www.cru.uea.ac.uk/cru/data/temperature/HadCRUT4.pdf

    If the warming since 1950 was caused by humans, what caused the 
warming during the period 1910--1945? The period 1910-1945 comprises 
over 40 percent of the warming since 1900, but is associated with only 
10 percent of the carbon dioxide increase since 1900. Clearly, human 
emissions of greenhouse gases played little role in causing this early 
warming. The mid-century period of slight cooling from 1945 to 1975--
referred to as the `grand hiatus', also has not been satisfactorily 
explained.
    Apart from these unexplained variations in 20th century 
temperatures, there is evidence that the global climate has been 
warming overall for the past 200 years, or even longer. While 
historical data becomes increasingly sparse in the 19th century, the 
Berkeley Earth Surface Temperature Project has assembled the available 
temperature data over land, back to 1750:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2: Global land surface temperature anomalies since 1750, 
smoothed with a 10 year filter \10\.
---------------------------------------------------------------------------
    \10\ Rohde et al., Geoinfor Geostat: An Overview 2013, 1:1 http://
dx.doi.org/10.4172/2327-4581.1000101

    The Berkeley Earth analysis shows a warming trend back to 1800, 
with considerable variability around the turn of the 19th century. Some 
of this variability around the turn of the 19th century can be 
attributed to large volcanic eruptions; this was also the time of the 
Dalton solar activity minimum (1791-1825). Paleoclimate reconstructions 
of Northern Hemisphere climate--such as from tree rings and boreholes--
indicate that overall warming may have occurred for the past 300-400 
years.\11\ Humans contributed little if anything to this early global 
warming.
---------------------------------------------------------------------------
    \11\ http://www.climatechange2013.org/report/reports-graphic/ch5-
graphics/, Figure 5.7
---------------------------------------------------------------------------
What is the global warming hiatus, and why does it matter?
    The warming hiatus, or `pause', reflects a slowdown of the rate of 
warming in the early 21st century, relative to the rapid rate of 
warming in the last quarter of the 20th century. The 2013 IPCC AR5 
Report \12\ made the following statement: ``the rate of warming over 
the past 15 years . . . is smaller than the rate calculated since 
1951''.
---------------------------------------------------------------------------
    \12\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_SPM_FINAL.pdf
---------------------------------------------------------------------------
    The significance of a reduced rate of warming since 1998 is that 
during this period, 25 percent of human emissions of carbon dioxide 
have occurred. Most significantly, the observed rate of warming in the 
early 21st century was slower than climate model predictions. The 
growing discrepancy between climate model predictions and the 
observations has raised serious questions about the climate models that 
are being used as the basis for national and international energy and 
climate policies.
    There has been a raging debate in recent months surrounding a new 
global temperature data set published by NOAA.\13\ The new data set 
finds more warming in recent decades than other global surface 
temperature data sets. Media headlines touted the conclusion that 
science now shows that the recent hiatus in warming never existed. 
Other headlines accused NOAA of fiddling with the climate data to erase 
the warming hiatus.
---------------------------------------------------------------------------
    \13\ http://www.sciencemag.org/content/early/2015/06/03/
science.aaa5632.full
---------------------------------------------------------------------------
    As NOAA's new land temperature data set did not become publicly 
available until last month, independent scientists have not yet had the 
chance to fully assess or understand the new data set. The differences 
during the recent hiatus period between the new NOAA surface 
temperature data set and the other data sets is illustrated below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3: Global surface temperature anomalies since 1995, for four 
different data sets. Figure courtesy of Robert Rohde of the Berkeley 
Earth Surface Temperature Project

    The new NOAA temperatures (red curve) are somewhat colder prior to 
2007, and warmer since 2012. The largest discrepancies with other data 
sets are in the ocean data. Scientists are working to understand the 
reasons for these discrepancies. The trend of the new NOAA dataset of 
0.1+C per decade for the period 1998-2014 is more than 50 percent 
larger than the trend of some of the other data sets. However, even the 
larger NOAA trend is at the bottom of the IPCC AR5 climate model 
projections for the early 21st century warming of 0.11 to 0.43 +C per 
decade \14\.
---------------------------------------------------------------------------
    \14\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_Chapter11_FINAL.pdf
---------------------------------------------------------------------------
    The warming hiatus is most clearly revealed in the global satellite 
data sets of lower atmospheric temperature (Figure 4). Scientists 
disagree on the reasons for the discrepancies between the variations of 
surface temperature and the lower atmospheric temperatures. The 
presence of El Nino and La Nina events compounds the difficulty in 
interpreting trends.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 4: Lower atmospheric temperature anomalies determined from 
satellite, for two different analyses. Figure courtesy of Roy Spencer, 
University of Alabama Huntsville.

    The U.S. media touted 2014 as the `warmest year' in the historical 
record; however, given the uncertainties in the analyses, 2014 was in a 
statistical tie with 2010 and 2005. The UK dataset HadCRU, with perhaps 
a more realistic assessment of uncertainties, found 2014 to rank among 
the top 10 warmest years, all of which are since 1998. While the recent 
decade is the warmest in history, the ties for warmest year further 
reflect a plateau in the warming.
    Scientists working with the global surface temperature datasets 
have predicted an 85 percent probability that 2015 will be the warmest 
year on record.\15\ Declarations of `warmest year' are already being 
made, before the end of the year, presumably to support the current UN 
climate negotiations in Paris. However, scientists working with the 
satellite data of lower atmospheric temperatures do not foresee 2015 as 
being among the warmest years.
---------------------------------------------------------------------------
    \15\ http://berkeleyearth.org/berkeley-earth-temperature-update/
---------------------------------------------------------------------------
    Scientists continue to investigate the reasons for discrepancies 
among the data sets. It will likely be 5 years into the future before 
we have the perspective to identify whether the warming hiatus has 
ended with a resumption of a more rapid rate of warming, or whether the 
warming in 2015 from the large El Nino event will be followed by 
several cool years, as is often the case following El Nino events.
The oceans: sea ice and sea level rise
    Among the greatest public concerns about climate change are sea 
level rise and melting of the polar ice. However, unless the recent 
changes are put in context with historical variations and an 
understanding of natural variability, it is easy to erroneously infer 
that any recent change is caused by humans.
Sea ice
    The IPCC AR5 SPM \16\ reports the following trends in sea ice:
---------------------------------------------------------------------------
    \16\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_SPM_FINAL.pdf

        ``[T]he annual Arctic sea ice extent decreased over the period 
        1979-2012: the rate of this decrease was very likely between 
---------------------------------------------------------------------------
        3.5 and 4.1 percent per decade

        ``It is very likely that the annual Antarctic sea ice extent 
        increased at a rate of between 1.2 and 1.8 percent per decade 
        between 1979 and 2012.

    Below are satellite observations of sea ice variability through 
early December 2015.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 5. Sea ice extent anomalies from 1979 to present.
    Source: http://arctic.atmos.uiuc.edu/cryosphere/IMAGES/
seaice.anomaly.arctic.png,
    http://arctic.atmos.uiuc.edu/cryosphere/IMAGES/
seaice.anomaly.antarctic.png

    With regards to the most recent sea ice variability: since 2013, 
Arctic sea ice is recovering from its summertime minima during the 
period 2007-2012. Notably, Arctic sea ice volume (a metric that 
combines both horizontal extent and ice thickness) shows a continuing 
increase since 2012.\17\ During 2014, Antarctic sea ice set a 
wintertime maximum record; whereas during 2015, the Antarctic sea ice 
extent has declined owing to the El Nino event.
---------------------------------------------------------------------------
    \17\ http://psc.apl.washington.edu/wordpress/wpcontent/uploads/
schweiger/ice_volume/BPI
OMASIceVolumeAnomalyCurrentV2.1.png
---------------------------------------------------------------------------
    Regarding the causes of the recent variations in sea ice, the AR5 
Chapter 10 \18\ states:
---------------------------------------------------------------------------
    \18\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_Chapter10_FINAL.pdf

        ``Anthropogenic forcings are very likely to have contributed to 
        Arctic sea ice loss since 1979. There is low confidence in the 
        scientific understanding of the observed increase in Antarctic 
        sea ice extent since 1979, due to the incomplete and competing 
        scientific explanations for the causes of change and low 
---------------------------------------------------------------------------
        confidence in estimates of internal variability.''

        ``Arctic temperature anomalies in the 1930s were apparently as 
        large as those in the 1990s and 2000s. There is still 
        considerable discussion of the ultimate causes of the warm 
        temperature anomalies that occurred in the Arctic in the 1920s 
        and 1930s.''

    The IPCC AR5 states that the increase in Antarctic sea ice is not 
understood and is not simulated correctly by climate models. Further, 
Arctic surface temperature anomalies in the 1930s were nearly as large 
as the recent temperature anomalies, and hence the IPCC uses the weak 
phrase `contributed to' in reference to anthropogenic influences on 
Arctic sea ice.
    A recent paper by Swart et al.\19\ emphasized that internal climate 
variability can mask or enhance human-induced sea-ice loss on 
timescales ranging from years to decades or even a century. A recent 
paper by Zhang \20\ clarifies the natural fluctuations that influence 
Arctic sea ice loss--heat transported by the Atlantic and Pacific, and 
wind patterns over the Arctic that drive sea ice out from the central 
Arctic, where it melts in the North Atlantic. In particular, the recent 
cooling in the high latitudes of the North Atlantic is associated with 
the current recovery of the sea ice in the Atlantic sector.
---------------------------------------------------------------------------
    \19\ Swart et al 2015 Influence of internal variability on Arctic 
sea-ice trends, Nature climate Change, 5, Pages: 86-89 DOI: 
doi:10.1038/nclimate2483
    \20\ Zhang, R. 2015. Mechanisms for low-frequency variability of 
summer Arctic sea ice extent, Proceedings of the National Academy of 
Sciences, doi:10.1073/pnas.1422296112
---------------------------------------------------------------------------
    Wyatt and Curry (2014) interpret the multi-decadal natural 
variability component of the Arctic sea ice in context of a `stadium 
wave'.\21\ The stadium wave is a hypothesized low-frequency climate 
signal propagating across the Northern Hemisphere, whose tempo is set 
by the multidecadal component of Atlantic Ocean variability--the 
Atlantic Multidecadal Oscillation. Sea ice in the Eurasian Arctic shelf 
region, where sea ice is uniquely exposed to open ocean in the Northern 
Hemisphere, bridges communication between the ocean and atmosphere that 
sustains propagation of the hemispheric signal. Ocean-ice-atmosphere 
coupling spawns a sequence of positive and negative feedbacks that 
convey persistence and quasi-oscillatory features to the signal. 
Further stabilizing the system are anomalies of co-varying Pacific-
centered atmospheric circulations. The stadium wave hypothesis suggests 
that a transition to recovery of the natural variability component of 
the sea ice extent has begun in the European Arctic sector, and that 
the recovery will reach its maximum extent circa 2040.
---------------------------------------------------------------------------
    \21\ Wyatt, MG and JA Curry, 2013: Role for Eurasian Arctic shelf 
sea ice in a secularly varying hemispheric climate signal during the 
20th century. Climate Dynamics, http://curryja
.files.wordpress.com/2013/10/stadium-wave1.pdf
---------------------------------------------------------------------------
    Clearly, there is a lot going on with respect to variability in 
Arctic and Antarctic sea ice that cannot be explained solely by warming 
from human-caused greenhouse gases. Climate models do not simulate 
correctly the ocean heat transport and its variations. Scientists do 
not agree on the explanation for the increasing Antarctic sea ice 
extent, and the key issue as to whether human-caused warming is the 
dominant cause of the recent Arctic sea ice loss remains unresolved.
    Nevertheless, the IPCC AR5 concluded:

  <bullet> ``[I]t is very likely that the Arctic sea ice cover will 
        continue to shrink and thin all year round during the 21st 
        century. It is also likely that the Arctic Ocean will become 
        nearly ice-free in September before the middle of the century 
        (medium confidence).''

    More convincing arguments regarding causes of recent sea ice 
variations in both hemispheres are required before placing any 
confidence in projections of future changes in Arctic sea ice cover.
Sea level rise
    The IPCC AR5 SPM \22\ makes the following statements regarding 
global sea level rise:
---------------------------------------------------------------------------
    \22\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_SPM_FINAL.pdf

        ``Over the period 1901-2010, global mean sea level rose by 0.19 
---------------------------------------------------------------------------
        [0.17 to 0.21] m'' [about 7-8 inches]

        ``It is very likely that the mean rate of global averaged sea 
        level rise was 1.7 [1.5 to 1.9] mm yr<SUP>-1</SUP> between 1901 
        and 2010 . . . and 3.2 [2.8 to 3.6] mm yr<SUP>-1</SUP> between 
        1993 and 2010. It is likely that similarly high rates occurred 
        between 1920 and 1950.''

    The rate of global mean sea level rise as portrayed in the IPCC AR5 
is shown in Figure 6 below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 6. 18-year trends of global mean sea level rise estimated at 
1-year intervals. The time is the start date of the 18-year period, and 
the shading represents the 90 percent confidence. The estimate from 
satellite altimetry is also given, with the 90 percent confidence given 
as an error bar. [AR5 WGI Figure 3.14] \23\
---------------------------------------------------------------------------
    \23\ https://www.ipcc.ch/publications_and_data/ar4/wg1/en/spm.html

---------------------------------------------------------------------------
    The IPCC AR5 then concludes:

        ``It is very likely that there is a substantial contribution 
        from anthropogenic forcings to the global mean sea level rise 
        since the 1970s.''

    Global sea level has been rising for the past several thousand 
years. The key issue is whether the rate of sea level rise is 
accelerating owing to anthropogenic global warming. It is seen that the 
rate of rise during 1920-1950 was comparable to, if not larger than, 
the value in recent years (a period contributing less than 10 percent 
of the human caused CO<INF>2 </INF>emissions since 1900). Hence the 
data does not seem to support the IPCC's conclusion of a substantial 
contribution from anthropogenic forcings to the global mean sea level 
rise since the 1970s.
    The IPCC AR5 then makes the following projections regarding sea 
level rise:

        ``Under all RCP scenarios the rate of sea level rise will very 
        likely exceed that observed during 1971-2010 due to increased 
        ocean warming and increased loss of mass from glaciers and ice 
        sheets.''

        ``For RCP8.5, the rise by the year 2100 is 0.52 to 0.98 m [20 
        to 38 inches], with a rate during 2081-2100 of 8 to16 mm/yr 
        (medium confidence). These ranges are derived from CMIP5 
        climate projections in combination with process-based models 
        and literature assessment of glacier and ice sheet 
        contributions.''

    So, for a warming since 1900 that is approaching 1 +C, we have been 
unable to identify an unambiguous signal of human-caused sea level rise 
that exceeds the signal from natural variability (as evidenced by the 
large rates of sea level rise from 1920 to 1950). The extreme emissions 
scenario (RCP8.5) projects a sea level increase of 20 to 38 inches by 
the end of the 21st century; for the more realistic emissions scenario 
RCP6.0, the projected sea level rise is 13 to 25 inches. These 
projections were obtained using the same CMIP5 models that are arguably 
running too hot in their temperature projections, perhaps by a factor 
of two.
    The largest concern about a potential catastrophic sea level rise 
is the possible collapse of the West Antarctic Ice Sheet (WAIS). The 
IPCC AR5 decided that there was insufficient evidence to make an 
assessment any more precise than the sea level rise contribution from 
WAIS ``would not exceed several tenths of a metre'' by the end of the 
21st century. A recent paper in Nature \24\ predicts that WAIS 
instability will most likely contribute 10 cm sea level rise by the end 
of the 21st century but is extremely unlikely to contribute more than 
30 cm.
---------------------------------------------------------------------------
    \24\ http://www.nature.com/articles/doi:10.1038/nature16147
---------------------------------------------------------------------------
    A recent paper \25\ published by NASA scientists found that overall 
mass gains of the Antarctic ice sheet exceed losses, and that the 
growing accumulation of snow over Antarctic is decreasing global sea 
level by 0.23 mm/yr. This finding is in contrast to the IPCC AR5 
conclusion that Antarctica was adding 0.27 mm/yr to sea level rise. The 
issues surrounding the current and potential future contributions of 
Antarctica to sea level rise continue to be debated.
---------------------------------------------------------------------------
    \25\ http://www.ingentaconnect.com/content/igsoc/jog/pre-prints/
content-ings_jog_15j071
---------------------------------------------------------------------------
    The essential issue regarding sea level rise is that any dangers 
are local. Global warming (whether natural or anthropogenic) is only 
one factor that influences local sea level rise: other factors are 
geological sinking/rising, ground water withdrawal, and river and 
coastal engineering. Nearly all locales where sea level rise is 
regarded as dangerous have rates of sea level rise that far exceed the 
global rate of 3 mm/yr--U.S. examples \26\ are the Louisiana coast 
(9.03 mm/yr) and Chesapeake Bay (6.02 mm/yr), and Bangladesh sea level 
is rising at a rate of 10.7 mm/yr \27\. A recent study by New Zealand 
scientists \28\ found that 18 of 29 atoll islands in the tropical 
Pacific have actually grown over the past 60 years, in the presence of 
rising sea levels.
---------------------------------------------------------------------------
    \26\ http://tidesandcurrents.noaa.gov/sltrends/sltrends.html
    \27\ http://www.sciencedirect.com/science/article/pii/
S0921818113002191
    \28\ http://www.crossref.org/iPage?doi=10.1130%2FG36555.1
---------------------------------------------------------------------------
Summary
    Anthropogenic climate change is a theory in which the basic 
mechanism is well understood, but whose potential magnitude is highly 
uncertain. What does the preceding analysis imply for IPCC's `extremely 
likely' attribution of anthropogenically caused warming since 1950?

  1.  After expecting a global mean surface temperature increase of 0.2 
        +C per decade in the early decades of the 21st century based on 
        climate model simulations and statements in the 2007 IPCC AR4 
        Report \29\, the rate of warming since 1998 is only 0.065 +C 
        per decade (HadCRUT4 data set) or 0.1 +C per decade (new NOAA 
        data set).
---------------------------------------------------------------------------
    \29\ https://www.ipcc.ch/publications_and_data/ar4/wg1/en/spm.html

  2.  There have been large magnitude variations in global/hemispheric 
        climate on timescales of 30 years, which are the same duration 
        as the late 20th century warming. The IPCC does not have 
        convincing explanations for previous 30 year periods in the 
        20th century, notably the warming 1910-1945 and the grand 
---------------------------------------------------------------------------
        hiatus 1945-1975.

  3.  There is a secular warming trend at least since 1800 (and 
        possibly as long as 400 years), that cannot be explained by 
        CO<INF>2</INF>, and is only partly explained by volcanic 
        eruptions.

    The combination of these three points substantially reduces the 
confidence that we should place in the IPCC's attribution of warming 
since 1950 to human causes.
    With regards to the multidecadal variations, a recent paper by Tung 
and Zhou \30\ argue that a natural multidecadal oscillation of an 
average period of 70 years with significant amplitude of 0.3-0.4+C is 
superimposed on the secular warming trend, which accounts for 40 
percent of the observed warming since the mid-20th century. Tung and 
Zhou identify this oscillation with the Atlantic Multidecadal 
Oscillation (AMO), although the stadium wave \31\ suggests a more 
complex multidecadal signal. The stadium wave provides a common 
explanation for both the mid 20th century warming hiatus (1945-1975) 
and the 21st century warming hiatus (since 1998). These oscillations 
are strongly reflected also in Arctic temperatures, Arctic sea ice 
extent and Greenland melting.
---------------------------------------------------------------------------
    \30\ Tung, KK and J Zhou, 2013: Using data to attribute episodes of 
warming and cooling in instrumental records. PNAS http://www.pnas.org/
content/early/2013/01/22/1212471110
.abstract
    \31\ Wyatt, MG and JA Curry 2014: Role for Eurasian Arctic shelf 
sea ice in a secularly varying hemispheric climate signal during the 
20th century. Climate Dynamics, 42, 2763-2782. http://judithcurry.com/
2013/10/10/the-stadium-wave/
---------------------------------------------------------------------------
    What could be the cause of a 200--400 year period of secular 
warming? The obvious places to look are to the sun and the ocean. Ocean 
circulation patterns influence climate also on century to millennial 
time scales. Sun-climate connections are receiving renewed interest, as 
evidenced by the National Academies Workshop Report ``The Effects of 
Solar Variability on Earth's Climate''.\32\ Understanding and 
explaining the climate variability over the past 400 years, prior to 
1950, has received far too little attention. Without this 
understanding, we should place little confidence in the IPCC's 
explanations of warming since 1950--it is too easy to get the `right' 
answer for the wrong reasons.
---------------------------------------------------------------------------
    \32\ http://www.nap.edu/read/13519/chapter/1#xi
---------------------------------------------------------------------------
Whither the 21st century climate?
    The IPCC has made dire predictions that we can expect 4 +C or more 
of warming by the end of the 21st century if carbon dioxide emissions 
are not reduced. The climate models making these predictions are the 
same models that predicted too much warming in the early 21st century, 
and do not reproduce the warming from 1910-1945 or the mid 20th century 
grand hiatus. Further, the global climate models cannot predict future 
major volcanic eruptions or solar cycles, and do not adequately predict 
the long-term oscillations in the ocean.
Arguments for lower values of climate sensitivity to CO<INF>2</INF>
    Human-caused warming depends not only on increases in greenhouse 
gases but also on how `sensitive' the climate is to these increases. 
Climate sensitivity is defined as the global surface warming that 
occurs when the concentration of carbon dioxide in the atmosphere 
doubles. If climate sensitivity is high, then we can expect substantial 
warming in the coming century as emissions continue to increase. If 
climate sensitivity is low, then future warming will be substantially 
lower.
    The equilibrium climate sensitivity (ECS) is defined as the change 
in global mean surface temperature that is caused by a doubling of the 
atmospheric CO<INF>2 </INF>concentration, allowing sufficient time for 
the climate to equilibrate. Table 1 compares the values of ECS 
determined by: the IPCC AR4 (2007)\33\, the IPCC AR5 (2013)\34\, the 
CMIP5 climate models cited in the IPCC AR5 (2013)\35\, the 
observational analysis of Lewis and Curry (2014)\36\ and the update by 
Lewis (2015)\37\ with lower aerosol forcing, and the U.S. IWG \38\ 
(used to determine the social cost of carbon).
---------------------------------------------------------------------------
    \33\ https://www.ipcc.ch/publications_and_data/ar4/wg1/en/spm.html
    \34\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_SPM_FINAL.pdf
    \35\ http://www.climatechange2013.org/images/uploads/WGIAR5_WGI-
12Doc2b_FinalDraft
_Chapter09.pdf
    \36\ Lewis, N. and J.A. Curry, (2014) The implications for climate 
sensitivity of AR5 forcing and heat uptake. Climate Dynamics http://
link.springer.com/article/10.1007%2Fs00382-014-2342-y#page-1
    \37\ http://judithcurry.com/2015/03/19/implications-of-lower-
aerosol-forcing-for-climate-sensi
tivity/
    \38\ https://www.whitehouse.gov/sites/default/files/omb/inforeg/
scc-tsd-final-july-2015.pdf

      Table 1: Values of equilibrium climate sensitivity (ECS) (C)
------------------------------------------------------------------------
                                     Best
                                   Estimate   5th pctile    95th pctile
------------------------------------------------------------------------
IPCC AR4 (2007)                         3.0          1.5              --
IPCC AR5 (2013)                          --          1.0            6.0*
CMIP5 models (2013)                    3.22          2.1             4.7
Lewis & Curry (2014)                   1.64         1.05            4.05
Lewis (2015)                           1.45         1.05             2.2
US IWG                                  3.0         1.72            7.14
------------------------------------------------------------------------
90th pctile

    There are marked differences between the values of ECS determined 
by the IPCC AR5 versus the AR4. The nominal lower bound (5th 
percentile) has dropped from 1.5 +C (AR4) to 1.0 +C (AR5). The AR5 
finds values of ECS exceeding 6+C to be very unlikely (90th 
percentile), whereas the AR4 did not have sufficient confidence to 
identify an upper bound at this confidence level. It is also 
significant that the AR5 does not cite a `best estimate', whereas the 
AR4 cites a best estimate of 3 +C. The stated reason for not citing a 
best estimate in the AR5 is the substantial discrepancy between 
observation-based estimates of ECS (lower), versus estimates from 
climate models (higher).
    Lewis and Curry (2014) found values of ECS approximately half that 
determined from the CMIP5 climate models. Using an observation-based 
energy balance approach, our calculations used the same data (including 
uncertainties) for changes in greenhouse gases, aerosols and other 
drivers of climate change given by the IPCC AR5. Our range for ECS is 
much narrower, with far lower upper limits, than reported by the IPCC 
AR5. Recent papers by Skeie et al \39\ and Masters \40\ also find 
comparably low values of ECS.
---------------------------------------------------------------------------
    \39\ Skeie, R. B., T. Berntsen, M. Aldrin, M. Holden, and G. Myhre, 
2014. A lower and more constrained estimate of climate sensitivity 
using updated observations and detailed radiative forcing time series. 
Earth System Dynamics, 5, 139-175.
    \40\ Masters, T., 2013. Observational estimates of climate 
sensitivity from changes in the rate of ocean heat uptake and 
comparison to CMIP5 models. Climate Dynamics, doi:101007/s00382-013-
1770-4
---------------------------------------------------------------------------
    The latest research suggests even lower values of the equilibrium 
climate sensitivity. The greatest uncertainty in ECS estimates is 
accounting for the effects of small aerosol particles in the 
atmosphere, which have a cooling effect on the climate (partially 
counteracting the greenhouse warming). A new paper by Stevens \41\ 
constrains the impact of aerosols on climate to be significantly 
smaller than assumed in the IPCC AR5. Nicholas Lewis has re-run the 
calculations used in Lewis and Curry (2014) using aerosol impact 
estimates in line with Stevens' paper.\42\ Most significantly, the 
upper bound (95th percentile) is lowered to 2.2 +C (Table 1).
---------------------------------------------------------------------------
    \41\ Stevens, B (2015) Rethinking the lower bound on aerosol 
forcing. J. Climate, http://journals.ametsoc.org/doi/abs/10.1175/JCLI-
D-14-00656.1
    \42\ Lewis, N, (2015) Implications of lower aerosol forcing for 
climate sensitivity. http://judithcurry.com/2015/03/19/implications-of-
lower-aerosol-forcing-for-climate-sensitivity/
---------------------------------------------------------------------------
    At the recent international Workshop on Earth's Climate 
Sensitivity,\43\ concerns were raised about the upper end of the Lewis 
and Curry sensitivity being too low, owing to uncertainties in ocean 
heat uptake. Many of the climate model simulations used for the AR5 
(CMIP5) are using values of aerosol forcing that are now known to be 
far too high. Climate model simulations that are re-assessed and re-
calibrated to account for smaller values of aerosol forcing can be used 
to clarify the upper bound of ECS. In a presentation at the Workshop, 
IPCC lead author Bjorn Stevens \44\ argued for an upper bound to ECS of 
3.5 +C based on analyses of climate models. Research continues to 
assess the methods used to estimate climate sensitivity. However, the 
reduced estimates of aerosol cooling lead inescapably to reductions in 
the estimated upper bound of climate sensitivity.
---------------------------------------------------------------------------
    \43\ http://www.mpimet.mpg.de/en/science/the-atmosphere-in-the-
earth-system/ringberg-workshop/ringberg-2014.html
    \44\ http://www.mpimet.mpg.de/fileadmin/atmosphaere/
WCRP_Grand_Challenge_Work
shop/Ringberg_2015/Talks/Stephens_24032015.pdf
---------------------------------------------------------------------------
    The discrepancy between observational and climate model-based 
estimates of climate sensitivity is substantial and of significant 
importance to policymakers--equilibrium climate sensitivity, and the 
level of uncertainty in its value, is a key input into the economic 
models that drive cost-benefit analyses and estimates of the social 
cost of carbon. In spite of the IPCC AR5 assessment (where a `best 
value' was not given) and this recent research on climate sensitivity, 
economists calculating the social cost of carbon and the impacts of 
emissions reductions on climate continue to use the `best value' of ECS 
= 3 +C determined by the 2007 IPCC AR4 Report.
    A particularly egregious example of this is the U.S. Social Cost of 
Carbon,\45\ prepared by the InterAgency Working Group (IWG). In May 
2013, the IWG produced an updated social cost of carbon model. However, 
the IWG did not update the equilibrium climate sensitivity (ECS) 
employed in the models, and this decision was reaffirmed by the IWG in 
July 2015. The values of ECS used by the U.S. IWG (Table 1) have lower 
and upper bounds that are indefensible in context of the IPCC values 
and most particularly in light of the recent research. The 95th 
percentile value is of particular importance, since the tail values of 
ECS drive the social cost of carbon.
---------------------------------------------------------------------------
    \45\ https://www.whitehouse.gov/sites/default/files/omb/inforeg/
scc-tsd-final-july-2015.pdf
---------------------------------------------------------------------------
    In summary, there is a great deal of uncertainty in the values of 
climate sensitivity, and this is an active area of research. There is 
growing evidence in the published literature and recent assessments and 
workshops that a sensitivity of 1.0 +C is the appropriate lower bound 
to use in a 5 to 95 percentile range, and there is decreasing support 
for values of equilibrium climate sensitivity above 3.5+C. Not only are 
the U.S. IWG sensitivity values much higher than values suggested by 
the latest research, but the U.S. IWG values are indefensible even in 
context of both the IPCC AR4 and AR5 reports. The end result is that 
misleading values of the social cost of carbon being used to drive U.S. 
climate and energy policy.
Climate change in the 21st century
    Chapter 11 of the IPCC AR5 Report \46\ focused on near term climate 
change, through 2035. Figure 7 compares climate model projections with 
recent observations of global surface temperature anomalies.
---------------------------------------------------------------------------
    \46\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_Chapter11_FINAL.pdf
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 7. Comparison of CMIP5 climate model simulations of global 
surface temperature anomalies with observations through 2014 
(HadCRUT4). Updated from Figure 11.25 of the IPCC AR5, to include 
observations through 2014. http://www.climate-lab-book.ac.uk/comparing-
---------------------------------------------------------------------------
cmip5-observations/

    The observed global temperatures for the past decade are at the 
bottom bound of the 5-95 percent envelope of the CMIP5 climate model 
simulations. Overall, the trend in the climate model simulations is 
substantially larger than the observed trend over the past 15 years.
    Regarding projections for the period 2015-2035, the 5-95 percent 
range for the trend of the CMIP5 climate model simulations is 0.11+C-
0.41 +C per decade. The IPCC then cites `expert judgment' as the 
rationale for lowering the projections (indicated by the red hatching 
in Figure 7):

        ``However, the implied rates of warming over the period from 
        1986-2005 to 2016-2035 are lower as a result of the hiatus: 
        0.10+C-0.23+C per decade, suggesting the AR4 assessment was 
        near the upper end of current expectations for this specific 
        time interval.''

    This lowering of the projections relative to the results from the 
raw CMIP5 model simulations was done based on expert judgment that some 
models are too sensitive to anthropogenic forcing.
    Multi-decadal ocean oscillations play a dominant role in 
determining climate on decadal timescales. The Atlantic Multidecadal 
Oscillation (AMO) is currently in its warm phase, with a shift to the 
cool phase expected to occur sometime in the 2020s.\47\ Climate models, 
even when initialized with ocean data, have a difficult time simulating 
the amplitude and phasing of the ocean oscillations. In a paper that I 
coauthored, we found that most of CMIP5 climate models, when 
initialized with ocean data, show some skill out to 10 years in 
simulating the AMO.\48\ Tung and Zhou \49\ argue that not taking the 
AMO into account in predictions of future warming under various forcing 
scenarios may run the risk of over-estimating the warming for the next 
two to three decades, when the AMO is likely in its cool phase.
---------------------------------------------------------------------------
    \47\ http://www.wyattonearth.net/images/9Wyatt_Curry_2013_author-
version_manuscript
.pdf
    \48\ http://webster.eas.gatech.edu/Papers/Kim_et_al.2012_GRL.pdf
    \49\ Tung, KK and J Zhou, 2013: Using data to attribute episodes of 
warming and cooling in instrumental records. PNAS http://www.pnas.org/
content/early/2013/01/22/1212471110
.abstract
---------------------------------------------------------------------------
Projections for the year 2100
    Climate model projections of global temperature change at the end 
of the 21st century are driving international negotiations on 
CO<INF>2 </INF>emissions reductions, under the auspices of the UN 
Framework Convention on Climate Change (UNFCCC).\50\ Figure 8 shows 
climate model projections of 21st century warming. RCP8.5 reflects an 
extreme scenario of increasing emissions of greenhouse gases, whereas 
RCP2.6 is a scenario where emissions peak around 2015 and are rapidly 
reduced thereafter.
---------------------------------------------------------------------------
    \50\ http://unfccc.int/2860.php
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Figure 8: Figure SPM.7 of the IPCC AR5 WG1. CMIP5 multi-model 
simulated time series from 1950 to 2100 for change in global annual 
mean surface temperature relative to 1986-2005. Time series of 
projections and a measure of uncertainty (shading) are shown for 
scenarios RCP2.6 (blue) and RCP8.5 (red). Black (grey shading) is the 
modelled historical evolution using historical reconstructed forcings. 
The mean and associated uncertainties averaged over 2081-2100 are given 
---------------------------------------------------------------------------
for all RCP scenarios as colored vertical bars.

    Under the RCP8.5 scenario, the CMIP5 climate models project 
continued warming through the 21st century that is expected to surpass 
the `dangerous' threshold of 2+C warming as early as 2040. It is 
important to note that the CMIP5 simulations only consider scenarios of 
future greenhouse gas emissions--they do not include consideration of 
scenarios of future volcanic eruptions, solar variability or long-term 
oscillations in the ocean. Russian scientists \51\ argue that we can 
expect a Grand Solar Minima (contributing to cooling) to peak mid 21st 
century.
---------------------------------------------------------------------------
    \51\ Abdussamatov, H 2013: Current long-term negative energy 
balance of the earth leads to the new little ice age. Journal of 
Geology and Geophysics http://omicsgroup.org/journals/grand-minimum-of-
the-total-solar-irradiance-leads-to-the-little-ice-age-2329-
6755.1000113.pdf
---------------------------------------------------------------------------
    While the near-term temperature projections were lowered relative 
to the CMIP5 simulations (Figure 7), the IPCC AR5 SPM \52\ states with 
regards to extended-range warming:
---------------------------------------------------------------------------
    \52\ https://www.ipcc.ch/pdf/assessment-report/ar5/wg1/
WG1AR5_SPM_FINAL.pdf, Table SPM.2

        ``The likely ranges for 2046-2065 do not take into account the 
        possible influence of factors that lead to the assessed range 
        for near-term (2016-2035) global mean surface temperature 
        change that is lower than the 5-95 percent model range, because 
        the influence of these factors on longer term projections has 
        not been quantified due to insufficient scientific 
---------------------------------------------------------------------------
        understanding.''

    There is a troubling internal inconsistency in the IPCC AR5 WG1 
Report: the AR5 assesses substantial uncertainty in climate sensitivity 
and substantially lowered their projections for 2016-2035 relative to 
the climate model projections, versus the projections out to 2100 that 
use climate models that are clearly running too hot. Even more 
troubling is that the IPCC WG3 report--Mitigation of Climate Change--
conducted its entire analysis assuming a `best estimate' of equilibrium 
climate sensitivity to be 3.0 +C.
    The IPCC AR5 declined to select a `best estimate' for equilibrium 
climate sensitivity, owing to discrepancies between climate model 
estimates and observational estimates (that are about half the 
magnitude of the climate model estimates). Hence the CMIP5 models 
produce warming that is nominally twice as large as the lower values of 
climate sensitivity would produce. No account is made in these 
projections of 21st century climate change for the substantial 
uncertainty in climate sensitivity that is acknowledged by the IPCC.
Impact of reductions in CO<INF>2 </INF>emissions
    The current negotiations in Paris under the auspices of the UNFCCC 
COP21 are aimed at reducing emissions so as to avoid `dangerous' human 
interference with climate change.\53\ The definition of `dangerous' has 
been rather arbitrarily set at 2+C warming since pre-industrial 
times.\54\
---------------------------------------------------------------------------
    \53\ https://unfccc.int/resource/docs/convkp/conveng.pdf
    \54\ http://www.wbgu.de/en/special-reports/sr-1995-co2-reduction/
---------------------------------------------------------------------------
    The world's nations have recently submitted to the UNFCCC their 
Intended Nationally Determined Contributions (INDCs).\55\ Economists 
are beginning to assess the impact that these INDCs will have on the 
climate by the end of the 21st century. Danish economist Bjorn Lomborg 
recently published a paper \56\ that assesses the impact of the climate 
policies implemented by 2030, and assuming these policies are extended 
out to 2100. Lomborg concluded that an optimistic estimate (assuming 
the targets are actually met) is that these emissions reductions would 
prevent 0.17 +C of warming by the end of the 21st century. Lomborg's 
estimate is consistent with a statement in the ``MIT Energy and Climate 
Outlook 2015'' \57\ that projected about 0.2 +C less warming by the end 
of the 21st century.
---------------------------------------------------------------------------
    \55\ http://unfccc.int/focus/indc_portal/items/8766.php
    \56\ Lomborg, B, 2015: Impact of Current Climate Proposals, Global 
Policy http://online
library.wiley.com/doi/10.1111/1758-5899.12295/full
    \57\ http://globalchange.mit.edu/research/publications/other/
special/2015Outlook
---------------------------------------------------------------------------
    The second, longer-term reduction commitments (e.g., 80 percent 
reduction in both U.S. and EU emissions by 2050) were not included in 
Lomborg's analysis, because he regarded promises of what will happen in 
2050 to be not as much actual policies but political hand waving. The 
International Energy Agency has issued a report \58\ that estimated 
that full implementation of the path set by the global INDCs would be 
consistent with a global average temperature increase of 2.7+C by 2100. 
Other estimates \59\ range higher, up 3.5 +C, although none of these 
estimates are documented in detail or published in a refereed journal. 
The bottom line is that all of these estimates from climate models are 
far from achieving the desired objective of keeping the warming below 2 
+C.
---------------------------------------------------------------------------
    \58\ http://www.iea.org/media/news/WEO_INDC_Paper_Final_WEB.PDF
    \59\ http://www.climatescoreboard.com
---------------------------------------------------------------------------
    All of these estimates are being conducted using the MAGICC climate 
model,\60\ which allows specification of the value of equilibrium 
climate sensitivity. MAGICC's default value of ECS is 3 +C, and this 
number has become so ingrained that you see many analyses that do not 
even cite the value of ECS that was used.
---------------------------------------------------------------------------
    \60\ http://www.cgd.ucar.edu/cas/wigley/magicc/
---------------------------------------------------------------------------
    Of particular note is a recent paper by Japanese economists Yoichi 
Kaya, Mitsutune Yamaguchi and Keigo Akimoto entitled ``The uncertainty 
of climate sensitivity and its implications for the Paris 
negotiations''.\61\ The key conclusion from their paper:
---------------------------------------------------------------------------
    \61\ Kaya et al., 2015: The uncertainty of climate sensitivity and 
its implication for the Paris negotiations. Sustainability Science 
http://link.springer.com/article/10.1007/s11625-015-0339-
z?wt_mc=internal.event.1.SEM.ArticleAuthorOnlineFirst

        ``The outcome of our model shows global total emissions under 
        major countries' INDCs in 2030 will not be on track to attain 
        the 2 C target if climate sensitivity is 3 C. On the other 
        hand, if climate sensitivity is 2.5 C, and if we allow a 
        temporal overshoot of 580 ppmCO<INF>2</INF>-eq, that the 2 C 
---------------------------------------------------------------------------
        target is still within reach''.

    If ECS is even lower, below 2 +C, then it is even easier to stay 
below the 2 +C `danger' level. Further, for lower values of ECS, the 
planned emissions reductions will have an even smaller impact on 
temperatures in 2100. Policy makers meeting in Paris seem not to 
realize that there is large uncertainty in the values of equilibrium 
climate sensitivity, and that there is growing evidence in support of 
lower values.
Summary
    The IPCC's projections of 21st century climate change explicitly 
assume that CO<INF>2 </INF>is the control knob on global climate. 
Climate model projections of the 21st century climate are not 
convincing because of:

  <bullet> Failure to predict the early 21st century hiatus in surface 
        warming

  <bullet> Inability to simulate the patterns and timing on 
        multidecadal ocean oscillations

  <bullet> Lack of account for future solar variations and solar 
        indirect effects on climate

  <bullet> Apparent oversensitivity to increases in greenhouse gases

    There is growing evidence that climate models are running too hot 
and that climate sensitivity to CO<INF>2 </INF>is on the lower end of 
the range provided by the IPCC--this is acknowledged in the IPCC AR5. 
Nevertheless, these lower values of climate sensitivity are not 
accounted for in IPCC's projections of temperature at the end of the 
21st century or in estimates of the impact on temperatures of reducing 
CO<INF>2 </INF>emissions.
    While there is increasing evidence that the threat from human 
caused warming in the 21st century is overstated, the level of 
uncertainty is such that the possibly of dangerous human caused climate 
change remains. However, if the threat is not overstated by the IPCC, 
there are major shortfalls in solutions proposed by the UN, whereby 
proposed emissions reductions, even if actually successfully 
implemented, are insufficient to prevent what they regard as dangerous 
climate change.
The broken social contract between climate science and society
    Working through Congress, the public has been generous with its 
funding for climate and the related sciences. However, recent stresses 
have frayed the fabric of the social contract between climate 
scientists and society.\62\ Unfortunately, many climate scientists have 
responded by resorting to advocacy, both for increasing funding levels 
and for specific policies related to energy and climate. Even worse, 
too many climate scientists have abandoned any pretense at 
nonpartisanship and objectivity.
---------------------------------------------------------------------------
    \62\ Hooke, W. 2015: Reaffirming the social contract between 
science and society. https://eos.org/opinions/reaffirming-the-social-
contract-between-science-and-society
---------------------------------------------------------------------------
    Scientists advocating for CO<INF>2 </INF>emissions reductions is 
becoming the default, expected position for climate scientists; an 
example is this Huffington Post editorial ``Curry Advocates Against 
Action on Climate Change'' \63\ that was signed by five climate 
scientists. This op-ed was a response to my arguments for values of 
climate sensitivity being on the low end of the IPCC spectrum. I am 
neither advocating for or against `action' in terms of reducing 
CO<INF>2 </INF>emissions. My writings on the policy response to climate 
change \64\ address frameworks for decision making under deep 
uncertainty, including robust decision making and the concepts of 
resilience and anti-fragility.
---------------------------------------------------------------------------
    \63\ http://www.huffingtonpost.com/michael-e-mann/judith-curry-
climate-change_b_6000636
.html
    \64\ https://curryja.files.wordpress.com/2015/04/house-science-
testimony-apr-15-final.pdf
---------------------------------------------------------------------------
    In their efforts to promote their `cause,' the scientific 
establishment behind the global warming issue has been drawn into the 
trap of seriously understating the uncertainties associated with the 
climate problem. This behavior risks destroying science's reputation 
for honesty and objectivity--without this objectivity and honesty, 
scientists become regarded as merely another lobbyist group.
    The biases of individuals are not an impediment to scientific 
progress if scholarly institutions work to counteract the errors and 
flaws of scientific research. A fair process of peer review and 
vigorous post-publication peer debate will quickly identify the most 
obvious errors and biases. Researchers having different perspectives 
(including their values and political identities) will conduct their 
own research and obtain opposing results, and the field will gradually 
sort out the truth.
    This system works unless the institutions that support science--the 
professional societies that publish journals, organize conference and 
confer honors--are themselves biased. Nearly all of the relevant 
professional societies have issued policy statements about climate 
change, including statements such as `Human-Induced Climate Change 
Requires Urgent Action' \65\ and `call to support actions that will 
reduce the emissions.' \66\ Even more egregious is overt advocacy by 
journal editors, notably Marcia McNutt (editor of Science), who 
recently published this statement in an opinion piece in Science \67\: 
``The time for debate has ended. Action is urgently needed.'' Such 
official statements from the professional societies provide journal 
editors with a license to reject papers that challenge the consensus.
---------------------------------------------------------------------------
    \65\ http://sciencepolicy.agu.org/files/2013/07/AGU-Climate-Change-
Position-Statement_Au
gust-2013.pdf
    \66\ http://www.aps.org/policy/statements/15_3.cfm
    \67\ http://www.sciencemag.org/content/349/6243/7.full
---------------------------------------------------------------------------
    An even more insidious problem is when there is not a critical mass 
of scientists who think differently or who shrink from speaking up 
because they expect ostracism in response. Minority perspectives on 
climate science are effectively being squeezed out of the universities, 
and dissenting individuals choose to join the private sector, retire, 
join think tanks, or switch research topics. Climate science that 
dissents from the consensus is increasingly being relegated to retired 
professors and self-supported individuals from other fields, who are 
asking important questions that aren't `relevant' to government 
research funding priorities.
    While concerns about the behaviors and motives of scientists and 
the institutions that support science are well founded, the other side 
of the social contract is at least equally problematical. President 
Obama's administration is using climate science to support his 
political agenda, and is actively discouraging disagreement through 
consensus enforcement, e.g., ``Call Out The Climate Deniers.'' \68\ So 
under the current administration, the social contract for climate 
science seems to be: support the consensus and promote alarmism, and 
you will receive plenty of research funding.
---------------------------------------------------------------------------
    \68\ https://www.barackobama.com/climate-change-deniers/#/
---------------------------------------------------------------------------
    The potential for Federal funding to bias science is discussed in 
this recent report.\69\ From my perspective, here is how research 
funding motivates what is going on. `Success' to individual 
researchers, particularly at the large state universities, is driven by 
research dollars--big lab spaces, high salaries, institutional 
prestige, and career advancement. At the Program Manager level within a 
funding agency, `success' is reflected in growing the size of their 
program (e.g., more funding) and having some high profile results 
(e.g., press releases). At higher levels, Divisional administrators are 
competing for budget dollars against the other Divisions; tying their 
research to a national policy priority helps in this competition. At 
the agency level, `success' is reflected in growing, or at least 
preserving, the agency's budget. Aligning yourself, your program, your 
agency with the current political imperatives is a key to `success'.
---------------------------------------------------------------------------
    \69\ http://object.cato.org/sites/cato.org/files/pubs/pdf/working-
paper-29.pdf
---------------------------------------------------------------------------
    It is very difficult to obtain Federal research funding for 
dissenting science. Difficulty in the peer review process is only part 
of the problem. One problem is reflected in an e-mail \70\ I recently 
received from a scientist employed at NASA:
---------------------------------------------------------------------------
    \70\ http://judithcurry.com/2015/10/12/conflicts-of-interest-in-
climate-science-part-ii/

        ``I was at a small meeting of NASA-affiliated scientists and 
        was told by our top manager that he was told by his NASA boss 
        that we should not try to publish papers contrary to the 
        current global warming claims, because he (the NASA boss) would 
        then have a headache countering the ``undesirable'' 
---------------------------------------------------------------------------
        publicity''.

    I hesitate somewhat to call out the NASA leadership here, since I 
think the bigger problems are with the NOAA leadership. The biggest 
problem, however, is that the call for proposals from the Federal 
funding agencies (notably NASA and NOAA) make an implicit assumption of 
the dominance of human caused global warming in the topics for which 
they are requesting research proposals.
    Something is clearly wrong with the current contract between 
climate scientists and society that is biasing the science and breeding 
scientists who are advocates, partisans and alarmist. And the taxpayer 
foots the bill. How can we press the `reset button' on all this?
    First, we need to recognize that the politically driven push to 
manufacture a premature consensus on human caused climate change is 
biasing climate research, and in particular is resulting in the 
relative neglect of research on natural climate variability. Until we 
have a better understanding and predictive capability of natural 
climate variability, we don't have a strong basis for predicting the 
climate in the decades or century to come.
    Second, we need to break the `knowledge monopoly' \71\ in climate 
science--the IPCC. As a result of this knowledge monopoly, there is 
insufficient intellectual and political diversity in assessments about 
climate change. To break this monopoly, we need to identify new 
frameworks for encouraging, publishing and publicizing independent 
ideas and assessments.
---------------------------------------------------------------------------
    \71\ https://www.esri.ie/publications/regulating-knowledge-
monopolies-the-case-of-the-ipcc/
---------------------------------------------------------------------------
    And finally, we need to find ways to fund a broader spectrum of 
research that challenges the politically preferred outcomes.
                                 ______
                                 
                            Short Biography
Judith Curry
Professor, School of Earth and Atmospheric Sciences
Georgia Institute of Technology
Atlanta, GA 30332-0349
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e5f3f4f4ffece7c6e3e7f5a8e1e7f2e3e5eea8e3e2f3">[email&#160;protected]</a>

    Dr. Judith Curry is Professor and former Chair of the School of 
Earth and Atmospheric Sciences at the Georgia Institute of Technology 
and President of Climate Forecast Applications Network (CFAN). Dr. 
Curry received a Ph.D. in atmospheric science from the University of 
Chicago in 1982. Prior to joining the faculty at Georgia Tech, she held 
faculty positions at the University of Colorado, Penn State University 
and Purdue University. Dr. Curry's research interests span a variety of 
topics in climate; current interests include climate dynamics of the 
Arctic; climate dynamics of extreme weather events; cloud microphysics; 
and reasoning about climate uncertainty. She is a prominent public 
spokesperson on issues associated with the integrity of climate 
science, and is proprietor the weblog Climate Etc. judithcurry.com. Dr. 
Curry has recently served on the NASA Advisory Council Earth Science 
Subcommittee, the DOE Biological and Environmental Research Advisory 
Committee, the National Academies Climate Research Committee and the 
Space Studies Board, and the NOAA Climate Working Group. Dr. Curry is a 
Fellow of the American Meteorological Society, the American Association 
for the Advancement of Science, and the American Geophysical Union.
    For more information:

                http://curry.eas.gatech.edu/
                http://www.cfanclimate.com/
                http://judithcurry.com/about/

    Senator Cruz. Thank you very much, Dr. Curry.
    Dr. Happer?
    [Pause.]

    STATEMENT OF WILLIAM HAPPER, Ph.D., CYRUS FOGG BRACKET 
           PROFESSOR OF PHYSICS, PRINCETON UNIVERSITY

    Dr. Happer. My name is William Happer. I recently retired 
from a career of 50 years of teaching physics at Princeton and 
Columbia Universities.
    As the Chairman mentioned, I served as Director of Energy 
Research, Office of Energy Research in Department of Energy 
from 1990 to 1993. And among the other projects I supported 
there was the Atmospheric Radiation Measurements Program, which 
is still going strong with facilities all over the world to 
measure basic climate data.
    After leaving the Department of Energy, I served as 
Princeton University's equivalent for vice president for 
research from 1995 to 2005. I guess I am best known in the 
scientific community for inventing the sodium guide star that 
is used on all modern telescopes to compensate for atmospheric 
turbulence. So I have been very involved with the atmosphere 
for a very long time.
    There is all this talk about carbon pollution, which, of 
course, is meant carbon dioxide pollution, and I would like to 
set the record straight that carbon dioxide is not a pollutant. 
We are sitting in this room breathing out carbon dioxide at 
40,000 parts per million with every breath.
    We are fundamentally in a carbon dioxide famine, 
geologically speaking, now. If you look at the geological 
history of the Earth, most of the time CO<INF>2</INF> levels 
have been three times, four times what they are now. The Earth 
was just fine then.
    And in fact, at the present time, you know, many plants are 
having a hard time performing as well as they are designed to 
perform because the CO<INF>2</INF> levels are too low, and the 
oxygen levels are too high. I won't go into the details, but 
there is not much dispute about that.
    So the issue is not that CO<INF>2</INF> is a pollutant. It 
is actually very, very good for the world. The issue is what 
will it do to temperature? And Dr. Christy very clearly showed 
and a version of his display is reproduced here, which is a 
figure from Nature magazine. It is peer reviewed. Nature is 
anything but a skeptic journal.
    But what it shows in dark bars are the predictions of 
various climate models of how much warming there would be over 
two time intervals, a 10-year interval, and a 20-year interval. 
The red bar is what is observed, and you notice that the 
observed warming is much, much less than the predictions of 
climate models.
    Dr. Christy's chart was another version of that for the 
atmosphere, the lower atmosphere, and this is actually for 
surface data. But the message is the same for both sets of 
data, that the climate models on the basis of which we are 
making policy, do not work.
    OK. So let me move on to the fact that CO<INF>2</INF> is a 
very important part of life on Earth.
    This picture shows the greening of the planet from 1982 to 
2010. And so this is satellite images of certain wavelength 
bands that allow you to tell how much plant life there is, and 
what you see is that over most of the Earth, contrary to what 
you might have heard, is that the Earth is getting greener.
    And this is also clear from crop yields. Crop yields are 
going up. Some of that is fertilizer. Some of that is better 
cropping practices. But a good fraction of it is 
CO<INF>2</INF>, 15 percent of the increase in crop yields is 
due to the 30 percent increase of CO<INF>2</INF> we have had in 
the past 100 years. So to call CO<INF>2</INF> a pollutant is 
just completely wrong-headed.
    Now I would like to conclude by supporting Dr. Christy's 
urging that we have a red team. I call it a Team B. Science is 
often so complicated and controversial that unless you have 
some adversarial process, you really can't be sure who is 
right.
    So, for example, when I was at Department of Energy, I 
didn't understand enough about nuclear weapons to know whether 
Livermore was right or Los Alamos was right. But I knew I could 
count on Livermore to catch any error in Los Alamos or vice 
versa. That is the reason we had two labs. One could catch any 
mistakes made by the other.
    We don't have two labs for climate. We have one 
organization, one world organization, the IPCC. And funding 
agencies follow the IPCC dogma. I would like to argue very 
strongly that we set aside some fraction of funding for climate 
research that is not constrained to follow IPCC dogma.
    If you have some proposed research that might show that 
CO<INF>2</INF> is not such a big problem, you should be able to 
get funding. You shouldn't be last in line and turned away. 
That is the way it is in many other areas of human life. Even 
to become a saint in the Catholic Church, you have to pass a 
contested trial with a devil's advocate. You can't be sainted 
without that.
    So every other region, every other aspect of human life has 
an adversarial process. This is the only area I know of where 
there is nothing adversarial in the science.
    And so I would like to second Dr. Christy's request for a 
red team. A Team B also would be a good idea to provide a 
rigorous review of how well is science working. I know that 
there was review of how well science works, that both Dr. 
Christy and Dr. Curry took part in, by the American Physical 
Society. They did very well, and the review represented both 
sides of the debate. It was the only good review I know of. It 
was organized by Dr. Steve Koonin.
    And I noticed that when the list of organizations 
supporting climate alarmism was read, the one that wasn't there 
was the American Physical Society. Maybe that was an oversight. 
I hope not. I hope it was partly due to Dr. Curry and Dr. 
Christy because it was a very informative workshop.
    So let me conclude my testimony here, and thank you very 
much for the invitation.
    [The prepared statement of Dr. Happer follows:]

                  Prepared Statement of William Happer
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    I would like to express my thanks to Senator Cruz, Senator Thune, 
Senator Nelson and other members of this committee for inviting me to 
express my views at this hearing on climate science.
    My name is William Happer. I recently retired from a career of over 
fifty years teaching physics at Princeton and Columbia Universities. I 
also served as the Director of the Office of Energy Research, now the 
Office of Science, in the U.S. Department of energy from the years 1990 
to 1993, where I was responsible for all the non-weapons basic research 
of the Department of Energy. In addition to areas like high energy 
physics, materials science, the human genome and others, I had 
responsibility for DOE's work on climate science. During my time at 
DOE, my office established the Atmospheric Radiation Measurement (ARM) 
Climate Research Facility, with remote sensing observatories all around 
the world. The facility is still going strong and providing high 
quality observational data on atmospheric physics.
    After leaving DOE, I served as Princeton University's equivalent of 
Vice President for Research from 1995 to 2005. I have published over 
200 peer-reviewed scientific papers. Scientifically, I am probably best 
known for having invented the sodium guide star, used by modern ground 
based telescopes to remove much of the blurring of stellar images by 
atmospheric turbulence.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Along with other witnesses at this hearing, I hope to correct some 
misconceptions about the trace atmospheric gas, carbon dioxide or 
CO<INF>2</INF>. In spite of the drumbeat of propaganda, 
CO<INF>2 </INF>is not ``carbon pollution.'' As part of my written 
testimony, I have submitted the document, Carbon Dioxide Benefits the 
Word: See for Yourself. This document summarizes the view of the 
CO<INF>2 </INF>Coalition, a distinguished group of scientists, 
engineers, economists and others. The benefits that more 
CO<INF>2 </INF>brings from increased agricultural yields and modest 
warming far outweigh any harm.
    The key issue here is the equilibrium climate sensitivity: how much 
will the earth's surface eventually warm if the atmospheric 
concentration of CO<INF>2 </INF>is doubled? This number has been 
drifting steadily downward from a youthful Arrhenius's first estimate 
of about 6 C to the estimate of the International Panel on Climate 
change (IPCC) of 1.5 C to 4.5 C. Observations of very small warming 
over the past 20 years suggest that the sensitivity is unlikely to be 
larger than 2 C. There are credible estimates that the sensitivity 
could be as small as 0.5 C.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    This slide shows that various mainstream climate models (the gray 
bars) have predicted much more warming than observed (the red bars). 
For full disclosure I add the warming predicted by me and my JASON 
colleagues in our book, The Long-Term Impacts of Increasing Atmospheric 
Carbon Dioxide Levels, edited by Gordon McDonald, Ballinger Publishing 
Company, Cambridge, MA (1982). My colleagues and I also predicted far 
too much warming. The models don't work. The most natural reason for 
this is that they have assumed climate sensitivities that are much too 
large. Most of the models in the figure use climate sensitivities of 3 
C to 3.5 C.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Few realize that the world has been in a CO<INF>2 </INF>famine for 
millions of years, a long time for us, but a passing moment in 
geological history. Over the past 550 million years since the Cambrian, 
when abundant fossils first appeared in the sedimentary record, 
CO<INF>2 </INF>levels have averaged many thousands of parts per million 
(ppm) not today's few hundred ppm [R. A. Berner and C. Kothavala, 
Geocarb: III, a revised model of atmospheric CO2 over the Phanerozoic 
time, American Journal of Science, 301, 182 (2001). Pre-industrial 
levels of 280 ppm (parts per million), are not that far above the 
minimum level, around 150 ppm, when many plants die from CO starvation 
[J. K. Dippery, D. T. Tissue, R. B. Thomas and B. R. Strain, Effects of 
low and elevated CO2 levels on C3 and C4 annuals, Oecologia, 101, 13 
(1995)].
    Thousands of peer reviewed studies show that almost all plants grow 
better (and land plants are more drought resistant) at atmospheric 
CO<INF>2 </INF>that are two or three times larger than those today.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    This slide summarizes satellite measurements of vegetation changes 
over the 28-year period from 1982 to 2010. The authors of the study 
have tried to eliminate any influences rainfall changes or other 
confounding factors during the measurement period. The earth is really 
getting greener, and an important part of the reason is more 
atmospheric CO<INF>2</INF>.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    For many decades the citizens of the USA and of much of the world 
have been flooded with the message that CO<INF>2 </INF>is ``carbon 
pollution.'' We are supposed to trust our government and selfless NGO's 
for instructions on how to save the planet. Much of the message is 
false, but its purveyors control key positions in the media, in the 
government, in scientific societies, in charitable foundations etc. 
This makes it difficult to get out the truth that climate science is 
far from ``settled.'' To the extent it is settled, it indicates no 
cause for alarm or for extreme measures. Indeed, a dispassionate 
analysis of the science indicates that more CO<INF>2 </INF>will bring 
benefits, not harm to the world.
    The Congress could help by establishing a ``Team B'' to make a 
dispassionate review of climate science, with sponsorship by the 
Federal Government.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    For credibility, it is essential that Team B be sponsored by the 
Federal Government. Otherwise there would be vigorous attempts to 
ignore any findings not considered politically correct, because the 
team members would be said to be working directly or indirectly for 
fossil fuel interests.
                                 ______
                                 
          Carbon Dioxide Benefits the World: See for Yourself
Preface
    This white paper summarizes the views of the 
CO<INF>2 </INF>Coalition, a new and independent, non-profit 
organization that seeks to engage thought leaders, policy makers, and 
the public in an informed, dispassionate discussion of how our planet 
will be affected by CO<INF>2 </INF>released from the combustion of 
fossil fuel. Available scientific facts have persuaded Coalition 
members that additional CO<INF>2 </INF>will be a net benefit. Rather 
than immediately setting this document aside for promoting such a 
politically incorrect view, readers would do well to act on the ancient 
motto of Britain's prestigious Royal Society--nullius in verba, ``don't 
take anyone's word for it,'' or more simply, ``see for yourself.''
    Claims that ``97 percent of scientists'' agree that a climate 
catastrophe is looming because of the emission of CO<INF>2 </INF>should 
be greeted with skepticism. Traditional science has advanced by 
comparing observations or experiments with theoretical predictions. If 
there is agreement with theory, confidence in the theory is increased. 
If there is disagreement, the theory is abandoned or it is modified and 
tested again against observations.
    Scientific truth has never been established by consensus, for 
example, by ``97 percent agreement.'' History reveals many instances 
when the scientific consensus of the day was later discredited. The 
widespread embrace and practice of eugenics in the early 1900s; 
opposition to the theory of plate tectonics in geology; and the 
dominance of Lysenkoist biology in the Soviet bloc, are a few recent 
examples. Given the frequency of mistaken consensus, citizens 
everywhere should heed the Royal Society's motto and learn as much as 
they can about how increasing CO<INF>2 </INF>levels in the atmosphere 
will affect the planet.
1. Overview
    Green plants grow faster with more CO<INF>2</INF>. Many also become 
more drought-resistant because higher CO<INF>2 </INF>levels allow 
plants to use water more efficiently. More abundant vegetation from 
increased CO<INF>2 </INF>is already apparent. Satellite images reveal 
significant greening of the planet in recent decades, especially at 
desert margins, where drought resistance is critical. This remarkable 
planetary greening is the result of a mere 30 percent increase of 
CO<INF>2 </INF>from its preindustrial levels. Still higher 
CO<INF>2 </INF>levels will bring still more benefits to agriculture.
    Plants use energy from sunlight to fuse a molecule of 
CO<INF>2 </INF>to a molecule of water, H<INF>2</INF>O, to form 
carbohydrates. One molecule of oxygen O<INF>2 </INF>is released to the 
air for each CO<INF>2 </INF>molecule removed. Biological machinery of 
plants reworks the carbohydrate polymers into proteins, oils and other 
molecules of life. Every living creature, from the blooming rose, to 
the newborn baby, is made of carbon from former atmospheric 
CO<INF>2 </INF>molecules. Long-dead plants used CO<INF>2 </INF>from 
ancient atmospheres to produce most of the fossil fuels, coal, oil, and 
natural gas that have transformed the life of most humans--moving from 
drudgery and near starvation before the industrial revolution to the 
rising potential for abundance today.
    The fraction of the beneficial molecule CO<INF>2 </INF>in the 
current atmosphere is tiny, about 0.04 percent by volume. This level is 
about 30 percent larger than pre-industrial levels in 1800. But today's 
levels are still much smaller than the levels, 0.20 percent or more, 
that prevailed over much of geological history. CO<INF>2 </INF>levels 
during the past tens of millions of years have been much closer to 
starvation levels, 0.015 percent, when many plants die, than to the 
much higher levels that most plants prefer.
    Basic physics implies that more atmospheric CO<INF>2 </INF>will 
increase greenhouse warming. However, atmospheric processes are so 
complicated that the amount of warming cannot be reliably predicted 
from first principles. Recent observations of the atmosphere and 
oceans, together with geological history, point to very modest warming, 
about 1 C (1.8 F) if atmospheric CO<INF>2 </INF>levels are doubled.
    Observations also show no significant change in extreme weather, 
tornadoes, hurricanes, floods, or droughts. Sea levels are rising at 
about the same rate as in centuries past. A few degrees of warming will 
have many benefits, longer growing seasons and less winter heating 
expenses. And this will be in addition to major benefits to 
agriculture.
    More CO<INF>2 </INF>in the atmosphere is not an unprecedented 
experiment with an unpredictable outcome. The Earth has done the 
experiment many times in the geological past. Life flourished 
abundantly on land and in the oceans at much larger 
CO<INF>2 </INF>levels than those today. Responsible use of fossil 
fuels, with cost-effective control of genuine pollutants like fly ash 
or oxides of sulfur and nitrogen, will be a major benefit for the 
world.
2. Introduction
    Around the year 1861, John Tyndall, a prominent Irish physicist, 
discovered that water vapor (H<INF>2</INF>O), carbon dioxide 
(CO<INF>2</INF>), and many other molecular gases that are transparent 
to visible light can absorb invisible heat radiation--such as that 
given off by a warm tea kettle, the human body, or the Earth itself. 
Tyndall recognized that water vapor is the dominant greenhouse gases in 
the Earth's atmosphere, with CO<INF>2 </INF>a less important 
contributor.\1\
    Tyndall's discovery came as the combustion of coal in the 
Industrial Revolution was beginning to release substantial amounts of 
CO<INF>2</INF>. These emissions have coincided with a steady increase 
of atmospheric CO<INF>2</INF>, from around 285 ppm (parts-per-million) 
in the 1860s to around 400 ppm today.
    Increased CO<INF>2 </INF>levels have likely produced some warming 
of the Earth and will continue to do so in the future, although with 
ever decreasing efficiency because of the ``logarithmic'' dependence of 
warming on CO<INF>2 </INF>concentrations, an important detail discussed 
more extensively below. At the same time, more CO<INF>2 </INF>will have 
a hugely beneficial effect on agriculture, forests and plant growth in 
general. The benefits of more CO<INF>2 </INF>will greatly exceed any 
harm.\2\
3. Key Findings
    Mainstream warming forecasts have been wrong. Over the past two 
decades, the global warming predicted by climate models has mostly 
failed to materialize. The real ``equilibrium climate sensitivity''--
the amount of global warming to be expected for a doubling of 
atmospheric CO<INF>2</INF>--is likely to be about three times smaller 
than what the models have assumed. Observational data suggest that 
doubling atmospheric CO<INF>2 </INF>levels will increase the surface 
temperature by about 1 C, not the much larger values that were 
originally assumed in mainstream models. Using these much smaller, 
observationally based climate sensitivities, the projected warming from 
continued use of fossil fuels will be moderate and benign for the 
foreseeable future
    Negative effects of more CO2 have been exaggerated. Readily 
available data from governmental and reliable non-governmental sources 
confirm that extreme weather events in recent years have not occurred 
more frequently or with greater intensity. Such data also refute claims 
of ecologically damaging ocean acidification, accelerating sea-level 
rises, and disappearing global sea ice and other alleged dangers. If 
further observations confirm a small climate sensitivity, these 
realities will not change.
    Higher carbon-dioxide levels will be beneficial. CO<INF>2 </INF>is 
an essential nutrient for land-based plants. The Earth's biosphere has 
also experienced a relative CO<INF>2 </INF>famine for many millennia--
the recent increase in CO<INF>2 </INF>levels has thus had a measurable, 
positive effect on plant life. Future CO<INF>2 </INF>increases will 
boost agricultural productivity and improve drought resistance, thereby 
bolstering food security and contributing to a greener, lusher planet.
4. Global Warming: The Neglected Facts
    Most research that tries to project future climate has focused on 
developing and applying complex computer models that attempt to 
simulate the Earth's climate system. These models have sought to 
explain past climate and have been used to calculate various future 
global and regional climate scenarios. These future climate scenarios 
have, in turn, prompted policy proposals that would reduce future 
emissions--thereby, according to the models, limiting future global 
warming, though admittedly at the cost of reducing future global 
economic development.
    This emphasis on computer model forecasts has been very costly, 
with many tens of billions of dollars invested but has failed to 
accurately predict the Earth's climate: the United Nations 
Intergovernmental Panel on Climate Change's (IPCC) estimates of the 
critical parameter, the equilibrium climate sensitivity, for example, 
have not become more precise over the past 25 years. Figure 1 
summarizes the IPCC's findings, as documented in its five comprehensive 
research reports released over more than three decades, as well as the 
findings of two major pre-IPPC research reports. Since scientific 
research is generally aimed at reducing uncertainty, the lack of 
progress over more than three decades is extremely unusual.
Figure 1. Key Findings, IPCC and Pre-IPCC Climate Reports*
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    <SUP>*</SUP> In Figure 1, the far-right column lists successive 
estimates of the range of the equilibrium climate sensitivity (the 
``doubling sensitivity,'' in IPCC reports and two pre-IPCC reports). 
Extensive research over time nearly always reduces uncertainty; so this 
lack of progress is rare.
    Source: American Physical Society Climate Change Statement Review 
framing document (2015), http://www.aps.org/policy/statements/upload/
climate-review-framing.pdf.

    In science, observational data are the ultimate test of theory and 
modeling. Climate data show significant divergence between computer 
predictions and the Earth's actual climate record. Figure 2 shows 
average global temperature changes during 1995-2015, as provided by 
NASA satellite data: despite a 13 percent increase in atmospheric 
CO<INF>2 </INF>levels during this period, there is no statistically 
discernible warming trend.\3\ The climate record is thus at odds with 
the IPCC's Third (2001) and Fourth (2007) Assessment Reports' 
forecasts.\4\ During this 20-year period, the Earth's atmosphere warmed 
by only 0.05 C; \5\ but computer models predicted a far more dramatic 
0.4 C rise in global temperature.\6\
Figure 2. Global Temperature Change as Measured by Satellite, 1995-
        2015<SUP>*</SUP>
        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    <SUP>*</SUP>NASA satellite data for the temperature of the Earth's 
lower troposphere for the 20-year period 1995-2014. Monthly global 
temperature is shown relative to the 1981-2010 base-period average. 
Despite month-to-month fluctuations, there has been little--or zero--
global warming during this period.
    Source: Roy W. Spencer, Earth Systems Science Center, University of 
Alabama at Huntsville.

    Figure 3 compares various climate forecasts--specifically, 102 
computer climate models used by the IPCC--with the actual change in 
average tropical atmospheric temperature during 1979-2013, as measured 
by balloon and satellite. Why focus on tropical atmospheric 
temperature? Because the Earth's tropical surface and troposphere, the 
lowest layer of the atmosphere, receive a major portion of the planet's 
incoming solar energy. The rising warm, humid air from the oceans and 
rain-forests that cover much of the tropics should lead to especially 
large warming of the middle troposphere. As Figure 3 demonstrates, 
actual temperature changes differ dramatically from those predicted by 
models: the average computer model forecast warming of a full 1 C for 
the period 1979-2013; in reality, only 0.2 C (at most) has been 
observed.
Figure 3. Average Change in Tropical Atmospheric Temperature, Forecasts 
        v. Actual, 1979-2013<SUP>*</SUP>
        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    <SUP>*</SUP> As measured by satellite and balloon, from the Earth's 
surface to an altitude of 50,000 feet. Forecasts extend to 2024.
    Source: https://science.house.gov/sites/
republicans.science.house.gov/files/documents/HHRG-113-SY18-WState-
JChristy-20131211.pdf

    Figure 4 shows CO<INF>2</INF> concentration measured at Hawaii's 
Mauna Loa: the long-term rise in CO<INF>2 </INF>has seasonal 
oscillations caused mostly by removal of CO<INF>2 </INF>from the air of 
the northern hemisphere by growing land plants during the summer; and 
by release of CO<INF>2 </INF>during the winter, when respiration of 
CO<INF>2 </INF>by the biosphere exceeds its removal by photosynthesis.
Figure 4. Atmospheric Concentration of CO<INF>2</INF>, 2011-
        15<SUP>*</SUP>
        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    <SUP>*</SUP> Annual CO<INF>2 </INF>oscillations represent seasonal 
variations in the biosphere. The annual growth rate (black line) 
averages about 2 ppm annually. Annual growth, according to the IPCC, 
accounts for only about half of CO<INF>2 </INF>emissions from human 
activities; the other half is naturally absorbed by oceans and land.
    Source: National Oceanic and Atmospheric Administration

    The failure of computer models to reliably predict future 
temperatures has created a growing awareness that such models are 
fundamentally flawed--and have greatly exaggerated past and future 
anthropogenic (man-made) global warming.\7\ Indeed, there is good 
reason to believe that any future anthropogenic warming will be far 
smaller than projected by the IPCC's models. The best available 
evidence suggests that the equilibrium doubling sensitivity, the final 
warming of the surface in response to doubling atmospheric 
CO<INF>2, </INF>is closer to 1 C than to the ``most likely'' 3 C of 
mainstream climate models.
    The best available evidence also suggests that--despite two periods 
of 20th century warming, as well as a steady increase in atmospheric 
CO<INF>2</INF>--the frequency of extreme weather events has not risen. 
And the rise in sea levels has been modest. ``Ocean acidification,'' a 
slight decrease of the alkalinity of the oceans by a few tenths of a pH 
unit, will be much less than variations of pH with location, depth and 
time in today's oceans. Such facts do not support widespread 
predictions of imminent planetary catastrophe from rising 
CO<INF>2 </INF>levels. Numerous studies suggest that a modestly warmer 
Earth with more atmospheric CO<INF>2 </INF>will be good for all living 
things.\8\
4. Benefits of More Carbon Dioxide
    Pure CO<INF>2 </INF>gas is chemically inert, transparent, 
colorless, and odorless. On a cold winter day, chilled air often 
condenses the water vapor of human breath--of which 4 to 5 percent is 
CO<INF>2</INF>--into visible fog. Such fog, however, is not 
CO<INF>2</INF>. Similarly, water vapor often condenses into clouds of 
steam over fossil-fuel power plants, creating the impression of smoke. 
Such steam clouds are not CO<INF>2</INF>, either.
    Of every million air molecules in today's atmosphere, 400 are 
CO<INF>2</INF>. This average masks wide variation. For example, without 
strong ventilation, CO<INF>2 </INF>levels in crowded indoor spaces, 
such as classrooms, courtrooms, and trains, commonly reach 2,000 ppm--
with no clinically documented ill effects to people. The U.S Navy 
strives to keep CO<INF>2 </INF>levels in its submarines below 5,000 
ppm.\9\
    On a calm summer day, CO<INF>2 </INF>concentrations in a cornfield 
can drop to 200 ppm, as the growing corn consumes the available 
CO<INF>2</INF>.\10\ At a concentration of about 150 ppm or less, many 
plants die of CO<INF>2 </INF>starvation.\11\ The differences between 
the peak winter CO<INF>2 </INF>levels and minimum summer 
CO<INF>2 </INF>levels, measured at Hawaii's Mauna Loa volcano (Fig. 4), 
have increased over the past 50 years. This is believed to be due a 
global expansion of forests and other plant life.
    That Earth has experienced a CO<INF>2 </INF>``famine'' for millions 
of years is also not widely known. As illustrated in Figure 5, in the 
550 million years since the Cambrian period--when abundant fossils 
first appeared in the sedimentary record--CO<INF>2 </INF>levels have 
averaged many thousands of ppm, that is, much larger than the 
CO<INF>2 </INF>level of 400 ppm today.\12\
Figure 5. CO<INF>2 </INF>Levels on Earth: A Long View<SUP>*</SUP>
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    <SUP>*</SUP> CO<INF>2 </INF>estimates during the Earth's 
Phanerozoic era are derived from fossil records in sedimentary rocks. A 
typical Phanerozoic CO<INF>2 </INF>level is about 1,500 ppm, 
considerably higher than today's 400 ppm.
    Source: Berner and Kothavala

    All animals, including humans, owe their existence to green plants 
that use energy from sunlight to convert CO<INF>2 </INF>and water 
molecules into carbohydrates, releasing oxygen into the atmosphere in 
the process. Land plants get the carbon they need from 
CO<INF>2 </INF>in the air, and they obtain other essential nutrients 
from the soil. Just as plants grow better in fertilized, well-watered 
soils, they grow better with CO<INF>2 </INF>concentrations several 
times higher than the Earth's current level.\13\ For this reason, 
additional CO<INF>2 </INF>is often pumped into greenhouses to enhance 
plant growth.\14\
    Figure 6 illustrates the effect of various levels of 
CO<INF>2 </INF>on the growth of sour orange trees. Because the growth 
rate of plants is proportional, on average, to the square root of 
CO<INF>2 </INF>concentration, doubling atmospheric CO<INF>2 </INF>will 
increase green plant growth by 40 percent--a boon for crop productivity 
and, thus, for global food security.
Figure 6. CO<INF>2</INF>'s Effect on Growth of Sour Orange 
        Trees<SUP>*</SUP>
        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    <SUP>*</SUP> Measured dry weight of above-ground biomass produced 
by sour orange trees between specified sequential coppicing dates; and 
mean atmospheric CO<INF>2 </INF>concentration. Figure 6 is a 
particularly dramatic example of the CO<INF>2 </INF>fertilization 
effect.
    Source: Idso and Kimbal

    CO<INF>2</INF>'s nutritional value is only part of its benefit for 
plants. No less important is CO<INF>2</INF>'s contribution to making 
plants more drought-resistant: plant leaves are perforated by stomata, 
surface holes that allow CO<INF>2 </INF>to diffuse from the atmosphere 
into the leaf's interior, where they are photosynthesized into 
carbohydrates. Depending on the relative humidity of the outside air, 
as many as 100 H<INF>2</INF>O molecules can diffuse out of the leaf for 
each CO<INF>2 </INF>molecule that diffuses in. This is why most land 
plants need at least 100 grams of water to produce one gram of 
carbohydrate.
    The 30 percent increase in atmospheric CO<INF>2 </INF>during the 
20th century boosted crop productivity by around 15 percent. Continued 
improvements in crop variety, fertilizer, and water management--coupled 
with higher CO<INF>2 </INF>levels--will strengthen food security in 
large parts of Africa and Asia where hunger remains widespread.
    Figure 7 shows how the Earth is getting greener. The study from 
which the image is drawn analyzed plant growth at desert margins and 
other semi-arid areas and found an 11 percent net growth in foliage 
ground cover during 1982-2006--growth attributed to improved water-use 
efficiency arising from higher atmospheric CO<INF>2 </INF>levels.\15\ 
The study's authors conclude: ``Our results con&filig;rm that the 
anticipated CO<INF>2 </INF>fertilization effect is occurring alongside 
ongoing anthropogenic perturbations to the carbon cycle and that the 
fertilization effect is now a signi&filig;cant land surface process.'' 
As CO<INF>2 </INF>levels continue to rise, the Earth will grow greener 
and agricultural yields will continue to increase, with additional 
contributions from better varieties, improved cropping practices, more 
efficient use of fertilizer, and other factors.
Figure 7. Greening of the Earth, 1982-2006<SUP>*</SUP>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <SUP>*</SUP> Percentage change in foliage cover as revealed by 
satellite.
    Source: Donohue et al
5. The Developing World
    Developing nations in Asia, Africa, and Latin America will need 
enormous increases in low-cost energy to power their economic 
development and lift their citizens out of poverty. Fossil fuels--
notably coal, natural gas, and oil--which currently supply more than 80 
percent of the world's energy, will remain indispensable. As countries 
grow more affluent, they will also acquire greater means to reduce 
pollution. Indeed, it is precisely the wealth unleashed by 
industrialization that enables societies to invest in modern 
technologies and other practices that clean up the environment.
    Further, the best available evidence suggests that current levels--
and forseeable future increases--of carbon dioxide are not only 
harmless, but are indeed beneficial to plants and humans. Quixotic 
policies to supposedly limit global warming, by making fossil fuels 
prohibitively expensive, would condemn much of humanity to wretched 
conditions unimaginable in developed nations
6. Initial Members of the CO<INF>2</INF> Coalition
    BELL, Larry: Launched the research and education program in space 
architecture at the University of Houston and author of Climate of 
Corruption: Politics and Power Behind the Global Warming Hoax.
    COHEN, Roger, PhD in physics, Rutgers University, Fellow of the 
American Physical Society. Former Senior Scientist ExxonMobil
    EVERETT, Bruce, Faculty Tufts University's Fletcher School, over 
forty years of experience in the international energy industry.
    HAPPER, William is Cyrus Fogg Brackett Professor of Physics 
(emeritus) at Princeton University, former Director of the Office of 
Energy Research Director of Research, U.S. Department of Energy, Member 
National Academy of Sciences.
    HARTNETT-WHITE, Kathleen: Distinguished Senior Fellow in Residence 
and the Director of the Armstrong Center for Energy and the Environment 
(CEE) at the Texas Public Policy Foundation.
    IDSO, Craig: Founder and Chairman of the Center for the Study of 
Carbon Dioxide and Global Change, Member of the American Association 
for the Advancement of Science, American Geophysical Union, and the 
American Meteorological Society.
    LINDZEN, Richard: emeritus, Alfred P. Sloan Professor of 
Meteorology, Member of National Academy of Sciences, author of numerous 
papers on climate and meteorology.
    MICHAELS, Pat: director of the Center for the Study of Science at 
the Cato Institute, a past president of the American Association of 
State Climatologists, former Virginia state climatologist, program 
chair Committee on Applied Climatology of the American Meteorological 
Society.
    MILLS, Mark: senior fellow Manhattan Institute, CE?O Digital Power 
Group, a tech-centric capital advisory group. He is also a Faculty 
Fellow McCormick School of Engineering and Applied Science at 
Northwestern University.
    MOORE, Patrick: Co-founder, Chair, and Chief Scientist of 
Greenspirit Strategies, a Vancouver-based consulting firm on 
environmental and sustainability issues, founding member of Greenpeace 
(nine years as president of Greenpeace Canada and seven years as a 
director of Greenpeace International).
    NICHOLS, Rodney: former President and Chief Executive Officer of 
the New York Academy of Sciences; Scholar-in-Residence at the Carnegie 
Corporation of New York, Executive Vice President of The Rockefeller 
University, R&D manager Office of the Secretary of Defense.
    O'KEEFE, William: Chief Executive Officer of the George C. Marshall 
Institute; founder of Solutions; Executive Vice President and Chief 
Operating Officer American Petroleum Institute, Chief Administrative 
Officer of the Center for Naval Analyses.
    ROGERS, Norman: founder of Rabbit Semiconductor Company, Policy 
Advisor to The Heartland Institute and a member of the American 
Geophysical Union and the American Meteorological Society.
    SCHMITT, Harrison: PhD in Geology from Harvard University, 
Astronaut and last man to walk the moon (Apollo 17), Adjunct Professor 
of Physics at the University of Wisconsin-Madison, and former U.S. 
Senator from New Mexico.
    SPENCER, Roy: Climatologist, Principal Research Scientist at the 
University of Alabama in Huntsville; served as Senior Scientist for 
Climate Studies at NASA's Marshall Space Flight Center; Co-Developer of 
satellite temperature measurement system.
    STEWARD, Leighton: Geologist; Environmentalist; Author; Chairman of 
Plants Need CO<INF>2</INF>.org; Chairman of the Board of The Institute 
for the Study of Earth and Man at SMU, past Chairman of the National 
Wetlands Coalition, twice Chairman of the Audubon Nature Institute.
    YAPPS-COHEN, Lorraine: M.S. in chemistry and an M.B.A. in 
marketing, former communications & marketing manager ExxonMobil, 
columnist for the Examiner newspapers.
7. References
    \1\ J. Tyndall, Heat, A Mode of Motion, Longmans, Green and 
Company, London, 1875.
    \2\ See, e.g., R. S. J. Tol, The Economic Effects of Climate 
Change, Journal of Economic Perspectives, Vol. 23,No. 2, pp. 29-51 
(2009). Such studies do not fully account for the positive effects of 
CO<INF>2 </INF>fertilization and water-efficiency gains.
    \3\ R. McKitrick, HAC-Robust Measurement of the Duration of a 
Trendless Subsample in a Global Climate Time Series, Open Journal of 
Statistics, Vol. 4, pp.527-535 (2014). doi:10.4236/ojs.2014.47050.
    \4\ See, eg., IPCC 4th Assessment Report WG1 (2007), Summary for 
Policy Makers, p12. https://www.ipcc.ch/pdf/assessment-report/ar4/wg1/
ar4-wg1-spm.pdf
    \5\ From the statistical trend lines of the UAH data set shown in 
Figure 2, for 1995-2014. http://www.drroyspencer.com/2015/04/version-6-
0-of-the-uah-temperature-dataset-released-new-lt-trend-0-11-cdecade/
    \6\ IPCC 4th Assessment Report WG1 (2007), Summary for Policy 
Makers, p12, ibid; 3rd Assessment Report WG1 (2001), Summary for Policy 
Makers, p34; https://www.ipcc.ch/ipccreports/tar/wg1/
    \7\ J.C Fyfe et al, Overestimated Global Warming over the Past 20 
Years, Nature Climate Change, Vol. 3, p. 767 (2013); P. Stott et al, 
The Upper End of Climate Model Temperature Projections is Inconsistent 
with Past Warming, Environ. Res. Lett. Vol. 8, 014024 doi:10.1088/1748-
9326/8/1/014024.
    \8\ Indur Goklany, Is a Richer-but-Warmer World Better than Poorer 
but Colder Worlds? Energy & Environment, Vol. 18, Nos. 7-8, pp. 1023-
1048 (2007). Detailed empirical studies of human mortality, in hundreds 
of communities around the world, show that in all countries and 
regions, minimum mortality is observed when temperatures are warmer 
than the median for that location. See, eg., Y. Guo et al, Global 
Variation in the Effects of Ambient Temperature on Mortality, 
Epidemiology, Vol. 25, No. 6, pp. 781-789 (2014).
    \9\ J. T. James and A. Macatangay, Carbon Dioxide, Our Common 
``Enemy'' http://ntrs.nasa.gov/archive/nasa/casi.ntrs.nasa.gov/
20090029352.pdf
    \10\ H. W. Chapman, L. S. Gleason and W. E. Loomis, The Carbon 
Dioxide Content of Field Air, Plant Physiology, 29, 500 (1954).
    \11\ J. K. Dippery, D. T. Tissue, R. B. Thomas and B. R. Strain, 
Effects of low and elevated CO<INF>2</INF> levels on C3 and C4 annuals, 
Oecologia, Vol. 101,p. 13 (1995).
    \12\ R. A. Berner and C. Kothavala, Geocarb:III, A revised model of 
atmospheric CO<INF>2</INF> over the Phanerozoic time, American Journal 
of Science, 301, 182 (2001).
    \13\ S. B. Idso and B. A. Kimball, Effects of the enrichment of 
CO<INF>2</INF> on regrowth of sour orange trees (Citrus aurantium; 
Rutacea) after copicing, Am. J. Bot. Vol. 81, p. 843 (1994).
    \14\ http://www.ocap.nl/files/Ocap_Factsheet2012_UK.pdf.
    \15\ R. J. Donohue, M. L. Roderick, T. R. McVicar, and G. D. 
Farquhar, Impact of CO<INF>2</INF> fertilization on maximum foliage 
cover across the globe's warm, arid environments, Geophysical Research 
Letters Vol. 40, pp. 3031-3035 (2013).

    Senator Cruz. Thank you, Dr. Happer, for being here.
    And I will say the one thing on which I think we can all 
agree is that no Members of Congress will be made saints at any 
time in the foreseeable future.
    [Laughter.]
    Senator Cruz. And Mr. Steyn?

                   STATEMENT OF MARK STEYN, 
                INTERNATIONAL BESTSELLING AUTHOR

    Mr. Steyn. Thank you. Thank you, Senator Cruz.
    I am not a scientist. I am an author, and I am also one of 
the 7 billion people on this planet that the governments 
assembled in Paris currently are presuming to determine the 
future of. So I have an interest in that as much as anybody 
else.
    I have listened to the examples that Senator Peters and 
Senator Nelson gave of toxic infestation in Michigan water and 
tidal flooding in the streets of Miami Beach. Nothing agreed at 
Paris is going to do anything for that.
    If you expect the agreement at Paris to end the tidal 
flooding in Miami Beach, you are going to be waiting a long 
time. So if you want to do something about the tidal flooding 
in Miami Beach, the Mayor of Miami Beach and the Governor of 
Florida are the guys who should get together and do it.
    This body is called the Subcommittee, I believe--the full 
name--on Science, Space, and Competitiveness. And the most 
important competitiveness in any healthy society is 
competitiveness in ideas. That is how ideas are tested, and 
that is how good ideas win out over bad. And only a very weak 
idea demands that it must be protected from any criticism.
    Professor Ivar Giaever, the Nobel Prize winner--by the way, 
when I say he is a Nobel Prize winner, I mean he is a real one. 
He won the Nobel Prize in physics in 1973. Not a fraudulent 
Nobel Prize winner like, unfortunately, large members of Rear 
Admiral Titley's faculty--Michael Mann, Richard Alley, William 
Easterling--all of whom have falsely claimed to be Nobel Prize 
winners on an industrial scale, as have many other climate 
scientists.
    There has never been a misrepresentation of credentials on 
this scale. It used to be a very serious business. But 
apparently, it is not when your cause is ``saving the planet.'' 
But it is a revealing--it is this misrepresentation of 
credentials by people falsely claiming to be Nobel laureates is 
revealing. It gets to the heart of the problem here that they 
are attempting to cloak the science in an authority that it 
does not, in fact, possess.
    At any rate, Professor Giaever compared the global warming 
orthodoxy to a hypothesis that you are not allowed to question. 
And it has gone beyond that in recent years. It is not only 
that you are not allowed to falsify the hypothesis, that the 
hypothesis is not, in fact, falsifiable, but that if you do, 
you suffer very serious consequences.
    Professor Christy and Professor Curry are very brave 
individuals, and they were very mild in their remarks about 
what Congressman Grijalva did when he sent out a disgraceful 
letter that no citizen representative in a parliament of a free 
society should be sending out to free individuals, demanding 
things like hotel expenses and e-mail communication going back 
a decade. It was an absolutely disgraceful letter, and it 
represents the next stage of big climate enforcement.
    Your colleague Senator Whitehouse has called for the RICO 
laws, laws about racketeering, to be used against those who 
disagree with him on climate science. When you need that, you 
are not--you are not dealing with science. You are effectively 
enforcing a state ideology.
    The Attorney General of New York is currently using 
securities law to do an end run around the First Amendment to 
chastise enemies of his who do not agree with him on the 
climate science. This--to take a milder example, Rear Admiral 
Titley has said that it is time--when it comes to global 
warming, it is time for the politicking to stop.
    Well, when you are calling for the politicking to stop, 
that is itself politicking, such as the Democrats on this 
committee who appeared at a press conference a couple of hours 
ago under a sign saying, ``The debate is ended.'' I learned 
from Canada in the battle I fought over free speech that 
Senator Cruz mentioned, I learned to always listen very 
carefully when someone is telling you to shut up.
    And although Rear Admiral Titley and the Democrat Senators 
are doing it far more politely than Senator Whitehouse and 
Congressman Grijalva and the Attorney General of New York, what 
they are telling you is that this idea is so weak, it cannot be 
subjected to the normal vigorous debate of free society.
    So I thank this subcommittee for allowing at least to 
recognize that there is a divergence of opinion. The science is 
not settled, and the climate system of this planet is too 
complex for the slogans of cartoon climatology we are currently 
seeing in Paris.
    Thank you very much.
    [The prepared statement of Mr. Steyn follows:]

                Prepared Statement of Mark Steyn, Author
    My name is Mark Steyn. I am not a scientist. I am an author. My 
main interest in climate science is that Michael E Mann, the inventor 
of one of its most notorious artifacts, is suing me for ``defamation of 
a Nobel Prize winner''--a crime that I was not aware existed, 
especially in his case, as according to the Nobel Institute he is not a 
Nobel Prize winner. So I recently edited a book about it called ``A 
Disgrace to the Profession'': The World's Scientists--in Their Own 
Words--On Michael E Mann, His Hockey Stick, and Their Damage to 
Science, Volume One--which I'm proud to say was Number One on the 
Climatology Hit Parade. I have been Number Four on the Amazon books 
chart, and Number Seven on the Amazon easy-listening chart, and earlier 
this very month the Number One Amazon jazz vocalist, but I had no idea 
there was also a climatological bestseller list. Still, I'm happy my 
book was credible enough to get to the top of it.
    That said, at a hearing on ``Data or Dogma?'', given the 
distinguished scientists here to address the data, I thought I should 
confine myself mostly to the dogma.
The Climate of Fear
    In the three years that I have been ensnared in the dysfunctional 
court system of the District of Columbia, I have come to know well what 
I call the ``climate of fear'' within climate science. Professors 
Christy, Curry and Happer are sufficiently eminent that they can, just 
about, bear the assault the Big Climate enforcers mount on those who 
dissent from the dogma--although that assault is fierce and 
unrelenting. If you're a professor emeritus, you're told you're senile. 
If you're one of the few women in this very male field, you're told 
you're whoring for Big Oil: The aforementioned Michael Mann of Penn 
State, who is too cowardly to be here today and has instead sent his 
proxy, approvingly linked to an Internet post accusing Dr Curry of 
sleeping with me. This is how a supposedly distinguished climate 
scientist treats those who disagree with him. On May 13th last year I 
wrote:
    It's always fun in a legal battle to have something bigger at stake 
than a mere victory. In Canada, we put the `human rights' system itself 
on trial, to the point where the disgusting and indefensible `hate 
speech' law Section 13 was eventually repealed by Parliament. It seems 
to me that in this particular case the bigger issue is the climate of 
fear that Mann and his fellow ayatollahs of alarmism have succeeded in 
imposing on an important scientific field.\1\
---------------------------------------------------------------------------
    \1\ http://www.steynonline.com/6333/michael-e-mann-liar-cheat-
falsifier-and-fraud
---------------------------------------------------------------------------
    The very next day the distinguished 79-year-old Swedish 
climatologist Lennart Bengtsson was forced to resign from a dissident 
climate group after the Big Climate enforcers took the hockey stick to 
him in the back alley. He had agreed to participate in a group headed 
by Nigel Lawson. Some of you may know Lord Lawson personally. He was 
Chancellor of the Exchequer in Mrs Thatcher's ministry in the United 
Kingdom. He's nobody's idea of a fringe madman: He's a member of the 
House of Lords, a Privy Counselor; his daughter is a popular celebrity 
chef on America's Food Network; his fellow trustees include a bishop of 
the Church of England, a former private secretary to the Queen, and an 
advisor to two Prime Ministers from the Labour Party. But they disagree 
with the tight little coterie of climate alarmists, and so Lennart 
Bengtsson could not be permitted to meet with them. As Professor 
Bengtsson wrote:

        I have been put under such an enormous group pressure in recent 
        days from all over the world that has become virtually 
        unbearable to me. If this is going to continue I will be unable 
        to conduct my normal work and will even start to worry about my 
        health and safety. I see therefore no other way out therefore 
        than resigning from GWPF. I had not expecting such an enormous 
        world-wide pressure put at me from a community that I have been 
        close to all my active life. Colleagues are withdrawing their 
        support, other colleagues are withdrawing from joint authorship 
        etc. I see no limit and end to what will happen. It is a 
        situation that reminds me about the time of McCarthy. I would 
        never have expecting anything similar in such an original 
        peaceful community as meteorology. Apparently it has been 
        transformed in recent years.\2\
---------------------------------------------------------------------------
    \2\ http://klimazwiebel.blogspot.com.au/2014/05/lennart-bengtsson-
leaves-advisory-board.html

    Because it's no longer about ``meteorology'', it's about saving the 
planet. Bengtsson was a former director of the Max Planck Institute of 
Meteorology, winner of the Descartes Prize and a WMO prize for 
groundbreaking research, and even a friend and collaborator of Mann's 
at scientific conferences. But he made the mistake of, ah, seeking to 
expand his circle of climate acquaintances, and so Michael Mann now 
sneeringly dismisses him as ``junk science.'' \3\ Nate Silver is the 
hipster statistician who correctly predicted the 2012 election and then 
set up his own ``538'' website dedicated to ``data journalism''--just 
the data, the facts, the numbers, the analysis . . . But, when Mr 
Silver made the mistake of hiring Professor Roger Pielke Jr, then 
Michael Mann and Kevin Trenberth were obliged to explain to him that 
these considerations do not apply to climate science.\4\ So Nate Silver 
fired Professor Pielke--who has now withdrawn from all climate 
research. When Professor Willie Soon co-authored a paper earlier this 
year on why the turn-of-the-century climate models all turned out 
wrong, the Big Climate heavies did not attempt to refute the paper, but 
instead embarked on a campaign to get him fired from the Harvard-
Smithsonian Center for Astrophysics.
---------------------------------------------------------------------------
    \3\ https://twitter.com/MichaelEMann/status/467310861237760000
    \4\ http://judithcurry.com/2014/03/20/nate-silvers-538-
inconvenient-statistics/
---------------------------------------------------------------------------
    For every Judith Curry or Willie Soon or Lennart Bengtsson, there 
are a thousand lesser names who see what happens to even the most 
distinguished people in their field and decide to keep their heads 
down. Professor Ivar Gievar recently spoke out against, among other 
things, the recent adjustment of figures by NASA--an agency overseen by 
this sub-committee--at the annual meeting of Nobel Laureates in Lindau. 
Professor Gievar is a Nobel Laureate. A real Nobel Laureate, I mean, 
not a fake one like Michael Mann, Kevin Trenberth and many other 
climate scientists who falsely claim to be Nobel Prize winners on the 
grounds that the IPCC was awarded the Nobel Peace Prize in 2007, and 
they once contributed to an IPCC report. Mann falsely claimed to be a 
Nobel Prize winner on his book jacket, on his website, in his court 
complaint about me--even though the Nobel Institute told him he wasn't 
a Nobel Prize winner and he should cut it out. But this serial 
misrepresentation of credentials by Mann, Trenberth and others is also 
part of their intimidation technique. If you're a real Nobel Laureate 
like Ivar Giaever, who won the 1973 Nobel Prize in Physics, or if 
you're older, tenured and sufficiently eminent, you can just about 
withstand the Big Climate enforcers jumping you in the parking lot and 
taking the hockey stick to you.
    But, if you're a younger scientist, you know that, if you cross 
Mann and the other climate mullahs, there goes tenure, there goes 
funding, there goes your career. I've been stunned to learn of the very 
real fear of retribution that pervades the climate world.
    When I look at what has happened to those who speak out, I recall 
the wise words of Stephen McIntyre:

        As a general point, it seems to me that, if climate change is 
        as serious a problem as the climate `community' believes, then 
        it will require large measures that need broadly based 
        commitment from all walks of our society.\5\
---------------------------------------------------------------------------
    \5\ http://climateaudit.org/2014/05/14/the-cleansing-of-lennart-
bengtsson

    Mr McIntyre is exactly right: If we take Big Climate at their word 
that the entire global economy needs massive re-orientation on a scale 
never before contemplated, it will require the largest societal 
consensus--left and right and center, in America, in Canada, in 
Britain, in Europe . . . Yet all Big Climate does is retreat ever 
deeper into its shrinking echo chamber and compile ever longer lists of 
people who are beyond the pale--Professor Curry, Professor Christy, 
Professor Bengtsson, Professor Pielke, Professor Soon, Lord Lawson, the 
Bishop of Chester, the winner of the 1973 Nobel Prize in Physics, the 
winner of the 1998 Nobel Prize in Physics. . .It might be quicker for 
Mann, Trenberth, Gavin Schmidt and the other climate enforcers to make 
a short list of those to whom they are prepared to grant a say in the 
future of the planet.
    In shoring up this cartoon climatology, the alarmism industry is 
now calling on courts and legislatures to torment their opponents. I 
shall outline my own particular experience, and then the general 
climate.
Mann vs Steyn et al
    On July 12, 2012, former FBI Director and special investigative 
counsel Louis Freeh issued a devastating report regarding the behavior 
of Pennsylvania State University and its most senior figures, as they 
ignored, abetted and covered up the systemic and brutal child sexual 
abuse conducted by Gerald A Sandusky, longtime football coach at the 
university.
    The following day Rand Simberg posted an article on the Competitive 
Enterprise Institute's website entitled ``The Other Scandal in Happy 
Valley'', which suggested that, in light of the revelations regarding 
the ``rotten and corrupt culture'' at Penn State under the presidency 
of Graham Spanier, it might be worth revisiting the other sham 
``investigation'' on Spanier's watch--of Dr Michael E Mann, creator of 
the famous global-warming ``hockey stick''.
    The very same day The Chronicle of Higher Education also tied 
together the sham Sandusky and Mann investigations in a piece titled 
``Culture of Evasion.'' \6\ As you know, after the Freeh Report was 
published, criminal charges were filed against Penn State President 
Graham Spanier and other senior administrators. Spanier is currently 
under indictment for grand-jury perjury, obstruction of justice, child 
endangerment, conspiracy and failure to report child abuse.
---------------------------------------------------------------------------
    \6\ http://chronicle.com/blogs/innovations/a-culture-of-evasion/
33485
---------------------------------------------------------------------------
    Two days later, I wrote a 270-word blog post for the opinion page 
of National Review Online \7\ referencing the Freeh Report and Mr 
Simberg's piece. That post appears below in its entirety:
---------------------------------------------------------------------------
    \7\ http://www.nationalreview.com/corner/309442/football-and-
hockey-mark-steyn

        In the wake of Louis Freeh's report on Penn State's complicity 
        in serial rape, Rand Simberg writes of Unhappy Valley's other 
---------------------------------------------------------------------------
        scandal:

        `I'm referring to another cover up and whitewash that occurred 
        there two years ago, before we learned how rotten and corrupt 
        the culture at the university was. But now that we know how bad 
        it was, perhaps it's time that we revisit the Michael Mann 
        affair, particularly given how much we've also learned about 
        his and others' hockey-stick deceptions since. Mann could be 
        said to be the Jerry Sandusky of climate science, except that 
        instead of molesting children, he has molested and tortured 
        data in the service of politicized science that could have dire 
        economic consequences for the Nation and planet.'

        Not sure I'd have extended that metaphor all the way into the 
        locker-room showers with quite the zeal Mr Simberg does, but he 
        has a point. Michael Mann was the man behind the fraudulent 
        climate-change `hockey-stick' graph, the very ringmaster of the 
        tree-ring circus. And, when the East Anglia e-mails came out, 
        Penn State felt obliged to ``investigate'' Professor Mann. 
        Graham Spanier, the Penn State president forced to resign over 
        Sandusky, was the same cove who investigated Mann. And, as with 
        Sandusky and Paterno, the college declined to find one of its 
        star names guilty of any wrongdoing. If an institution is 
        prepared to cover up systemic statutory rape of minors, what 
        won't it cover up? Whether or not he's `the Jerry Sandusky of 
        climate change', he remains the Michael Mann of climate change, 
        in part because his `investigation' by a deeply corrupt 
        administration was a joke.

    I asked what I thought was quite an obvous question: If an 
institution is prepared to cover up the systemic ongoing rape of 
minors, what won't it cover up?
    It's a legitimate question for an institution that receives 
taxpayer funding, a certain portion of which falls under the oversight 
of this committee. Penn State has a representative here today, and 
perhaps he will address some of these questions about his institution 
and its integrity.
    Graham Spanier, the now disgraced president of Penn State who 
presided over the joke investigations of both Sandusky and Mann, 
remains the President Emeritus of Penn State, and a professor of family 
studies. His absolution of Michael Mann was widely regarded at the time 
as a total joke even by many who are by no means ``climate deniers''--
for example, the venerable American institution The Atlantic Monthly:

        The Penn State inquiry exonerating Michael Mann--the 
        paleoclimatologist who came up with `the hockey stick'--would 
        be difficult to parody.\8\
---------------------------------------------------------------------------
    \8\ http://www.theatlantic.com/politics/archive/2010/07/
climategate-and-the-big-green-lie/59709/

    Professor Harold Lewis, one of the most distinguished members of 
the American Physical Society, resigned from the organization over the 
---------------------------------------------------------------------------
whitewashing of Mann, writing:

        When Penn State absolved Mike Mann of wrongdoing, and the 
        University of East Anglia did the same for Phil Jones, they 
        cannot have been unaware of the financial penalty for doing 
        otherwise.\9\
---------------------------------------------------------------------------
    \9\ http://wattsupwiththat.com/2010/10/16/hal-lewis-my-resignation-
from-the-american-physical-society/

    In other words, Spanier's depraved regime at Penn State turned a 
blind eye to Mann for the same reason it turned a blind eye to the 
Sandusky rape epidemic: they couldn't afford to take the financial hit.
    In this case, unlike football revenue, the money comes in large 
part from taxpayers, via you and the agencies you preside over--such as 
the National Science Foundation. Given Penn State's refusal to disclose 
materials relating to the Mann investigation under the corrupt Spanier 
regime, it would be appropriate for you to put a hold on all NSF 
funding of Penn State, including Mann's two current grants totaling 
half a million dollars. And I hope this sub-committee will ask the 
witness here today representing this deeply corrupt institution whether 
he will join in a call for Spanier's successor to let the sunlight in 
on all the dank, fetid corners of Spanier's legacy.
    Dr Mann did not want the world to be reminded that the same man who 
turned a blind eye to Sandusky also turned a blind eye to him. He filed 
suit against me and three other parties in the Superior Court of the 
District of Columbia, where neither Mann nor I work or reside. Indeed, 
I never set foot in this benighted jurisdiction except to come here for 
matters arising from the court case, such as this hearing. The case was 
assigned to Natalia Combs Greene, a since reprimanded landlord-and-
tenant judge appointed by President Clinton and confirmed by this 
honorable Senate. After a botched ruling in which she confused the 
parties, she said the case was ``complicated'' and shuffled it off on a 
colleague, but not before procedurally mangling it so that, for a 
while, two different trial judges were ruling on the case 
simultaneously--something that's a big no-no in functioning 
jurisdictions, but which was partly caused here by Michael Mann falsely 
claiming in his complaint to be a Nobel Laureate and then, after the 
Nobel Institute told him he wasn't, having to file an amended 
complaint.
    At this point, my fellow defendants chose to test the DC Anti-SLAPP 
statute, which was assented to by this U.S. Senate in 2010, but was so 
poorly written as to leave unanswered such basic questions as the 
standard for dismissal and whether or not that decision is immediately 
appealable to the DC Court of Appeals. The ACLU, The Washington Post, 
NBC News, The Los Angeles Times, and various other media bigfeet all 
filed amici briefs opposed to Mann--not because they disagree with him 
on global warming (most of them are as hot for climate change as he is) 
but because they understand that putting climate science beyond 
criticism and into the courtroom would inflict the greatest damage on 
the First Amendment in over 50 years. Not a single amicus brief was 
filed on Dr Mann's behalf.
    Oral arguments were heard over one year ago, yet judges Vanessa 
Ruiz, Corinne Beckwith and Catharine Easterly, all confirmed to the DC 
court by this Senate, have failed to rule. I note that, in writing to 
President Obama recommending a second 15-year term for Judge Ruiz, the 
Commission on Judicial Disabilities and Tenure nevertheless observed:

        The Commission would be remiss if it did not address the 
        serious issue of Judge Ruiz's backlog of opinions . . . Of 
        crucial importance to the proper functioning of the Court of 
        Appeals is the timely resolution of disputes. The public's 
        confidence in the Court is eroded when litigants must wait 
        multiple years for decisions to be rendered. The Commission 
        believes that this problem is not only about the pace of 
        opinion production, but also about a less than fully adequate 
        appreciation on the part of Judge Ruiz as to how her backlog 
        adversely affects the litigants, the Court, and her 
        colleagues.\10\
---------------------------------------------------------------------------
    \10\ http://legaltimes.typepad.com/files/commission-on-judicial-
disabilities-and-tenure-report-vanessa-ruiz.pdf

    As a result, an interlocutory appeal has dragged on for almost two 
years. Judge Ruiz is an activist judge who is, inter alia, a trustee of 
the Carnegie Endowment for International Peace, which aspires to be the 
first global think-tank and is very active on the transnational climate 
scene. All very fascinating. But she's supposed to be a DC judge first 
and a condition of the Commission in exchange for recommending her for 
a second term was that her obligation to clear her appalling backlog of 
cases took precedence over her ``outside activities, no matter how 
worthy they may be''. A dissenting member of the Commission, Noel J 
---------------------------------------------------------------------------
Francisco, was shrewder about Judge Ruiz's failings:

        It should go without saying that an appellate judge's primary 
        duty--if not her sole duty--is to decide cases. On this score, 
        as my colleagues have described, Judge Ruiz's backlog is `the 
        highest by far of any of the appellate judges on the DC Court 
        of Appeals' and, as a result, litigants often `must wait 
        multiple years for decisions to be rendered' by her . . . As 
        the old adage goes, `justice delayed is justice denied'.

    The purpose of anti-SLAPP laws is to prevent the use of litigation 
to chill free speech--on climate change and many other issues. When it 
takes up to three years to get a ruling (as it apparently does with 
Judge Ruiz), there is no point to anti-SLAPP legislation. Indeed, when 
it takes three years to get a ruling, the case is not the issue, the 
judge is. When it takes three years from oral arguments to ruling, it 
may be that the judge is just an incompetent sloth who's spending far 
too much time with the Carnegie Endowment working on world peace. Or it 
may be that a sclerotic and incompetent DC court system has three-year 
backlogs because it accepts cases from venue tourists like Michael Mann 
who have no connection whatsoever with this jurisdiction--and, as a 
result, the court system is incapable of serving the people it's meant 
to serve.
    Nevertheless, this Senate confirmed Judge Ruiz. Under the Home Rule 
Act, the District of Columbia operates in a constitutional no-man's-
land whereby it enacts legislation for which this honorable body is 
ultimately responsible. In practice, that means they pass slapdash, 
poorly drafted laws, and you guys rubber-stamp them. The constitutional 
limbo allows serial plaintiffs like Michael Mann to use the DC courts 
to torture non-DC residents: this is a disgrace, and ultimately it is 
the responsibility of you and your colleagues.
    I responded to Mann's discovery requests almost two years ago. He 
has yet to respond to mine. No court around the world within the Common 
Law tradition to which this country is heir has ever presumed to 
adjudicate science. Judge Natalia Combs Greene is not competent to rule 
on landlord-and-tenant cases, never mind the extent of the Medieval 
Warm Period. Judge Vanessa Ruiz is so lethargic that, by the time she 
does rule on the science, global warming will have kicked in and the 
rising sea levels will have washed away the Maldives, Tuvalu and, with 
luck, the District of Columbia. My three years in the stagnant swamp of 
DC ``justice'' demonstrate why science in particular and public policy 
disputes in general are beyond the competence of the judges you confirm 
and the courts you fund. They belong properly in what the eminent 
jurist Lord Moulton called ``the domain of manners''.
Big Climate vs Everyone
    Why is this relevant beyond the travails of one obscure immigrant? 
Because too many people within the climate cartel are demanding that 
dissent from the alleged ``consensus'' should be not merely a civil 
offense but a criminal one--and far too many legislators and 
bureaucrats are willing to entertain it. Your colleague, Senator 
Whitehouse, is among those who favor criminal penalties for those who 
disagree with him on climate policy. Earlier this year, you, Senator 
Markey, were rebuked by the President of the Cato Institute for ``an 
obvious attempt to chill research into and funding of public policy 
projects you don't like . . . You abuse your authority when you attempt 
to intimidate people who don't share your political beliefs.'' \11\
---------------------------------------------------------------------------
    \11\ http://www.cato.org/blog/message-catos-center-study-science
---------------------------------------------------------------------------
    Likewise, Raul Grijalva, the Congressman from Arizona and Ranking 
Member of the House UnEnvironmental Activities Committee, earlier this 
year sent a letter to seven scientists, including professors Curry and 
Christy--a quite disgraceful letter that no citizen-legislator in a 
representative parliament has any business sending to anybody, 
demanding among other things details of speaking fees, travel expenses, 
and e-mail communications stretching back a decade \12\. Commissar 
Grijalva presumed to be able to do this because these scientists had 
voluntarily testified before his committee, and thus, as he saw it, had 
submitted to his jurisdiction over every aspect of their lives. I hope 
this Senate sub-committee will distance itself from Commissar 
Grijalva's deformed understanding of his role. But, in the event that, 
following my voluntary appearance here today, any Senator demands in 
five years' time to see my e-mails and know what hotel I stayed in in 
Cleveland or Copenhagen, I might as well give you my answer now: You 
ain't getting' nuthin'.
---------------------------------------------------------------------------
    \12\ http://www.steynonline.com/6831/the-warmish-inquisition
---------------------------------------------------------------------------
    It takes quite a lot to stand up to powerful congressmen and 
senators threatening to plunge you into half-a-decade of investigative 
torture for exercising your free-speech and public-advocacy rights. The 
ultimate verdict of such inquiry is largely irrelevant: The process is 
the punishment.
    The Attorney General of New York, Eric Schneiderman, is presently 
using securities law to do an end run around the First Amendment and 
sue Exxon for not holding the same views on climate change as the more 
pliable oil companies have been forced to adopt in public.
    Recently, a group of scientists mainly from George Mason University 
wrote to the President to demand that climate dissenters be prosecuted 
under the RICO laws. RICO, as you know, is supposed to be used against 
racketeers and mobsters and, granted the unfortunate tendency of 
sloppily drawn Federal laws to metastasize under opportunist U.S. 
Attorneys, one marvels nevertheless that such an absurd and ideological 
expansion of this legislation could ever be seriously entertained.
    Needless to say, as with the Spanier regime at Penn State, it is in 
fact George Mason's climate community that most closely approximates a 
mob racket. The first signatory on that letter demanding RICO be 
applied to his enemies is Professor Jagadish Shukla of George Mason, 
who additionally controls a ``non-profit'' the Institute for Global 
Environment and Security, Inc. which is part of George Mason's College 
of Science. In 2014 alone, this ``institute'' received over half a 
million dollars in Federal climate grants, including from bodies you 
oversee. As you know, the NSF and other Federal agencies have 
supposedly strict rules about enriching oneself from grant monies. As a 
general principle, during college vacation you're allowed to earn no 
more than your monthly salary in research grants. So if you're paid, 
say, $100,000 per year, you're allowed to top that up to 20 grand of 
grant money during the summer. Instead, Professor Shukla essentially 
tripled his income, and since 2001 has taken some 63 million dollars in 
Federal science grants for a ``non-profit'' that employed him as 
president, his wife as business manager and his daughter as assistant 
business manager. There's a little bit of congressional oversight just 
waiting to be done, don't you think? Sixty-three million bucks! But 
instead Commissar Grijalva wants to know whether Judith Curry got 
upgraded to a junior suite at the airport Hilton in 2007.
    This climate of intimidation, led by influential legislators of the 
most lavishly funded government in the world, sends a powerful signal 
to others. Professor Curry has noted the latest stage in the grim 
descent of the journal Science, whose editor Marcia McNutt recently 
published a statement confirming her journal's wholesale embrace of 
advocacy over science: ``The time for debate has ended. Action is 
urgently needed.'' The other most prominent science journal on the 
planet, Nature, appears to be going even further, publishing a 
statement by three climate scientists arguing that ``climate justice'' 
is ``more vital than democracy'':

        Democracy emphasizes the mutual roles of actors: all 
        preferences are treated as equal. In many regions of the world, 
        however, the results of democratic choices can be strongly 
        influenced by power relations and inequitable social 
        arrangements, owing to differences in economic development, 
        access to technology and knowledge.

        Elites may use democratic processes to entrench their status or 
        encroach on other social goals. This can lead to incremental or 
        undesirable results, which might explain why large democratic 
        nations such as the United States continue to oppose 
        progressive climate legislation.

        In our view, sound climate and energy planning should not treat 
        all stakeholders in the same way. Instead, preferences and 
        roles should be weighted to consider criteria related to 
        equity, due process, ethics and other justice principles.\13\
---------------------------------------------------------------------------
    \13\ http://www.nature.com/nature/journal/v526/n7573/full/
526323a.html

    So the fake 97 per cent consensus is no longer enough. These 
scientists are saying that, because there's a supposed 97 per cent 
consensus among climate scientists, they don't need a 51 per cent 
consensus from the electorate.
    The relationship between government and science today would be 
unrecognizable to real scientists--to Sir Isaac Newton, to Charles 
Babbage, to the Curies. The creation of the IPCC in particular has led 
to the establishment of a closed, largely Anglo-American climate jet 
set that, as demonstrated in the Climategate e-mails, has had a wholly 
corrupting effect on peer review among other things. In this culture, 
what is the proper role of the political class? Is it to do as Senator 
Whitehouse, Congressman Grijalva and Attorney General Schneiderman are 
doing, and make climate alarmism a state ideology from which it is 
forbidden to dissent? Or is it time for legislators to exercise their 
responsibility to ensure that the people's money is used in the service 
of science and not propaganda?
    In that respect, let me close by turning to my area of expertise. I 
am not a climate scientist, but I am an acknowledged expert in the 
field of musical theatre.\14\ Last year, a show called The Great 
Immensity opened off-Broadway. It ran a week and then closed after 
largely stinking reviews from The New York Times et al. It had received 
a direct grant of $700,000 from the agency for which you are 
responsible, the National Science Foundation. There is no science in 
putting on a musical: If there were, the Broadway adaptation of the Tom 
Hanks film Big would not have lost its entire investment, nor the 
Stephen King musical Carrie, nor the supposed blockbuster of America's 
bicentennial year 1600 Pennsylvania Avenue, by Leonard Bernstein and 
Alan Jay Lerner, which closed after five days and led Bernstein to 
conclude that he never wanted to get mixed up with Broadway again. If 
only the National Science Foundation was that savvy. The difference 
between those shows and The Great Immensity is that, with your 
blessing, only the last had American taxpayers' money in it. The 
Government of the United States is the brokest entity in the history of 
brokeness. It has to pay back $20 trillion just to get back to having 
nothing at all. Which nobody in human history has ever done. Yet it 
apparently is not so broke that it can't throw down the toilet 700 
grand of funds marked for science on a lousy musical.
---------------------------------------------------------------------------
    \14\ http://www.amazon.com/Broadway-Babies-Say-Goodnight-Musicals/
dp/0415922879/ref=
sr_1_1?ie=UTF8&qid=1449452540&sr=8-1&keywords=Steyn+Broadway+Babies
---------------------------------------------------------------------------
    I have been around the theatre my entire adult life, and once in a 
while one runs into an example of an official government musical. There 
was the celebrated socialist operetta, The State Department Store, 
which was produced in Hungary and other Warsaw Pact countries after the 
Communist regimes banned all the old-school operettas for having too 
many singing princes and countesses as the principal characters. There 
was also Zabibah and the King, a musical version of Saddam Hussein's 
allegorical novel in which the nubile virginal heroine represents Iraq 
and her manly yet tender expert lover the King represents Saddam. 
Unlike the NSF-funded Great Immensity, it got rave reviews from the 
Baghdad critics--because, if you gave it two thumbs down, you got one 
head off. The National Science Foundation does not yet enjoy that 
power, although clearly Dr Mann, Senator Whitehouse, Congressman 
Grijalva, Attorney General Schneiderman, and those scientists demanding 
that climate justice trump democracy are moving in that direction.
    And in fairness neither the Communist regimes of Eastern Europe nor 
the Baathist tyranny of Saddam Hussein had their scientific bodies 
invest in musicals. That grotesque innovation came from an agency for 
which you are responsible. If you click on the YouTube link below.\15\ 
which I hope we might listen to during the hearing, you will see just 
how little American taxpayers got for their $700,000. Even if the show 
were not total garbage, it would be tainted and disfigured by the 
$700,000 in direct funding from a government agency. That moves it into 
the same realm of state propaganda as Saddam Hussein's musical and The 
State Department Store. Propaganda can only disfigure art and science, 
and it has no place in either. The National Science Foundation has no 
more business sinking three-quarters of a million bucks into The Great 
Immensity than it would have into my cat album, released this month--
although, in the latter case, the American people would at least have 
got a return on their involuntary investment.
---------------------------------------------------------------------------
    \15\ https://www.youtube.com/watch?v=EASpzOX2UNQ
---------------------------------------------------------------------------
    In the world of arts funding, bureaucrats and administrators often 
talk of the ``arm's length'' principle. There is no ``arm's length'' 
between government bureaucracies and contemporary climate science: They 
are entwined like Saddam Hussein and his lush, curvaceous lover in that 
boffo Baghdad smash, and it has done untold damage throughout most of 
the western world. As a final thought--and here I stray from dogma to 
my colleagues' field of data--it seems to me that there are more 
similarities between musical theatre and IPCC climate science than 
there ought to be. As Irving Caesar, the celebrated lyricist of No, No, 
Nanette, characterized Broadway to me many years ago: ``Remember, kid. 
No one knows nothing.'' You hire the greatest composer, the hottest 
choreographer, the biggest star, the best orchestrator, and, when you 
put `em all together, it just lies there and it dies there. Likewise, 
as I have come to learn, with climate science: when someone's up in 
northern Finland collecting lake sediment, that's science; when 
someone's taking tree rings from the Gaspe peninsula in Quebec, that's 
science; when someone's up to his neck in ice cores in Antarctica, 
that's science. But, when Michael Mann feeds them all into his magic 
processor and tells you here's the planet's temperature for the last 
two millennia, that's not science. When the IPCC distills it further 
into ``This is the hottest year of the hottest decade of the hottest 
century in, like, forever'', that is way beyond the realm of science. 
And, when politicians distill that further still into ``Give us all 
your money or the planet gets it'', we have flown the coop of science 
and are free-floating through clouds of totalitarian fantasy.
    Climate alarmism is going nowhere. The two-decade global-warming 
pause, which no late 1990s climate model foresaw, led the public to 
doubt Big Climate's confident predictions for the future. In response, 
Federal bodies such as NOAA and NASA have adjusted the past to make the 
present appear hotter, and thus supposedly demonstrated that in fact 
there is no such ``pause''. As a result, public opinion, which no 
longer trusts the Big Climate enforcers to tell them what the climate 
will be like in 2050, now no longer trusts them to tell them what it 
was like in 1950. A recent poll found that, notwithstanding the urgings 
of the President and the Secretary of State and others, only three per 
cent of Americans regard climate change as their major concern. Three 
per cent. There is your 97 per cent consensus, gentlemen.
    At exactly the time when climate science needs to acknowledge its 
own failings, and the uncertainties of which Dr Curry speaks, and the 
inability of cartoon climatology and fraudulent gimmicks like the 
hockey stick to capture the complexities of the planet's climate 
system, a narrow unrepresentative group of activists is demanding ever 
more brutal penalties against those who refuse to toe the line.
    There is certainly a role for the state to play in this--not in 
prosecuting climate dissenters under RICO laws or in dumping taxpayer 
money into unwatchable propaganda musicals, or in having feckless 
lethargic judges in the District of Columbia reward serial plaintiffs 
for nuisance suits, but rather in standing firm for the most expansive 
definition of free speech, which is vital to scientific inquiry and 
sorely overdue in this particular field, and against the abuse of 
government funds, which has been disastrous for it.

    Senator Cruz. Thank you, Mr. Steyn.
    Dr. Titley?

     STATEMENT OF DAVID W. TITLEY, REAR ADMIRAL USN (RET.),

       Ph.D., PROFESSOR OF PRACTICE AND DIRECTOR, CENTER

           FOR SOLUTIONS TO WEATHER AND CLIMATE RISK,

                 PENNSYLVANIA STATE UNIVERSITY

    Admiral Titley. Thank you for Chairman Thune to extend this 
invitation to me.
    Chairman Cruz, Ranking Member Peters, Ranking Member 
Nelson, distinguished members of the Committee, thank you.
    This is an important hearing on an important subject. I am 
here today as a private citizen. My views are my own.
    I got involved in climate in 2009. I was minding my own 
business as a one-star admiral, ran the Navy's oceanography and 
operational weather forecasting. Got a call while driving to 
the New Orleans airport across the causeway in Lake 
Pontchartrain, and it was the Chief of Naval Operations, 
Admiral Gary Roughead.
    He basically said, ``Hey, Titley, figure out what is going 
on in the Arctic. Is this an issue or not? What is going on 
with climate? Do I need to deal with this? Come up to the 
Pentagon and figure this out.''
    So I was a one star. He is a four star. So I said, ``Aye 
aye, sir.'' And that is what we did.
    And kind of what I looked at it as is really dropping back 
to the training. I was a navigator on an old guided missile 
destroyer, and we didn't have GPS. So you had to look at all 
the data, but not believe any one piece of data entirely.
    And that is kind of how I have looked at this because, 
actually, I wasn't really convinced one way or the other what 
was going on. So that is what I did. And the more we looked at 
the data, the more we saw that not only were the air 
temperatures coming up, but the ocean temperatures were coming 
up. The sea level was coming up. The glaciers were retreating. 
The oceans were acidifying. And as I said, the sea levels were 
actually rising.
    So when you put all of those independent lines of evidence 
together, coupled with a theory that was over 100 years old and 
had stood the test of time, it kind of made sense. Does it mean 
we know everything? No. But does it mean that we know enough 
that we should be considering this and acting? Yes. It is 
called risk management, and that is what we are here doing.
    So that is kind of where, you know, the science in general 
works there. Can you test your hypothesis? What is the 
cumulative weight of error? Can you replicate? What is the 
discovery?
    You know, and over time, you can identify what is known 
with confidence. Not every publication is correct. That is OK. 
But it informs what we need to study over the next few years.
    So, you know, basically, what do we know today about 
climate science? We know that the Earth's climate is changing 
at an unusual pace compared to the natural changes that the 
Earth has experienced in the past. We know emissions of 
greenhouse gases from human activities--primarily, but not 
exclusively fossil fuels--are the principal drivers.
    We know it is already causing harm, as Senator Nelson has 
pointed out. Will continue for some time, that harm will 
continue because there is inertia in the system. There is 
inertia in the physical system. There is inertia in the world's 
energy system. And we can limit that harm, though, by remedial 
action.
    In the military, you don't always have perfect information. 
In fact, you hardly ever have perfect information. But you 
still make decisions based on what you know, and we know a lot.
    General Sullivan, who serves with me on the CNA Military 
Advisory Board, famously said that if you wait for 100 percent 
certainty on the battlefield, you will probably be dead. Let us 
not do that.
    We know in 2014 the CNA Military Advisory Board put out 
another report that talked about the climate risks are 
accelerating, the threats are being magnified, and the complex, 
cascading consequences can lead to a failure of imagination. We 
have already experienced that in the last 15 years in this 
country. We don't need to do that again.
    So what do we do? We are already paying today a de facto 
carbon tax, one that nobody voted on. You look at the cost of 
the New Orleans levees. You look at the cost of Sandy. You look 
at the cost of Florida. You look at the cost of relocating 
communities in Alaska. Those are all carbon taxes, and we are 
paying those today.
    These are the impacts to society, not necessarily mid-
tropospheric corrections to MSU data. These are the kinds of 
things that we have got to figure out.
    So what can we do? I will use my last little bit of time 
here to really plead to the Congress that your leadership is 
essential. Big things happen in the United States with the 
Congress. The Executive Branch can do some things. It can't do 
a ton.
    We have seen this in the Department of Defense. Goldwater-
Nichols, that was a big change for the Department of Defense.
    Nuclear power. The way nuclear power came into the Navy is 
because the Congress made it happen. The Congress is massively 
important.
    Ultimately, we need to decarbonize our energy system. It is 
going to happen anyways, but the speed of that transition is 
important. And as has been mentioned, there are 190 countries 
right now in Paris. So that energy system is going to 
transform. They are talking about this. Why don't we lead it?
    We have already heard the Ranking Member talk about that. 
Why don't we--why don't we lead it?
    So here is my belief. I believe that we are still the 
exceptional country that much of the world looks to for 
leadership. I believe we all want a better life for ourselves, 
our children, our grandchildren. Please let us not pull a 
``Thelma and Louise.'' Let us get a better future. Let us start 
it today.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Admiral Titley follows:]

 Prepared Statement of David W Titley, Rear Admiral USN (Ret.), Ph.D., 
Professor of Practice and Director, Center for Solutions to Weather and 
              Climate Risk, Pennsylvania State University
    Thank you Chairman Cruz, Ranking Member Peters, distinguished 
members of the U.S. Senate Committee on Commerce, Science, and 
Transportation for the opportunity to come before you today and discuss 
this very important topic.
    I am David Titley and currently serve as the Founding Director of 
the Center for Solutions to Weather and Climate Risk at the 
Pennsylvania State University. I had the honor of serving in the United 
States Navy for 32 years and retired last year as a Rear Admiral and 
Assistant Deputy Chief of Naval Operations for Information Dominance. 
When I retired, I was also the Oceanographer and Navigator of the Navy, 
and Director of U.S. Navy Task Force Climate Change. Subsequent to my 
time in the Navy, I served as the Chief Operating Officer position of 
the National Oceanic and Atmospheric Administration (NOAA). My Center 
at Penn State currently receives no Federal Funding. Although I have 
consulted with many distinguished climate scientists in preparation for 
this testimony, my views are my own--any mistakes are my 
responsibility.
    I am here today because I believe coming to a consensus on how to 
develop policies that address the challenge of a changing climate is a 
very important discussion for our Nation's leadership to have. Thank 
you for holding this hearing.
    In the Navy we have a saying, to just give me the `Bottom Line Up 
Front' or BLUF. So here's my BLUF for today's hearing:

  <bullet> We know how to do Science: Science is not a simple linear 
        process, performed in an isolated, sterile environment, but 
        rather an iterative process with continual interaction between 
        exploration and discovery, feedback and input from peers, 
        inputs from society, but most importantly, testing ideas, 
        called hypotheses and theories, with evidence. New evidence can 
        change existing ideas. The better ideas fit actual 
        observations, disparate or seemingly unrelated observations or 
        previously unknown observations, the more likely the idea is to 
        be accepted widely by science. Results are provided in many 
        venues, but peer-reviewed journals are especially important. 
        Peer-review does not guarantee the ideas being published are 
        correct, but the process does ensure the work acknowledges 
        previous work in that field, the experiments and methods were 
        well-designed, the evidence cited logically leads to the 
        conclusion. If new evidence becomes available, or subsequent 
        researchers find errors in the methods published, the original 
        ideas are modified. Science is based on the cumulative weight 
        of the evidence available. If initially published contrarian 
        results stand the test of independent confirmation and 
        corroboration, these initially contrarian (or even 
        revolutionary) results become part of the accepted body of 
        science.

  <bullet> The climate is changing more rapidly than has been observed 
        in the past; we understand why that is so, and we understand 
        that those changes will continue, absent meaningful action in 
        reducing Greenhouse Gas emissions: The change in the climate, 
        and therefore the change in the weather, is real. Multiple 
        independent sources of data show a rise in temperatures and 
        rise in the ratio of record high temperatures to record low 
        temperatures; an increase in the intensity of precipitation 
        events--that is, the hardest rains are getting harder; the 
        continued collapse in the area and amount of summer-time sea 
        ice in the Arctic Ocean; an acceleration of sea level rise; 
        acidifying oceans; and ecosystems moving poleward and up in 
        elevation where possible. We understand why the climate is 
        changing, based on science extending back to the mid-19th 
        century. The basic concept of greenhouse gasses trapping heat 
        and keeping the atmosphere warmer than it would be in the 
        absence of these gasses is extremely well understood. This idea 
        explains not only the temperature of the Earth, but the same 
        concept also applies to understanding the temperatures of Venus 
        and Mars.\1\
---------------------------------------------------------------------------
    \1\ MacCracken, M. ``Climate Change in Six Well-Documented 
Findings''. http://www.climate
.org/topics/climate-change/science-in-six-findings.html

  <bullet> We know how to succeed even when the future is not perfectly 
        known: Traditional risk planning takes the chance or 
        probability of an event and multiplies it by the impact. But 
        even when it is difficult to assess the likelihood of a 
        specific event, there are still available methods by which risk 
        planning and mitigation can be accomplished. Our national 
        security teams frequently have to account for these ``deep 
        uncertainties'' and they have a variety of tools to assist 
        them. Rich scenario planning, assumptions-based planning and 
        similar methods can be used with the goal of identifying all 
        plausible vulnerabilities and their subsequent impacts. 
        National Security and strategic military planners have used 
        these tools successfully for decades--we can apply these 
---------------------------------------------------------------------------
        methods and adapt them to the climate change challenge.

    The earth's climate has naturally varied for millions of years 
(Figure 1--From John Englander ``High Tide on Main Street''; it will 
continue to do so for millions more (e.g., . However, humans, primarily 
through the release of greenhouse gases, also have the capability to 
modify the earth's climate in a way that previously could occur only by 
nature. If the climate has always changed in the past and will do so in 
the future, then why do we care? We care because we are forcing a 
change to a system that has been remarkably stable in the past 8-12 
thousand years (Figure 2--From John Englander ``High Tide on Main 
Street''); the time when humans developed agriculture, civilization and 
our modern way of life. It's not that the climate of the past few 
thousand years is optimal per se, but its stability allowed us to base 
a civilization on an overall predictability of where our coasts would 
be, when the rains would come, and the length of the growing seasons. 
Later on we would construct our buildings, towns, and cities all based 
on a historical understanding of the averages and extremes of our 
historical climate. And most importantly, we made a fundamental 
assumption that the future climate would be like the past. That 
assumption no longer holds.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1--From John Englander ``High Tide on Main Street''
    
    
    Figure 2--From John Englander ``High Tide on Main Street''

    Dr. John Holdren, Director of the White House Office of Science and 
Technology Policy, provided extensive written testimony on the subject 
of climate change data and evidence to the U.S. House of 
Representatives Committee on Science, Space and Technology in September 
2014. While I have no ties to the current administration I believe Dr. 
Holdren describes accurately the state of climate science today. The 
following is an extract of his written statement:

        ``There is an immense amount of [climate science] primary, 
        peer-reviewed, published research . . . carried out by a wide 
        variety of competent national and international bodies 
        (including Federal agencies and scientific advisory boards and 
        committees reporting to them). Important examples include the 
        comprehensive reviews by the U.S. National Academies \2\ and 
        the Intergovernmental Panel on Climate Change (IPCC),\3\ the 
        recent joint review by the U.S. National Academy of Sciences 
        and the U.K.'s Royal Society of London,\4\ the Second and Third 
        U.S. National Climate Assessments,\5\ the annual State of the 
        Climate reports of the U.S. National Oceanic and Atmospheric 
        Administration,\6\ the periodic synthesis and assessment 
        reports of the U.S. Global Change Research Program,\7\ and the 
        first Quadrennial Energy Technology Review of the U.S. 
        Department of Energy.\8\ Notably, the U.S. National Climate 
        Assessments, which are required under the Global Change 
        Research Act of 1990, reflect substantial input from the 
        public, outside experts and stakeholders. The most recent such 
        Assessment, which was released in May of 2014, was the result 
        of a three-year analytical effort by a team of over 300 climate 
        scientists and experts, informed by inputs gathered through 
        more than 70 technical workshops and stakeholder listening 
        sessions held across the country. The resulting product was 
        subjected to extensive review by the public and by scientific 
        experts inside and outside of government.
---------------------------------------------------------------------------
    \2\ The National Academies reports on climate change include the 
four-volume set, America's Climate Choices (2010) and a host of other 
reports completed since 2010, all accessible at: http://nas-sites.org/
americasclimatechoices/
    \3\ Intergovernmental Panel on Climate Change (IPCC) 2007 and 2013-
2014 IPCC Fourth and Fifth Assessments, accessible at: http://
www.ipcc.ch/publications_and_data/publications
_and_data_reports.shtml#1
    \4\ Climate Change: Evidence and Causes--An Overview from the Royal 
Society and the U.S. National Academy of Sciences, 2014: http://
dels.nas.edu/resources/static-assets/exec-office-other/climate-change-
full.pdf
    \5\ Global Climate Change Impacts in the United States, 2009: 
http://nca2009.globalchange.gov and Climate Change Impacts in the 
United States, 2014: http://nca2014.globalchange.gov.
    \6\ National Oceanic and Atmospheric Administration (NOAA) State of 
the Climate reports, accessible at: http://www.ncdc.noaa.gov/sotc/
    \7\ http://www.globalchange.gov/browse/reports
    \8\ Department of Energy (DOE) 2011 Quadrennial Technology Review: 
http://energy.gov/sites/prod/files/QTR_report.pdf
---------------------------------------------------------------------------
The Natural Science of Anthropogenic Climate Change
    Decades of observation, monitoring, and analysis have demonstrated 
beyond reasonable doubt that:

  (1)  the Earth's climate is changing at an unusual pace compared to 
        natural changes in climate experienced in the past;

  (2)  emissions of carbon dioxide and other greenhouse gases from 
        human activities, principally the combustion of fossil fuels 
        but also land-use change, are the principal drivers of the 
        recent and ongoing changes in climate;

  (3)  climate change is already causing harm in many parts of the 
        world (and many parts of the United States);

  (4)  this harm will continue to grow for some time to come, because 
        of the time lags and inertia built into the Earth's climate 
        system and the inertia in civilization's energy system (which 
        prevents drastically reducing the offending emissions 
        overnight); but

  (5)  there is a large difference between the amount of additional 
        harm projected to occur in the absence of vigorous remedial 
        action versus that expected if such action is taken promptly.

    The recent measured changes in climate include a multi-decade 
increase in the year-round, global-average air temperature near Earth's 
surface, but they are not limited to that. The changes also include 
increased temperatures in the ocean; increased moisture in the 
atmosphere; increased numbers of extremely hot days; changed patterns 
of rainfall and snowfall; and, in some regions, increases in droughts, 
wildfires, and unusually powerful storms.
    In consequence of the temperature increase, moreover, glaciers are 
melting, the Greenland and Antarctic ice sheets are losing mass, and 
sea level is rising. While the pace of sea-level rise is relatively 
slow--the current rate would produce an increase of about a foot over a 
century--there are three main reasons that the problem should not be 
underestimated:

  (1)  The rate appears to be increasing and is now about twice the 
        average for the 20th century; increases as high as 1 to 2 
        meters (3.3 to 6.6 feet) above the pre-industrial value by 2100 
        cannot be ruled out.\9\
---------------------------------------------------------------------------
    \9\ Note: The highest value cited by the IPCC's 2013 climate-
science synthesis is 1.25 meters, but a December 2012 NOAA report put 
the upper limit at 2 meters (see Parris, A., P. Bromirski, V. Burkett, 
D. Cayan, M. Culver, J. Hall, R. Horton, K. Knuuti, R. Moss, J. 
Obeysekera, A. Sallenger, and J. Weiss. 2012. Global Sea Level Rise 
Scenarios for the U.S. National Climate Assessment. NOAA Tech Memo OAR 
CPO-1: http://cpo.noaa.gov/sites/cpo/Reports/2012/NOAA_SLR_r3.pdf)

  (2)  Even modest amounts of sea-level increase constitute a 
        significant threat to ecosystems and infrastructure in low-
        lying coastal areas, not least because of the amplification of 
        storm surges and increased intrusion of salt water into coastal 
---------------------------------------------------------------------------
        aquifers.

  (3)  The momentum in the processes driving sea-level rise is such 
        that it is expected to continue for centuries even under the 
        most optimistic scenarios for climate-change mitigation; it can 
        be slowed, but it cannot be stopped on any time scale of 
        practical interest.

    The ``fingerprint'' of human responsibility for most of the climate 
change observed over the past few decades is unmistakable: science has 
established persuasively that the atmospheric build-up of the key 
greenhouse gases has resulted from human activities; and the spatial 
and temporal patterns as well as the magnitudes of the observed changes 
in temperature are consistent with what theory and models predict would 
result from that build-up, after allowance is made for the partially 
offsetting effect of increased atmospheric concentrations of reflective 
and cloud-forming particulate matter (also of human origin).
    Civilization's emissions of carbon dioxide, in particular, have led 
not only to a build-up of the stock of this important heat-trapping gas 
in the atmosphere (where it's responsible for close to half of the 
total warming influence of all the heat-trapping substances humans have 
added over time); those emissions have also led to an increase in the 
dissolution of carbon dioxide into the surface layer of the ocean. 
There the dissolved CO<INF>2 </INF>forms carbonic acid 
(H<INF>2</INF>CO<INF>3</INF>) and thus lowers the pH (increases the 
acidity) of ocean waters. This ongoing acidification increasingly puts 
at risk coral reefs and other marine organisms that build their shells 
or skeletons from calcium carbonate (including clams, oysters, and some 
plankton).
    The foregoing conclusions are based on an immense number of 
observations and measurements made by thousands of scientists at both 
governmental and nongovernmental institutions around the world, as well 
as on fundamental understandings about atmospheric physics and 
increasingly sophisticated computer models of ocean-atmosphere-
ecosystem interactions, all recorded in tens of thousands of peer-
reviewed scientific publications. These key findings about climate 
change have been endorsed by every major national academy of sciences 
in the world, including those of [the United Kingdom], China, India, 
Russia, and Brazil as well as that of the United States, and by nearly 
every U.S. scientific professional society, by the World Meteorological 
Organization and the UN's Inter-governmental Panel on Climate Change 
(IPCC), and by the recently released Third U.S. National Climate 
Assessment.''
    (I have attached additional, more technical parts of Dr. Holdren's 
statement providing evidence of changes in our climate in Attachment A, 
submitted with this testimony.)
    I would be remiss if I did not address the so-called `pause' in 
global surface temperatures. Dr. Holdren provides additional details 
(submitted as part of Attachment A). It is easy to find arbitrary 5-15 
year periods when, with careful choosing of the start and stop dates, 
one can claim there has been no change in global temperatures. This 
method of analysis though does not account for the longer-term upward 
trend that persists through the relatively short-term variations. As an 
analog, I drive west on Interstate 70 from Washington DC back to Penn 
State. However, for nearly the first 25 miles in Pennsylvania, I-70 
runs north, or even northeast. But even with that short-term variation 
(to account for the mountains) the road, overall, still takes me from 
east to west. Likewise, due to natural variability, there are short-
term ups and downs in year-to-year temperature. But this structure does 
not remove the long-term, and upward, trend. A recent graphic (Figure 
3) from Dr. Kevin Trenberth of the National Center for Atmospheric 
Research \10\ shows this trend, and also shows how 2015 is very likely 
to be the warmest year recorded in the modern record--and by a 
significant margin.
---------------------------------------------------------------------------
    \10\ http://www.huffingtonpost.com/dr-kevin-e-trenberth/fact-not-
opinion-climate-_b_8703012
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 3--Global Temperature change and CO<INF>2</INF> 
---------------------------------------------------------------------------
concentration

    In summary, a combination of multiple, independent sources of data 
provide the basis to the latest conclusion from the Intergovernmental 
Panel on Climate Change: ``Warming of the climate system is 
unequivocal, and since the 1950s, many of the observed changes are 
unprecedented over decades to millennia. . .Human influence on the 
climate system is clear. This is evident from the increasing greenhouse 
gas concentrations in the atmosphere, positive radiative forcing, 
observed warming, and understanding of the climate system.'' \11\ We 
should not be surprised; these conclusions rest on science discovered 
in the 19th century by Fourier, Tyndall, Arrhenius and their colleagues 
\12\ and validated by many scientists in the subsequent decades.
---------------------------------------------------------------------------
    \11\ Summary for Policy Makers of the Working Group I contribution 
to the IPCC Fifth Assessment Report (2013)
    \12\ http://www.aip.org/history/climate/co2.htm
---------------------------------------------------------------------------
    It is worth noting that private industry independently arrived at 
these same conclusions decades ago. Recently released documents \13\ 
show that in 1980 Exxon researchers projected the impacts on global 
temperature due to increasing greenhouse gasses with astonishing 
accuracy (e.g., Figure 4). Again, the basis of the science of climate 
change is exceptionally well-understood and can be--and has been--
applied by many researchers inside and outside the government.
---------------------------------------------------------------------------
    \13\ http://insideclimatenews.org/news/01122015/documents-exxons-
early-co2-position-senior-executives-engage-and-warming-forecast
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Figure 4--Exxon Projection of global temperatures

    So what should we do? I recommend we take a risk-management 
approach, similar to how the CNA Military Advisory Board (MAB) has done 
in their most recent report on the risks of climate change to 
security.\14\ Although most of the CNA MAB members are not scientists, 
their positions as former senior three-and four-star leaders in the 
United States Military trained them to seek and assess technical advice 
from many different fields of expertise. They have accepted the 
overwhelming evidence of the mainstream, international science 
community, and understand that if significant new and compelling 
evidence is discovered, the conclusions may need to be adjusted 
accordingly. Climate risks and security risks share another trait in 
common: ``The worst matters much more than the bad'' \15\. In other 
words: What are the near-term and future risks to our way of life--and 
what policies and structures should we put in place to manage and 
mitigate those risks?
---------------------------------------------------------------------------
    \14\ ``National Security and the Accelerating Risks of Climate 
Change.'', CNA Corporation, May 2014. https://www.cna.org/cna_files/
pdf/MAB_5-8-14.pdf
    \15\ Burroughs, William ``Climate Change in Prehistory: The End of 
the Reign of Chaos'', Cambridge University Press, 2005
---------------------------------------------------------------------------
    How might we meet this challenge? One way might be to start with 
these four recommendations, consistent in broad goals with the 
President's Climate Action Plan \16\:
---------------------------------------------------------------------------
    \16\ http://www.whitehouse.gov/sites/default/files/image/
president27sclimateactionplan.pdf

  <bullet> Set up and support a monitoring system that will allow the 
        U.S. and the world to detect and assess changes to future 
        climate. Assign specific responsibilities. Many National 
        Academies of Science (NAS) reports have called for such a 
        monitoring system. As a recent example, the NAS `Abrupt Climate 
---------------------------------------------------------------------------
        Changes' report calls for such a monitoring system.

  <bullet> Adjust policies today for what we know--and for what we 
        might reasonably expect in the coming decades. Ensure we do not 
        simply plan for the best case or even the most likely, but also 
        consider seriously the most damaging and harmful scenarios 
        (think `Katrina' and `Sandy'). We learned in the military a 
        long time ago that hope by itself is rarely a good strategy.

  <bullet> Invest in better understanding--and ultimately prediction--
        at the boundary between weather and climate. While 
        scientifically this is very challenging, it is also very 
        important for people and a myriad of decisions. From a 
        security, economic, agricultural, infrastructure and policy 
        perspective, greater climate knowledge of the next few seasons 
        to the next decade or two would be extremely useful. While we 
        should not use today's uncertainty as an excuse to defer 
        action, better understanding of the climate over the next 2-20 
        years would be very useful in allocating scarce resources. The 
        Department of the Navy is funding today the `Earth System 
        Prediction Capability' or ESPC--an interagency program designed 
        to provide our country the next-generation of integrated air-
        ocean-ice-land prediction system.\17\ Navy is working with 
        other components of the DoD, as well as NOAA, NASA and the 
        Department of Energy to ensure our Nation has the world's best 
        operational weather and climate prediction tools at our 
        disposal. This national imperative must be a national priority.
---------------------------------------------------------------------------
    \17\ http://espc.oar.noaa.gov/

  <bullet> As we work on adapting to our changing climate we should not 
        lose sight of the big picture: how to move the world's energy 
        system to a predominantly non-carbon based energy source to 
        power the world. How can we unleash the innovation and energy 
        that makes our country great to solve one of the grand 
        challenges of the 21st Century? The United States has responded 
        to grand challenges of the past, in part by investing for the 
        future. As seen in Figure 5, we responded to President 
        Kennedy's call to go to the moon and President Nixon's response 
        to the 1973 Arab Oil Embargo. To date though, there has been no 
        serious response to the need to transforming our energy system. 
        We are the country that is developing a self-driving car and 
        whose private companies can send satellites to geosynchronous 
        orbit. With the right policies and encouragement from the 
        Federal Government I am sure our private sector can develop--
        and profit from--energy solutions that will power the world in 
---------------------------------------------------------------------------
        a sustainable fashion into the future.

    In closing, our country is dealing with a significant change in the 
world's climate; it is a very serious challenge and if we do not manage 
this risk climate change, unchecked, will make many of our existing 
threats worse. But our country has met challenges of this magnitude 
before and succeeded--and we will do so again. While we don't know 
everything--and we never will--we do know more than enough to act now. 
By focusing our efforts in a risk-based framework on meeting the 
climate challenge, we can prepare for the short-term while shaping our 
longer-term future. We can provide the policies, stability and guidance 
our country needs to unleash our country's energy, creativity and 
initiative. I am convinced we will be proud and amazed at what we can 
accomplish.
    Thank you very much for your time and attention; I look forward to 
taking your questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 5--Non-Defense U.S. R&D 1953-2015
                              Attachment A
    Additional excerpts from Dr. John Holdren's (Director, Office of 
Science and Technology Policy, Executive Office of the President of the 
United States) written statement to the U.S. House of Representatives 
Committee on Science, Space, and Technology, given 17 September 2014
Elaboration on the human drivers of global climate change
    Scientists have developed good estimates of the magnitudes of both 
human-caused and natural influences on the global climate (called 
``forcings'' in climate science) since the start of the Industrial 
Revolution around 1750. The results show that the human influences in 
this period have far outweighed the natural forcings, as well as 
internal variability of the climate system. The 2013 IPCC report found, 
specifically, that the positive forcing (warming influence) 
attributable to human-caused emissions over the period 1750-2011 was 
about 80 times as large as the positive forcing from changes in solar 
irradiance (the largest natural influence) over that period. Studies 
going back 20 years and more show that increases in globally-averaged 
temperatures over the last several decades have been too rapid and too 
sustained to be a result of internal climate variability.
    Carbon dioxide (CO<INF>2</INF>) is the most important greenhouse 
gas emitted by humans. Emissions of CO<INF>2 </INF>between 1750 and 
2011 accounted for 42 percent of the total positive forcings resulting 
from all human emissions over this period; and current 
CO<INF>2 </INF>emissions are responsible for around 75 percent of the 
century-scale Global Warming Potential (GWP) of all current human 
emissions of heat-trapping substances.\18\
---------------------------------------------------------------------------
    \18\ Note: The GWP of an initial emissions pulse of a greenhouse 
gas is calculated by summing its warming effects over a specified 
number of years into the future. Because different greenhouse gases 
have different lifetimes in the atmosphere, the relative importance of 
their respective emissions at a given time--as measured by GWP--depends 
on the length of time chosen for those sums. One hundred years is a 
common choice. Note also that the IPCC's new approach to allocating the 
responsibility for forcing (as of the 2013-14 assessment) is based on 
the contribution of emissions of the heat-trapping substances and their 
precursors between 1750 and 2011, not on the changes in concentrations 
of the heat-trapping substances as was the approach in the IPCC's 
previous assessments. The two approaches to allocation give somewhat 
different numbers because emissions of some substances affect not only 
their own concentrations but also the concentrations of others.
---------------------------------------------------------------------------
    In 2012, about 90 percent of global anthropogenic 
CO<INF>2 </INF>emissions came from fossil-fuel combustion and cement 
production (40 percent coal, 30 percent oil, 16 percent natural gas, 4 
percent cement) and 10 percent from deforestation and other land-use 
change. Of the ``industrial'' (fossil fuel and cement) emissions in 
that year, China accounted for about 29 percent, the United States for 
about 15 percent, the 27 countries of the European Union for about 11 
percent, India for about 6 percent, Russia for about 5 percent, and 
Japan for about 4 percent. These relatively few countries alone, then, 
accounted for about 70 percent of global industrial 
CO<INF>2 </INF>emissions in 2012.
    The second most important greenhouse gas emitted by humans is 
methane (CH<INF>4</INF>). It has a far shorter atmospheric lifetime 
than that of carbon dioxide, but methane emissions between 1750 and 
2011 nonetheless accounted for about 24 percent of the total positive 
forcings resulting from all human emissions over this period. Part of 
this contribution is because chemical reactions involving 
CH<INF>4 </INF>lead to increases in tropospheric ozone and 
stratospheric water vapor. The activities responsible for 
civilization's methane emissions are, approximately: fossil-fuel 
production, processing and transport, 30 percent; animal husbandry, 27 
percent; waste management, 23 percent; rice cultivation, 10 percent; 
and biomass burning, 10 percent.\12\
    Emissions of halogen gases (leaked from a variety of commercial 
products and industrial uses) accounted for another 9 percent of the 
total positive forcing as of 2011, compared to 1750, but about 40 
percent of the positive forcing from the halogen gases was cancelled 
out by the reduction in the stratospheric concentration of ozone caused 
by their emissions. Emissions of nitrous oxide (from combustion and 
fertilizer use) contributed about 4 percent of the total positive 
forcing up to 2011.
    The other major contributor to positive forcing since the beginning 
of the Industrial Revolution is not a greenhouse gas at all but ``black 
carbon''--heat-absorbing particles emitted primarily by biomass burning 
and by many two-stroke and diesel engines. Although the atmospheric 
lifetime of these particles is only days to weeks, their emissions had 
contributed about 16 percent of all positive forcing as of 2011, 
compared to 1750.
    The positive forcings from the sources just mentioned are currently 
being partially offset by negative forcing that comes from reflective 
and cloud-forming particles that also have increased in concentration 
in the industrial era. The main sources of these particles are certain 
oxides of sulfur and nitrogen emitted by fuel combustion. There are 
strong incentives to reduce those emissions for reasons of public 
health and the protection of ecosystems from acid precipitation, 
however, and when this happen the resulting reduction of negative 
forcing by the associated reflective and cloud-forming particles will 
``unmask'' some of the warming that currently is being offset.
Elaboration on the ``hiatus'' in global warming
    A number of climate-change contrarians have been propagating the 
claim that there has been no global warming since 1998. This is not 
correct.
    Although the rate of increase in the globally and annually averaged 
temperature of the atmosphere near the surface has slowed since around 
2000 \19\ compared to the rate of increase over the preceding three 
decades, near-surface warming of the atmosphere has indeed continued. 
The 2000s were warmer than the 1990s, and the 2010s so far have been 
warmer than the 2000s.
---------------------------------------------------------------------------
    \19\ Note: The one year in the top 14 that occurred prior to 2000 
was 1998. It was the third or fourth warmest year since 1880 as a 
result of an unusually powerful El Nino, which boosted the global-
average surface temperature well above the trend line. The recent rate 
of temperature increase can be made to look smaller by ``cherry-
picking'' the 1998 spike as the new start date for one's trend line, as 
a number of contrarians have done to bolster their claim that global 
warming has stopped.
---------------------------------------------------------------------------
    Thirteen of the 14 warmest years since decent thermometer records 
became available (around 1880) have occurred since 2000. During the 
recent period in which the rate of increase of the average surface air 
temperature has slowed, moreover, other indicators of a warming 
planet--shrinkage of Arctic sea ice and mountain glaciers, increased 
discharges from the Greenland and Antarctic ice sheets, increased ocean 
temperatures, and sea-level rise--have been proceeding at or above the 
rates that characterized the preceding decades.
    The long-term warming trend resulting from the build-up of heat-
trapping gases and particles in the atmosphere is superimposed on a 
considerable amount of variability--year-to-year and decade-to-decade 
ups and downs in the global-average atmospheric temperature resulting 
from variations in solar output, in volcanic activity that injects 
reflecting particles into the strato-sphere, and in ocean circulation 
patterns that govern how much of the trapped heat goes into the oceans 
as opposed to staying in the atmosphere. Scientists therefore do not 
expect the rate of atmospheric warming, which results from the 
combination of human and natural influences, to be uniform from year to 
year and decade to decade. Climate models show short periods of slow 
warming and even cooling within long-term warming epochs, much as we 
see recently in observations.
    The reduced rate of warming since around 2000 is thought to be the 
result of a partial offsetting, by a combination of natural factors 
that tended to cool the atmosphere in this period, of the warming 
influence of the continuing greenhouse-gas build-up. An increase in 
emissions of sunlight-reflecting particles from an increase in global 
coal use may also have contributed. Among the natural factors thought 
to be involved, oceans are likely to have played a major role in 
slowing atmospheric warming in this period. The oceans normally take up 
more than 90 percent of the excess heat trapped by anthropogenic 
greenhouse gases; thus, a small percentage increase in what goes into 
the ocean can take a large share away from what otherwise would have 
gone into the atmosphere.
    When the variability that has lately slowed surface-atmosphere 
temperature trends next shifts to contributing warming, of course, it 
will then reinforce rather than offset the warming influence of the 
build-up of greenhouse gases. The rate of increase of the global-
average surface temperature will then rebound, becoming more rapid, 
rather than less rapid, than the long-term average.
    It is not clear, finally, that all of what has long been called 
``natural variability'' is completely free of human influences. It's 
known that the geographic unevenness of anthropogenic global warming 
(amplified in the Northern Hemisphere by the shrinkage of Arctic sea 
ice, among other factors), affects atmospheric and oceanic circulation 
patterns. There is considerable evidence that the El Nino/La Nina 
cycle, as well as other patterns that affect how much trapped heat ends 
up in the oceans rather than in the atmosphere, are being influenced to 
some extent by anthropogenic global warming.
    It has been suggested that the slow rate of recent warming calls 
into question our understanding of the importance of CO<INF>2 </INF>in 
determining Earth's climate. There is no reason to believe this. Short 
periods of slow warming and even cooling amidst longer warming epochs 
are expected and are seen in instrumental records, geologic temperature 
reconstructions, and in climate-model output. Internal redistributions 
of energy (as are suspected to be responsible for most of the recent 
slowdown in atmospheric warming) in no way conflict with our 
understanding of CO<INF>2 </INF>as a dominant driver of long-term 
changes in Earth's climate.

    Senator Cruz. Thank you, Dr. Titley. And thank you to each 
of the witnesses for testifying.
    Dr. Happer, I want to start with you, and I want to just 
make sure I understood your testimony correctly. As I 
understood what you told this committee, you had a series of 
facts. That CO<INF>2</INF> is not a pollutant. That 
CO<INF>2</INF> is good for the planet. That CO<INF>2</INF> is 
good for plant life in particular. That the world right now is 
currently greening. And that for much of our history, there has 
been substantially more CO<INF>2</INF> in the atmosphere than 
there is right now.
    Am I correct in understanding each of those facts?
    Dr. Happer. That is completely correct. But by history, I 
mean for since the last 500 million years, you know, since the 
Cambrian.
    Senator Cruz. And I would note that the history with 
markedly more CO<INF>2</INF> predated the Industrial 
Revolution. So it didn't come from automobiles or the burning 
of carbon fuels. Is that correct?
    Dr. Happer. That is correct.
    Senator Cruz. OK. So those are facts we are beginning with. 
I would note those facts are directly contrary to what the 
global warming alarmists tell us day in and day out and to what 
the media, which echoes their concerns, say day in and day out.
    I want to pull up charts number 1 and number 2. I guess the 
bias on the charts of the computer models is causing the chart 
to fall over.
    [Laughter.]
    Senator Cruz. So, Dr. Christy, this first chart here, the 
bright red line, do I understand it correctly that the bright 
red line is what the computer models--and this is an average of 
quite a many--quite a significant number of computer models, 
what the computer models said should be happening with our 
temperature, that we should see warming spiking like crazy. Is 
that correct?
    Dr. Christy. Yes, and that is the bulk atmosphere, where 
the biggest signal of greenhouse warming is supposed to be 
seen. So that is precisely where you want to measure it.
    Senator Cruz. So we see the computer models, and if that 
were fact, we might have something to talk about. But the 
bottom line there, the blue and green, those are the actual 
measurements of what is, in fact, happening in the atmosphere. 
Is that correct, Dr. Christy?
    Dr. Christy. Yes, and I think the nice thing about that 
chart is there are seven different datasets involved in that 
observations there, not just one.
    Senator Cruz. So when you compare alarmist theories, the 
red line, to actual facts, the blue and green dots, you see 
that the facts don't back up the theories. And we are being 
asked as a Congress to act and impose trillions of dollars of 
cost on humanity because of the red-line theory that is not 
backed up by the facts. Is that correct?
    Dr. Christy. I think so. In fact, going along with your 
hearing, you might want to say dogma is the red line. Data is 
the blue and the green.
    Senator Cruz. I think that is very well said. I would note 
this chart on the right, which shows for the last 18 years that 
there has been no significant warming whatsoever. Now that is 
directly contrary to what the dataset showed.
    Now, Dr. Titley, I noticed in your written testimony that 
you took a moment to address what you described as the so-
called ``pause'' in global temperatures. By the pause, are you 
referring to the last 18 years of no significant recorded 
warming?
    Admiral Titley. Well, unlike your previous witness, I am 
not referring to the 1940s. It is--I thought you would like 
that.
    Senator Cruz. Indeed.
    Admiral Titley. Yes. The pause is very interesting. As you 
know, sir, 1998, big El Nino. So it is kind of interesting we 
start at 18 years. We don't look at a 15-year dataset or a 10-
year dataset or a 20-year dataset. We look at an 18-year 
dataset.
    But even if you do that, that is fine. Let us look at that. 
We have--this is low budget here. I have got to do my own 
charts.
    [Laughter.]
    Admiral Titley. Thanks, Amanda.
    Senator Cruz. Well, let me take a moment on----
    Admiral Titley. So here, sir, just to answer your question, 
Senator. Here was 1998, and here is today.
    So, on me, I mean, I am just a simple sailor. But it is 
hard for me to see the pause on that chart. So I think the 
pause has kind of come and gone.
    Senator Cruz. Do you dispute the satellite measurement?
    Admiral Titley. Let us not talk about the satellite. Here 
is----
    Senator Cruz. But, sir--sir, I am asking, do you--I 
understand that the global warming alarmists don't want to talk 
about the satellite data, but I am asking----
    Admiral Titley. OK, sure. I will talk about the satellite. 
Let us talk about the satellite measurements. Let us talk about 
orbital decay. Let us talk about overlapping satellite records. 
Let us talk about stratospheric temperature contamination.
    I think Dr. Christy and Dr. Spencer, when they put this 
out, they had been wrong I think at least four consecutive 
times. Each time the data record has had to be adjusted 
upwards. There have been several sine errors.
    So when--with all due respect, sir, I don't know which data 
exactly your staff has, whether it is the first or second or 
third or fourth correction to Dr. Christy's data. We used to 
have a negative trend, then we had no trend, and now we 
begrudgingly have an upward trend.
    So looking at those data, you know, it is OK. But here is 
where we live----
    Senator Cruz. Let me see if--let me see if I can 
understand. The first argument you gave in response to this, 
and it is an argument that a number of the global warming 
alarmists use is they say, well, 18 years ago was El Nino, and 
it is arbitrary to begin there. And I will confess I don't 
understand that argument because we have 18 years of no 
significant warming. So if you don't like an 18-year window, we 
can start in 1999. There is no significant warming for 17 
years.
    If you don't like a 17-year window, we can start in 2000. 
Then we don't have a significant warming. It is true for any 
date across those 18 years. So I fail to see the significance--
--
    Admiral Titley. Actually, Senator, it is not. If you take 
off that top really big spike and you take that out, you start 
getting the upward bias, and this is what people do when you 
start looking at these relatively arbitrary times is you start 
with a really high number at the left-hand side, and that kind 
of influences basically your linear trend.
    So when you start looking at things like every decade, you 
have an upward trend in the data, and that is from the World 
Meteorological Organization.
    Senator Cruz. And I would note you asked about the source 
of the data on the right chart. It is actually not Dr. 
Christy's data. It is the Remote Sensing Systems, the RSS data 
that is up there.
    At this point, my time has expired. But we are going to 
have another round.
    Admiral Titley. Thank you, sir.
    Senator Cruz. And we will return to questions on these 
topics.
    Senator Peters?
    Senator Peters. Thank you, and again, thank you to our 
panelists for your testimony here today.
    Now it was interesting as I heard the testimony from folks 
and some of the comments that were being made, that this is the 
so-called consensus of climate change and warming. I heard one 
of the panelists say the argument is so weak that it can't 
stand up to any other scrutiny.
    As I look at the facts, I don't understand where those--
where those comments are coming from. My understanding is 
that--and this is in a number of peer-reviewed journals that 
have looked at where scientists are, particularly those who are 
climate scientists--roughly 97 percent of those folks in the 
profession believe that the climate is, indeed, changing and 
that humans had a significant aspect to it.
    But it is not just in the scientific community. We have 
got, in fact, just recently a letter of 150 of the leading 
companies in this country who are having to make business 
decisions and are concerned about changing climate. Companies 
important to me in Michigan like General Motors and Kellogg, 
but also Coca-Cola, Walmart, UPS. It is a list of the ``who's 
who'' of companies in this country who believe this is a 
concern.
    We have some of my colleagues who are in Paris. Nearly 190 
countries have come together, realizing this is something that 
we have to deal with. So, and we hear those numbers, that seems 
like there is overwhelming amount of scientific support.
    That is not to discredit the folks who are testifying here. 
Certainly your view is important, and we need to hear that. And 
I think, as, Dr. Titley, you mentioned, nothing is ever 100 
percent. And I want to pick up on that, and you mentioned it 
briefly in your comments as well, particularly as someone who 
is an admiral in the Navy and as a military person.
    We expect our Department of Defense to evaluate potential 
threats that we face to our national security, threats that we 
face as a country. If we are in--if we have to go to war, our 
commanders have to make constant assessments of threats, and 
they rely on the intelligence community to give them data 
before they commit men and women into harm's way. People's 
lives could be at stake.
    These are huge decisions, serious decisions, ones that I 
know commanders agonize about. But they know if they make the 
wrong decision, the consequences could be even more 
significant.
    So, and I spent some time in the Navy as well, and I don't 
know that an intelligence report will ever give you 100 percent 
certainty. In fact, they will give you all sorts of caveats in 
providing any kind of intelligence assessment.
    So speaking as a man from the military, if you are an 
operational commander and someone said we can give you 97 
percent confidence, but not 100, is that going to be enough? 
And really, what is--speak to what sort of certainty you are 
going to need.
    Admiral Titley. Senator, thanks for the question, sir.
    If somebody could tell me with 97 percent certainty what is 
going to happen on the battle space or in the operating 
environment, I mean, you would take that in a heartbeat. Our 
intelligence community does wonders. They have been supported 
by the Congress, supported by the administration, tremendous 
hard-working men and women.
    But if the intelligence community could tell you as much as 
the climate community could about the state of the world 50 
years from now, we would find General Clapper, whatever he is 
doing today, stop him. Fly him to the White House and give him 
the Presidential Medal of Freedom this afternoon because that 
would be just an outstanding feat.
    Now this is not a knock on the intelligence community. They 
are dealing with people. They are trying to deal with people 
who deceive us. We are just dealing with physics. The physics 
isn't trying to deceive anyone, and we understand the basic 
theory.
    We certainly don't understand everything, and we certainly 
do understand that there are short- and medium-term variations, 
ups and downs, some of which we do pretty well on, others not 
so much. That is why we need research. That is why we need 
better observations.
    But the degree of certainty that you ask for, sir, we--we 
would love to have that for operational commanders making 
military decisions.
    Senator Peters. And certainly that is in weather decisions. 
You are a part of the meteorologic or for part of meteorology 
with the Navy. As a meteorologist, what level of certainty on 
weather forecasts is acceptable to mission commanders who make 
operational decisions? Obviously, they don't go into battle 
without checking with you and other meteorologists.
    Admiral Titley. Yes, sir. Usually they would say, ``Shut 
up, Titley. Don't give me that weather stuff. Just tell me what 
is going to happen.''
    So what they are looking for--but they do understand risk. 
In all seriousness, people do understand risk. Sometimes 
weather forecasts are taken to the bank. It is going to start 
snowing at whatever time.
    Other times, like hit-and-miss showers, like the Ranking 
Member, you know, in Florida, trying to figure out where that 
thunderstorm is and is not is pretty tricky. But you can 
communicate that in terms of risk, in terms of probabilities, 
and that is really when you extend into climate. This is all we 
are doing.
    I think anybody who says, you know, you have 100 percent of 
whatever, you probably don't. But if you start having 
significant numbers and you look at the impacts, I mean, that 
is the other part of risk is what is the impact if you are 
wrong? You know, and then how do you buy that down? How do you 
manage that risk so that it becomes acceptable? And that is 
what we are trying to do.
    Senator Peters. And that is the thing is the risk that 
could be potentially catastrophic or go anywhere from bad to 
catastrophic. But you mentioned and I mentioned the short-term 
weather effects. If you would just briefly--or my time is about 
up, but briefly, there is a difference between weather events 
and climate. And I think that is oftentimes confusing to folks. 
It is to me.
    Could you elaborate why short-term weather events, we 
shouldn't spend too much time focusing on those and instead 
need to be looking at the long-term impact of climate change?
    Admiral Titley. Yes, sir. I mean, I often tell people you 
live in weather and you plan for climate. Climate is simply 
this amalgamation or it is put together in space and time, over 
decades over large regions. Those are the trends. That is 
climate, up, down, whatever it is.
    Weather is day-to-day, you know, and even out to a week, 2 
weeks, 3 weeks. And then in between is where it gets 
interesting, and you know, when we talk about 18 years, this is 
an interesting time. You have some ocean pieces, but also 
climate. And you get these--get these interactions here, and 
this is the interesting time.
    Long-term, though, we know where the climate is going.
    Senator Peters. Thank you, sir.
    Admiral Titley. Thanks.
    Senator Cruz. Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. Thank you for 
holding this hearing today.
    Ranking Members Peters, Nelson, thank you.
    I do not have a Nobel Prize, just for the record to be 
clear. I do have a degree in chemical engineering. I am the 
only chemical engineer on the Hill. So I very much appreciate 
and I like being on this science kind of debate and on this 
committee.
    My home state of Montana is well known for its beautiful 
landscapes, pristine environment, and clearly, we have a moral 
responsibility to be good stewards of that environment. But 
Montana families also rely on our natural resources. We are 
called the Treasure State for a reason. And it is not because 
of elk antler furniture and huckleberry jam, as much as we 
enjoy those things. We are called the Treasure State because of 
our natural resources, which includes coal.
    These are good-paying jobs, that coal creates. It is 
reliable, affordable energy. And I believe Montanans and most 
Americans believe we can achieve a balanced approach of 
protecting our environment, as well as ensuring we have 
affordable energy.
    I can tell you there is a lot of concern about the 
regulations that are coming out of the debates like we are 
having here today and the magnitude of the devastating impacts 
on families. The University of Montana, which is not a 
conservative think tank--my dad is a proud graduate of the 
University of Montana. But I will tell you they just published 
a study on the Clean Power Plan, which probably should be 
called the unaffordable energy plan.
    And that study stated that the Clean Power Plan could 
potentially be the largest economic event to occur in Montana 
in more than 30 years. Here is what the study said, coming out 
of the EPA's Clean Power Plan.
    It will cost us 7,000 jobs, $500 million a year in annual 
income, and the loss of $145 million in state tax revenues for 
our schools and for our teachers. Two weeks ago, I held a 
telephone town hall. We had thousands of Montanans 
participating with concerns about these regulations.
    What do we do? What do we tell the boilermaker union 
workers back in Montana who will lose their jobs? What do we 
tell senior citizens and the working poor who are on fixed 
incomes and looking at significant and huge increases in energy 
costs as a result of these regulations from Washington, D.C.?
    Let us remember the facts and the data. The United States 
consumes 10 percent of the coal in the world, 10 percent. Said 
another way, 90 percent is consumed outside of our country. In 
Montana, 51 percent of our electricity comes from coal.
    I love Tesla automobiles. I have a friend who has a Tesla. 
It is great to see him plug that into the charging station 
there in Bozeman. But the reality is in the back of that Tesla, 
let us just say this Tesla is powered by coal. That is where 
the electricity is coming from to power that Tesla.
    But you think about the United States, about 40 percent of 
our electricity comes from coal. Look at the numbers--27 
percent from natural gas, 19 percent nuclear, 6 percent hydro, 
4 percent wind, and 0.4 percent solar.
    Now with that as background, as we think about the global 
challenges that we face as we look at carbon and so forth, with 
10 percent coming from the United States and 90 percent 
outside, we ought to be making sure this is a global 
conversation and not unilaterally disarming our economy through 
these regulations coming out of Washington, D.C.
    China is building a new coal-fired plant every 10 days. 
Japan--I used to have an office in Tokyo. I had a private 
sector job for 28 years before I came to Congress a few years 
ago. I had an office in Tokyo. Japan is building 43 coal-fired 
plants as we speak, looking to the future.
    And yet these regulations, coming out of the EPA, are going 
to absolutely kill our economy and kill our natural resources 
industry.
    Dr. Christy, in your testimony, you mentioned the 
importance of affordable and accessible energy and the 
importance to human health and welfare. I remind everybody in 
this room that over 1.3 billion people in the world today do 
not have access to electricity. What impact will the Clean 
Power Plan have on greenhouse gases, and what impact will it 
have on the well-being of families?
    Dr. Christy. First of all, I lived in Africa, and I can 
assure you that without energy, life is brutal and short. The 
effect that these regulations will have will be negligible on 
both the carbon dioxide concentrations in the atmosphere and on 
whatever the climate might do as a result. And we calculated 
many scenarios in that regard.
    Senator Daines. And so if it is negligible, negligible--now 
we can quantify the impact on tax revenues, on jobs, on energy 
prices and what that means for, as you said, a negligible 
impact, and we have heard similar kinds of conversations and 
comments actually from the EPA on that very point. Do you 
realize China--and the New York Times was reporting here just a 
month ago that China has been underreporting their emissions by 
a quantity equivalent to 70 percent of the total U.S. 
emissions. That is what their underreporting has been.
    Should we consider such costly remedies as what is going on 
right now with this Clean Power Plan for merely symbolic 
changes?
    Dr. Christy. Well, if you are asking a State climatologist 
who deals with economic development of poor State, basically, I 
would say no. There is no consequence that is positive that I 
see in regulating the energy in this way.
    Senator Daines. Dr. Curry, in your testimony, you explain 
how funding motivates research. The Clean Power Plan not only 
harms workers, but it stifles investments that could lead to 
innovation and make coal cleaner. I would hope that the U.S. 
would be leaders in innovation. Because as we lead in 
innovation and cleaner technologies, we can not only lead our 
country, we can lead the world as we look at the environment 
here.
    What can be done, in your opinion, to incentivize objective 
research that can make affordable energy sustainable?
    Dr. Curry. Well, that is a topic--I mean, I applaud the 
goal that you state. We need to--we need more research and 
development on advanced energy technologies. How to effect 
that, private sector-Government, you know, is a challenge for 
politicians. I don't have any particular insight as a scientist 
as to how that might work.
    But in terms of having--you have to allow people to have 
opportunity to fail. And if you are going to look for blue sky 
technologies and something really innovative, you have to have 
a mechanism that allows people to fail. You need maybe three 
good ideas, and this may mean, you know, 50 or 100 of them have 
to be tried before you find a few good ones that are going to 
work.
    And so pretending that wind energy and at least the current 
solar technology are going to solve the problems is fairly 
ludicrous.
    Senator Daines. Thank you, Mr. Chairman. I am out of time.
    Senator Cruz. Thank you, Senator Daines.
    Senator Nelson?
    Senator Nelson. Could you call on Senator Schatz? He has 
got a meeting to go to.
    Senator Cruz. Sure. Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you, Ranking Members Nelson and Peters.
    Thank you for having this hearing. It gives us an 
opportunity to clarify that climate change is real, it is 
caused by humans, and it is solvable. And only in the four 
corners of the United States Capitol is that still being 
debated.
    It is ironic that we are holding this hearing in the 
Committee with jurisdiction over science because this committee 
is turning its back on the real science. Now I suppose that it 
is possible that what the four people on the left-hand side of 
this dais are saying is true, which is that basically everybody 
else is wrong, that everybody else is wrong.
    But I think it is more likely that 97 percent of the 
scientists have come independently to the same conclusion. 
Scientists should and do receive Federal research dollars based 
on the merit of their work, not on their conclusions. The only 
reason that so few climate deniers or skeptics, whichever you 
prefer, as a percentage of the whole receive Federal support 
for their research is because the vast majority of scientists 
independently come to the same conclusions that the climate is 
changing due to human activity.
    A review of nearly 12,000 peer-reviewed journal articles 
over 20 years found that 97 percent of those articles and 98 
percent of scientists agree that humans are influencing the 
climate. The vast majority of climate scientists around the 
world will tell you that greenhouse gas emissions, primarily 
from the burning of fossil fuels, have increased the 
concentration of carbon in the atmosphere, which, in turn, has 
raised average global temperatures.
    Now I suppose everybody could be wrong. In fact, the 
American Academy for the Advancement of Science has said the 
science linking human activities to climate change is analogous 
to the science linking smoking to lung and cardiovascular 
diseases. There may be a doctor out there who doesn't believe 
there is a connection between smoking and lung cancer, but I 
would keep that doctor away from me and my family.
    Just as there is no genuine scientific debate over whether 
we are responsible for changing the climate, there is also no 
global conspiracy to manufacture data. The skeptics do not know 
more than the National Academies of Science, NASA, the DOD, the 
CIA, the American Chemical Society, the American Physical 
Society, the American Medical Association, the American 
Geophysical Union, the American Meteorological Society, the 
American Society of Plant Biologists, and the National 
Academies of Science from 80 countries, the World Health 
Organization, NATO, and a litany of other organizations.
    I, for one, believe that the Department of Defense has to 
contend with what is, not with how we view--how we wish things 
would be. And my question is for Admiral Titley.
    Could you please describe the relationship between 
CO<INF>2</INF> and the atmosphere and global temperature?
    Admiral Titley. Senator, thank you for the question, sir.
    I give some talks to the public on this, and basically, 
what I tell people is what you have asked me is cutting-edge 
19th century science here. A bunch of old dead white guys 
figured this stuff out, starting with Fourier, Arrhenius, 
Tyndall. By the time you get to 1896, we were actually doing 
calculations of global warming. Now it was with stubby pencil 
and paper, but we actually kind of figured it out.
    So in, you know, basic terms, energy comes in at one 
wavelength. Energy comes back out through the atmosphere at a 
different wavelength. The carbon dioxide and other greenhouse 
gases actually re-radiate that longer wavelength. The short 
stuff comes in from the Sun. The long stuff gets basically 
bounced around, reabsorbed, readmitted, and that is really good 
for us.
    If we did not have greenhouse gases, we wouldn't all be 
here because we would be living on an ice cube. It would be 
about 59 degrees Fahrenheit colder than it is right now. So 
greenhouse gases provide life on Earth.
    But there can be too much of a good thing, and we have 
literally formed human civilization in a period of wonderful 
climate stability, where we have not been varying either the 
greenhouse gases or much of the other part of the atmosphere. 
So we have had this stability.
    Now as we inject a whole lot of extra greenhouse gases, 
they are just doing what physics does. So they are re-
radiating, warming the atmosphere, as you talked about, sir.
    Senator Schatz. And tell me about the observations on page 
3 of your testimony. It seems to me that there is a nearly one-
to-one relationship between global temperatures, 
CO<INF>2</INF>, fossil fuel consumption, and sea level and 
ocean temperature. Is that about right?
    Admiral Titley. Yes, sir. Everybody here at this table 
knows that correlation doesn't necessarily mean causality, but 
there has been a lot of work shown----
    Senator Schatz. How would you establish causality in an 
experiment involving our planet?
    Admiral Titley. We only have one planet. That makes it kind 
of tough to run the control case, if you will. So this is what 
the computer models help you with.
    Senator Schatz. Thank you.
    Admiral Titley. But we only have one planet. Thank you, 
sir.
    Senator Schatz. Thank you very much.
    Mr. Steyn. Senator Schatz, could I comment on that? You 
said that the four people----
    Senator Schatz. Mr. Chairman, I do have a meeting at 4:30 
p.m., and I did not ask a question of Mr. Steyn. I apologize. I 
do have to go.
    Thank you.
    Mr. Steyn. Well, I would like to make a comment on what 
he----
    Senator Cruz. You are welcome to give a response, sure.
    Mr. Steyn. I would like to make a comment on what he said 
because he said these people represent a tiny minority point of 
view. The 97 percent consensus from these papers does not argue 
for the kind of measures that are being discussed here today.
    We are talking about the greatest--just to take the pro-
climate people at their word, we are talking about the greatest 
shift in the global economy that has ever been contemplated. We 
hear a lot of talk about risk management. This is a hell of a 
risk. And it requires--if we are to take these pro-climate 
people at their word, it would require the greatest societal 
consensus--left, right, and center--across North America, 
Europe, and the developing world.
    So to exclude, if you exclude Professor Christy, if you 
exclude Professor Curry, if you exclude Professor Happer, if 
you exclude the French weatherman who basically just lost his 
job for writing a book countering climate change, if you refuse 
Professor Lennart Bengtsson, whose career was destroyed because 
he wanted to meet with a skeptic think tank--the great Swedish 
climatologist--if you exclude the Nobel Prize winner in physics 
from 1973 and the Nobel Prize winner in physics from 1988, you 
wind up with what has happened to climate alarmism, where the 
polls show the real 97 percent consensus that only 3 percent of 
Americans view this as their overriding priority.
    The point that Admiral Titley made about things we could 
do, he brought up--he brought up Superstorm Sandy as an example 
of climate change. You know what would have stopped Sandy? If 
they would have built the same storm barrier that the Dutch 
coast has, that the Russians have in St. Petersburg, and that 
London has with the Thames barrier.
    For a couple of billion dollars, you wouldn't have had 
water in the New York subway. But instead, when we talk about 
all the saving the planet stuff, the flood barrier never gets 
built. And that is what elected legislators should focus on, 
the real issues involving them now, not the pie in the sky 
stuff.
    Senator Cruz. Thank you, Mr. Steyn. And I would note Dr. 
Titley made reference to dead white guys, and in response to 
Senator Schatz's question about 97 percent of scientists and 
this one bogus and discredited study, in the year 1615, I 
suspect if you asked, 97 percent of scientists at the time 
would have said categorically that the Sun rotates around the 
Earth.
    And yet an individual named Galileo dared to actually be a 
scientist and take measurements and stand up to that enforced 
consensus. And I would note it was the Roman Inquisition that 
brought heretics before it who dared to say that the Earth 
rotates around the Sun, and today the global warming alarmists 
have taken the language of the Roman Inquisition, going so far 
as labeling anyone who dares point to the actual science as a 
denier, which is, of course, the language of religion. It is 
calling someone a heretic.
    And anytime you hear people saying scientists should not 
question the conventional wisdom, you are hearing someone 
advocating essentially for the abolition of science.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Chairman Cruz, thank you very much.
    And you know, today we are having a hearing on climate 
change science. And while this is an extremely important topic 
and great for Senators to engage on, I am disheartened by the 
frame here. It is called ``data or dogma'' is part of this 
title of this hearing.
    And quite clearly, this hearing was called to inject 
controversy and skepticism into the issue of climate science 
and research, to cast doubt on the work of many scientists, 
including those at American universities in all of our States, 
the National Laboratories--New Mexico has two of those National 
Laboratories--and the National Academy of Sciences, who have 
been researching the effects of climate change and the impacts 
that humans are having on the climate.
    This year is almost over. It will likely be the warmest 
year on record, and the current record holder, last year, 2014. 
The impact is clear, and people are seeing it all over the 
world with rising sea levels that increase drought.
    The Southwest is in the eye of the storm. In New Mexico, 
temperatures are rising 50 percent faster than the global 
average not just this year or last year, but for decades. 
Through all of this, Congress has been slow to act. We could be 
using this time right now to push forward on strong, 
comprehensive energy policies that curb greenhouse gas 
emissions.
    So I want to turn to you, Dr. Titley. I was really 
interested in your role as the lead oceanographer for the U.S. 
Navy and your history of 32 years of service in the Navy. And I 
have a simple question for you.
    Do we have time to waste, in your opinion?
    Admiral Titley. Senator, thanks, sir.
    There is a saying in the Navy, in naval aviation that the 
two things that are of no use to you is altitude above you or 
runway behind you. Right now, we are putting runway behind us.
    Now how much more there is, that is hard to say. But we are 
certainly taking time that we should be using to start 
mitigating this, and actually, some of the other witnesses have 
brought up some things. I think Dr. Curry talked about more 
research and development for energy.
    We need to transform our energy system. The Federal 
Government, the Congress can be very, very helpful on that. So, 
but we are not doing that right now, sir, because we have these 
debates that--which is fine. But at some point, we need to do 
something.
    Senator Udall. And you believe, I think, that it would be 
very prudent to look at the science, which is overwhelming, and 
we have heard the 97, 98 percent and proceed to do something in 
a bipartisan way that is constructive and find solutions.
    Were you always convinced that climate change is occurring?
    Admiral Titley. I was--I think there is a YouTube video out 
there or a TEDx talk I did. I talked about I was kind of a 
skeptic, as I think--as the chair introduced me, I have--my 
degrees were in meteorology. You see a lot of day-to-day 
variation in weather, and you also see, when you take a look at 
weather models, back when I started back in the dark ages of 
the 1970s, after about 3 days they weren't really worth very 
much.
    So it took me, honestly, a while to realize that in 
weather, it really matters about how do you start those models. 
It is called initial conditions, for the science folks. Whereas 
the climate models really work on boundary conditions. It is 
like how much energy is coming in? How many greenhouse gases do 
we have? Where are the continents? Where are the oceans?
    And you realize that, and this is why the climate models 
are useless at telling you what it is going to be like today or 
tomorrow, things like that. But they are pretty good at the 
overall trend.
    So when I looked at that and when, frankly, I was asked by 
the Chief of Naval Operations, Admiral Gary Roughead, to look 
at this for the Navy, I just said, well, what does the evidence 
show? And that is where it really--I came to it.
    So, you know, I am probably like the reformed smoker. But 
it was really just simply looking at all these independent 
lines of evidence. That, to me, said we have got an issue here, 
and we are going to have to do something.
    Senator Udall. And Doctor, the evidence is right behind you 
on that chart. That is the evidence you are talking about.
    Admiral Titley. Just one----
    Senator Udall. Yes, one data point, but----
    Admiral Titley--to have a chart like that for the rising 
seas and for many, many other lines. Yes, sir.
    Senator Udall. And do you believe science has progressed on 
climate, on climate change?
    Admiral Titley. I think the evidence has shown that science 
in many fields and including climate, it is not a nice linear 
process, but fits and starts. So when you take things like, you 
know, whether it is different observation techniques, I mean, 
there is a paper that just came out--I think I saw a day or two 
ago--from NASA measurements, talking about maybe more snow in 
Antarctica. We are going to have look at that, but that is 
interesting.
    So we get these ups and downs. But overall, and we have 
seen this in the IPCC and many other conclusions that the level 
of confidence that the basic theory of greenhouse gases from 
the 19th century is, in fact, correct.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman.
    Senator Cruz. Thank you, Senator Udall.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much for 
having this hearing.
    And hopefully, this will go better than Galileo because 
Galileo was put under house arrest, Dr. Titley, in 1633. And 
the Catholic Church did not issue an apology to Galileo until 
1992. So we wish you a long life so that 359 years from now, 
you can get the apology you deserve for actually using 
scientific data to back up your arguments here today.
    2014 is the warmest year ever recorded. Is that correct, 
Dr. Titley?
    Admiral Titley. Yes, Senator. That is what I understand.
    Senator Markey. That is what you understand. Now what would 
that be based on? Science?
    Admiral Titley. A whole lot of thermometers, yes, sir.
    Senator Markey. Whole bunch of thermometers. A very, very 
sophisticated technology. So this is going back to the 
beginning of the measurement of the temperature of the planet 
using thermometers. So that goes back to 1880, 1870.
    Now I am told that the first 6 months of this year are the 
warmest 6 months ever recorded on the history of the planet. Is 
that correct?
    Admiral Titley. Yes, sir. And I think that now extends to 
the warmest November as well. So we are up to 11 months and 
counting.
    Senator Markey. The warmest October and the warmest 
November now ever recorded using thermometers, the same 
measurement for about 150 years right now. Very clear 
calculations that have been made. And so, so I guess we are 
pretty much 150 years into the 359 years to getting kind of the 
apology from those who are the deniers.
    Now, you know, in Paris right now we have got just about 
every single scientist in the world, every country in the world 
is there, all saying the planet is dangerously warming and that 
the cause of it is human activity. Even the Pope said that it 
is dangerous, to name a Jesuit who taught high school 
chemistry. You actually get somebody who says that, you know, 
it is happening, and it is caused by human beings and that 
there is a moral responsibility to do something about it.
    So this panel that we have in this committee, this last 
redoubt of denial on the planet, of all the countries on the 
planet, this last place, you know, has the flip of witnesses 
that have every other place. We have four here who deny it and 
one who believes in the science.
    And so we clearly here are at a historic moment, and there 
will be a day when you get your apology, Dr. Titley, for being 
kind of the sacrificial lamb here, like Galileo, standing up 
for actual science. And so what we have here is just one of the 
clear national security challenges of our time. Just as we were 
focused on protecting the planet from the threat of Communism 
in the 1950s, we need to be focused on protecting the planet 
from the threat of climate change now.
    We sit here in the Space, the Science, and the 
Competitiveness Subcommittee, which has oversight over NASA. We 
should all be cognizant of the fact that NASA was established 
in 1958 when this country felt the very real threat of 
Communism. If we had ignored that threat in the 1950s, America 
wouldn't be the leader it is today.
    And it was in response to the threat of Communist 
domination in space when 53 years ago President Kennedy 
announced the ambitious goal of sending an American safely to 
the Moon. He told us that we would need a giant rocket made of 
new metal alloys, some of which had not yet been invented. It 
would have to be fitted together with a precision better than 
the finest watch, and it would have to be returned to Earth 
safely at speeds never before reached by humans. And it would 
all have to be done in less than 8 years.
    President Kennedy urged us to be bold, and America 
responded to his call not by saying it couldn't be done, not by 
denying the threat, but by boldly putting our scientists and 
our engineers to work protecting our Nation and the world.
    Today, a growing global danger lies in the cascading 
impacts of climate change. Temperatures are increasing. Sea 
levels are rising. More extreme rains are falling. The ocean is 
becoming more acidic. And all of this has consequences for 
people, public health, and for prosperity.
    That is why our national security, military, and 
intelligence leaders have warned that a changing climate can 
worsen the tensions that are fueling terrorism and conflicts 
around the world. More than 50 years ago, we looked to the 
scientific community to help protect our Nation from Communism. 
Today, the same scientific rigor we used to send astronauts to 
space is used to evaluate our changing climate.
    And just as President Kennedy urged our Nation to be bold 
in the space race, the global community is meeting in Paris 
right now to hold bold action to protect our climate. But the 
Republicans' message to the world is, Houston, we do not have a 
problem. And that is the wrong scientific message.
    They are once again questioning the integrity of the 
scientific community and the basic scientific principles behind 
climate change. The truth is the only thing that requires a 
serious scientific investigation is why we are holding today's 
hearing in the first place.
    Climate science stands on a foundation of more than 150 
years of research, laboratory experiments, demonstrated carbon 
dioxide traps heat in the same year that Charles Darwin 
published on the Origin of the Species. So we should listen to 
the planet's doctors. The more fossil fuels we burn, the more 
carbon pollution we put in the air, the higher the risk for 
catastrophic climate consequences.
    But the Republicans' response to this existential challenge 
is to insist that the brightest minds of the United States of 
America who once figured out how to send a man to the Moon and 
bring him back safely can't possibly figure out how to generate 
energy from anything other than burning the cane plants that 
have been sitting underground since the time of the dinosaurs.
    But we all know that failure is not an option. There is no 
planet B. We must solve this problem. The science dictates that 
we solve this problem. It is time to stop denying the science 
and start deploying the climate solutions.
    Admiral Titley, we have heard a lot about temperature 
measurements today. When I am feeling sick and I go to the 
doctor, she takes my temperature. But the doctor always checks 
my blood pressure, listens to my heart and lungs, and looks at 
my ears, eyes, and throat to get a broader assessment of my 
health.
    This chart behind me is NOAA's assessment of the Earth's 
climatic vital signs. Yes, temperatures are going up, but so is 
the heat in the ocean, the sea level, and the humidity. And 
snow and glaciers and Arctic Sea ice are going down.
    Do you agree, Dr. Titley, that a wide range of independent 
observations indicate that the planet is warming and the 
climate is changing and that there are no emergency rooms for 
planets, and we have to engage in preventive care?
    Admiral Titley. Yes, sir.
    Senator Markey. What would you say is the basis for your 
decision? Is it based on data, or is your answer based on 
dogma?
    Admiral Titley. It is based on the evidence, sir.
    Senator Markey. It is based on the evidence. And I agree 
with you, Admiral, and I thank you so much for your service to 
our country, both in the active Navy and here today before this 
committee.
    Thank you, Mr. Chairman. I yield back.
    Senator Cruz. Thank you, Senator Markey.
    Senator Nelson?
    Mr. Steyn. Dr. Curry wanted to respond to the Senator----
    Dr. Curry. Is it possible for me to respond? You 
basically----
    Senator Markey. I did not ask for--ask you a question.
    Mr. Steyn. Really? Why can't she respond, Senator?
    Dr. Curry. Yes, I was----
    Senator Cruz. Dr. Curry, you are welcome to----
    Mr. Steyn. You impugned her integrity. I think she is 
entitled to----
    Senator Cruz. You are welcome to respond, Dr. Curry.
    Dr. Curry. I was basically called a denier, that I am 
denying science. Did you read my written testimony? Are you 
aware that the IPCC and the consensus has no explanation for 
the increase of ice in the Antarctic? Are you aware that they 
have no explanation for the fact that the rate of sea level 
rise from 1920 to 1950 was as large, if not larger, as it 
currently is?
    Are you aware that temperatures have been warming for more 
than 200 years and that in the 20th century, 40 percent of the 
warming occurred before 1950, when carbon dioxide was not a 
factor in the warming. OK. And I could go on and on. Many of 
these issues are raised in my written testimony.
    And most of it is pulled from the IPCC itself. The IPCC has 
an explanation for--so it says, for warming during the period 
1975 to 2000. It doesn't have an explanation for the flat 
period since 2000. It doesn't have an explanation for the early 
century----
    Senator Markey. Dr. Mair, as I just said in my--Doctor, as 
I just said in my testimony, corroborated by Dr. Titley, this 
is the warmest year ever recorded. Last year is the warmest 
year ever recorded until this year. This is the warmest 
November ever recorded. October is the warmest October ever 
recorded.
    You do not have an answer for that, Dr. Mair. You continue 
to ignore the chart, which Dr. Titley has over his left 
shoulder. He has documented for this committee the warming 
trend, which is inexorable, inevitable in terms of its 
consequences unless we take action here.
    That is the science you are having a hard time in 
responding to----
    Dr. Curry. No, the issue----
    Senator Markey.--here, Dr. Mair----
    Dr. Curry. The issue is what is causing the warming? Is it 
natural variability, or is it humans?
    Senator Markey. Like Galileo, he said, no, the science----
    Dr. Curry. Are you aware----
    Senator Markey. The science--the science is clear. You are 
depending upon something that perhaps is God made rather than 
dependent upon something that is manmade, which is 
anthropogenic and documented by 97 percent of all of the 
scientists----
    Mr. Steyn. Are you saying there is no natural variability, 
Senator?
    Senator Markey. What I am----
    Mr. Steyn. There were alligators at the North Pole. What 
was that? Was that you in your SUV?
    Senator Markey. What I am saying is that this warming is 
something that while it may have a variability year to year in 
specific parts of the planet, that the trend is straight up.
    Mr. Steyn. Yes, do you know what--do you know what the 
Little Ice Age was, Senator?
    Senator Markey. And again, it is climate change. We had 110 
inches of snow in Boston last year, with measurements of water 
21 degrees warmer than normal off of the coast of 
Massachusetts, OK? This was an unusual event for us.
    The warming of the ocean intensifies the amount of 
precipitation when Arctic air hits that water. Now if you want 
to deny that, if you want to ignore that these changes are 
taking place and that they are having a dramatic impact, then 
you are in the right place. You are in the right----
    Mr. Steyn. Do you know what the winters were like at 
Plymouth Rock? Do you know what the winters were like at 
Plymouth Rock, Senator?
    Senator Markey. Well, here is the thing. We----
    Mr. Steyn. You don't. How long has your family been in 
Massachusetts?
    Senator Markey. We are new arrivals, and I have to admit--
--
    Mr. Steyn. You should have been there in 1750.
    Senator Markey. The Irish weren't arriving in 1750. So I 
apologize for being late to the country, and I will have to 
chastise my grandparents for not leaving until the economic 
conditions in 1902 forced them here.
    But that notwithstanding, there is as much consensus that 
man is causing climate change as there is in Galileo's original 
theory, and all which----
    Mr. Steyn. What percentage of climate change is man 
causing, Senator?
    Senator Markey. Excuse me, sir?
    Mr. Steyn. What percentage of climate change is 
anthropogenic?
    Senator Markey. Well, according to the scientists who are 
in Paris right now, which would fill pretty much the entire 
space of the building in which we are in right now, and the 
number of deniers would still be the ones who are----
    Dr. Curry. Are you aware----
    Mr. Steyn. What percentage, Senator?
    Dr. Curry. Are you aware of a recent survey of the 
professional members of the American Meteorological Society? 
When asked the question how much is the recent changes natural 
versus human caused, 52 percent of the membership said it was 
majority human caused.
    Senator Markey. Dr. Titley? Dr. Titley, could you respond 
to that question in terms of what you believe is the amount of 
warming that is relatable to human activity?
    Admiral Titley. Thanks, Senator.
    Right now, there is--as has been pointed out, there are 
natural variations, things like volcanoes, things like changes 
in sunlight. And then there is something called internal 
variations, and these are the oscillations or basically the 
back-and-forths of the ocean currents. So even if you had no 
change and forcing.
    But what we are doing is we are changing and forcing, and I 
think the IPCC has come down pretty strong, along with 
multiple, multiple National Academy panels, saying that the 
human-caused forcing is very, very significant. That doesn't 
mean there isn't natural variability. It doesn't mean there is 
not internal variability.
    But the human-caused forcing is very significant, and that 
is, I think, what we need to deal with.
    Senator Cruz. Thank you, Dr. Titley.
    Senator Nelson?
    Senator Markey. And could I just make--I agree with you, 
and I agree with this Pope. I disagree with the Pope in 1632. 
This Pope is correct, and we have a moral responsibility to 
act.
    Thank you, Mr. Chairman.
    Senator Cruz. Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    My approach to this is a little more ``coolly aloof'' and 
look at facts. Admiral, the chart behind you, is that a 
measurement of surface temperature?
    Admiral Titley. Senator, thank you, sir.
    It is near surface temperatures. Basically, it is about 10 
feet above the--you know, 6 to 10 feet above the surface. So 
for all intents and purposes, it is surface temperatures.
    Senator Nelson. That surface temperature would reflect that 
heat, most of which is absorbed by the oceans. Why don't you 
give us your perspective on that as an admiral?
    Admiral Titley. Thanks, sir.
    The oceans are absorbing roughly 90 percent, nine zero 
percent of the excess heat. What I have told people is that if 
you think of the--you know, when you study climate, try to get 
more and more oceanographers involved, and the oceanographers 
are certainly involved because that is where the action is, 
that is where the heat is. It is sort of like why did Willie 
Sutton rob banks? It is where the money was.
    So the heat is in the oceans, and then the atmosphere is 
sort of the tail on the dog. The atmosphere gets sort of 
driven, ups and downs, depending on what the ocean is doing. So 
the heat is in the ocean, sir.
    Senator Nelson. And when water is heated, what happens to 
it?
    Admiral Titley. It expands.
    Senator Nelson. Right. And therefore, that would indicate a 
reason why we are seeing sea level rise?
    Admiral Titley. Yes, sir.
    Senator Nelson. Not just the melting of glaciers and that 
additional displacement of water, but mainly from the 
absorption of the oceans, which cover two-thirds of the Earth, 
of the heat--the absorption of the heat. Is that right?
    Admiral Titley. Yes, sir. The scientists would call it 
thermal expansion. It is the expanding of the water.
    Senator Nelson. Are you familiar with the satellite, it is 
really not a satellite, it is a spacecraft named Discover that 
was put up earlier this year at a Lagrange point a million 
miles from Earth between the Earth and the Sun?
    Admiral Titley. Yes, sir. I think it is at what the 
scientists would call L1.
    Senator Nelson. That is correct. There is an instrument--
there are four main instruments on that spacecraft, but there 
is an instrument that looks back continuously at Earth to 
measure the heat in and heat out.
    If in addition to our surface temperatures and other 
instruments that measure, if we get the total amount of heat 
being radiated into the Earth's atmosphere and we measure the 
total amount of heat coming out and subtract one from the 
other, we should be able to have a very precise measurement of 
the amount of heat that is trapped in the Earth's atmosphere?
    Admiral Titley. Yes, sir.
    Senator Nelson. OK. Now this heat that is trapped in the 
atmosphere, the Sun's rays come in, and normally, when they hit 
the Earth's surface, some are absorbed, but some radiate back 
out into space. Is that correct?
    Admiral Titley. Yes, sir.
    Senator Nelson. If there is something trapping that heat 
from being radiated back out into space, you naturally would 
start to have the heating up of the Earth's atmosphere, and 
you, as a climatologist, would you speculate that that would be 
gases such as CO<INF>2</INF> and SO<INF>2</INF>?
    Admiral Titley. Senator, yes. I mean not as a 
climatologist, but just basic--basic physics. There are 
greenhouse gases that re-radiate or trap, as you said, the 
heat, and that actually allows us to have life on Earth. Yes, 
sir.
    Senator Nelson. So that could be another reason that 
reflects why the surface measurements are showing the chart 
that you have?
    Admiral Titley. As we increase the greenhouse gases, the 
temperature should come up. And that is what we are seeing. 
Yes, sir.
    Senator Nelson. Would you answer one more question, and we 
have not covered this today. The Department of Defense is quite 
concerned about the heating up of the Earth because of the 
implications for our national security. Would you trace a few 
of those for us?
    Admiral Titley. Yes, sir. So the Department of Defense, in 
their 2014 Quadrennial Defense Review, they talk about climate 
change really in three ways. They talk about increasing risk of 
conflict and instability overseas, the impacts of Department of 
Defense operations on operations people in installations, and 
also the impact of stability, development, human security, and 
other nations. So that was in 2014.
    Later on in 2014, the Department of Defense, they released 
their Climate Change Adaptation Roadmap. Really, that assessed 
climate change. It directed the department to assess climate 
change impacts on infrastructure, commissions, and activities; 
fully integrate climate considerations across a full range of 
department missions and activities; collaborate with partners 
internal and external to better understand what is going on; 
and also a bureaucratic part, they designate a climate change 
officer.
    If I may, sir, just one more thing. Just a few months ago, 
the geographic combatant commanders released an assessment, a 
report to the Congress. So these are the four-star admirals and 
generals who have direct control over the operating forces. 
They report to the Secretary of Defense and President.
    They had four issues, primarily issues. Persistently 
recurring conditions, such as flooding, drought, higher 
temperatures. More frequent and more severe extreme weather 
events that may require more humanitarian assistance and 
disaster relief, or support--defense support of civil 
authorities here in the United States.
    The sea level rise and the temperature change, greater 
chance of flooding in coastal communities, adverse effects 
impacting navigation safety, damages to infrastructure, 
displaced populations. And then, finally, the Arctic. As the 
Arctic changes, that is a whole category to itself.
    I will stop there, sir. But those are just some of the more 
recent documents that the Department of Defense has released 
concerning climate change.
    Senator Cruz. Thank you, Senator Nelson.
    All right. We are going to have a second round, and then 
the hearing will conclude.
    I want to start with Dr. Curry. When Senator Markey was 
haranguing you, he said that you had no response to his 
assertion that 2014 was the hottest year on record. Am I 
correct that NASA stated that that assertion, that 2014 was the 
hottest year on record, that they had a 38 percent level of 
confidence in that, which means that 62 percent or 
substantially more likely than not 2014 was not the hottest 
year on record? Is that an accurate statement?
    Dr. Curry. Yes, basically, 2014 was, according to the NASA/
NOAA datasets, in a statistical tie with 2010 and 2005. The 
U.K. dataset, which has, I think, more credible error bars on 
their dataset, found that it was in the top 10 warmest years. 
They couldn't fine-tune it anymore than that, given the great 
uncertainties in the reconstruction of global surface 
temperature data.
    And I think the uncertainty levels are really too low on 
all of those estimates, in my opinion.
    Senator Cruz. And indeed, NOAA included 2014, 2010, 2005, 
2013, and 1998, five different years as potentially being tied 
for being the warmest?
    Dr. Curry. Correct.
    Senator Cruz. The last hearing I chaired when Mr. Mair, who 
should have been sitting next to you, testified, he told the 
Subcommittee, ``Our planet is cooking and heating up and 
warming.''
    Does the evidence and data we have been discussing support 
the assertion that the planet is cooking?
    Dr. Curry. Not cooking, no.
    Senator Cruz. And indeed, another reference was made by 
Senator Markey to the measurements. Now I would note none of 
the Democratic Senators who participated in a press conference 
earlier today saying how dare you ask the data, not a single 
Democratic Senator addressed the satellite data. Not a single 
Democratic Senator addressed the fact that for 18 years there 
has been no significant warming recorded.
    Because, I suppose, it is contrary to their computer model 
and to their political desire to massively increase Government 
control of the economy and impose trillions of dollars of cost 
on people who can't afford it. But let us turn to the different 
measurements, not the satellite data, and if we can put up the 
next two charts?
    These next two charts are from the United States Historical 
Climate Network. These are the measurements of the thermometers 
that are measuring climate change. And these in particular 
record the adjustments that NOAA has done to the climate data.
    Chart on the left you can see that between 1900 and 1960, 
NOAA made relatively few adjustments, and they were relatively 
minor. And then we see that for the more recent years, they 
have been adjusting them upwards. And the adjustments 
consistently are upwards. They are never adjusting downward.
    Now the chart on the right likewise looks at the raw 
numbers are on the top. The raw numbers demonstrate a fair 
degree of uniformity. But the adjusted numbers, the old 
temperatures are cooler, and the new temperatures are warmer.
    Dr. Curry. Well, the different--there is a number of 
different groups who do global temperature datasets, and they 
have different methods for dealing with spatial 
representativeness, missing data, changes in temperature, 
measuring instrumentation, adjusting for the time of day, all 
sorts of different adjustments that they make. And the 
adjustments, as you can see, are rather huge, OK?
    So should we--so, to me, the error bars should really be 
much bigger if they are making such a large adjustment. So we 
really don't know too much about what is going on in terms of, 
you know, it is a great deal of uncertainty. Yes, I do believe 
that we have overall been warming, but we have been warming for 
200, maybe even 400 years, OK? And that is not caused by 
humans.
    OK. There is natural variability involved. And this is 
exactly what has not been sorted out.
    Now the ocean--the ocean temperature is the current focus 
of controversy. I mean, the land datasets are sort of starting 
to agree, but there is a great deal of controversy and 
uncertainty right now in the treatment of the ocean 
temperatures. And that has not been sorted out.
    And so especially looking in the recent period, if we are 
trying to sort out what is going on with the hiatus or the 
pause, we need to look at the satellite data. I mean, this is 
the best data that we have and is global, and we need to sort 
out the differences between the satellite and the surface 
observations. And then there is the numerical weather 
prediction reanalysis data simulation systems that give us a 
global view, and we haven't been really using that for climate 
purposes, and I think we need to.
    So the work is just starting in terms of trying to sort 
this out. And we don't have----
    Senator Cruz. Now, Dr. Curry, you said something very 
important there in that you said the satellite data are the 
best data we have. Can you explain, as a scientist, why that is 
the case?
    Dr. Curry. Well, it is global coverage. It is not a simple 
measurement. You have to do, you know, a retrieval and 
weighting functions, and it is a complex problem. But it is 
reasonably well calibrated and consistent over the last 30-ish 
years.
    Senator Cruz. And not a single Democratic Senator had any 
response to the satellite data that demonstrates their entire 
theory of global warming for 18 years hasn't been happening?
    Dr. Curry. Yes. I mean, we need to sort this out rather 
than ignore it. I mean, this is what I am concerned about.
    Senator Cruz. And Mr. Steyn, you look like you want to make 
a comment.
    Mr. Steyn. Yes, I----
    Senator Cruz. I want to ask a question on this because you 
also are quite familiar with the cooking of the books----
    Mr. Steyn. Right.
    Senator Cruz.--of the hockey stick, and indeed, Dr. Curry, 
you mentioned Climategate and the scientists receiving a whole 
lot of funding to conclude global warming was occurring and 
then adjusting their results to reflect that. I would note if 
you systematically add, adjust the numbers upwards for more 
recent temperatures, wouldn't that, by definition, produce a 
dataset that proves your global warming theory is correct?
    And the more you add, the more warming you can find, and it 
just--you don't have to actually bother looking at what the 
thermometer says. You just add whatever number you want?
    Mr. Steyn. No. That is what is fascinating about this. 
Could you just tell me the left-hand data on your chart, 
Senator? What is it? I can't quite see it from here.
    Senator Cruz. On the left----
    Mr. Steyn. On the right-hand chart, the blue and red line, 
what is the----
    Senator Cruz. In both of them, it is 1900.
    Mr. Steyn. 1900. So you look at the blue line, you look at 
the red line, this is the adjustment of figures that is going 
on.
    Senator Cruz. Yes.
    Mr. Steyn. What has happened since the global warming pause 
is that the public does not trust the alarmist establishment to 
tell them what the climate will be like in the year 2050. What 
that chart shows is why the public is moving to a new position 
now where it doesn't even trust these Federal agencies to tell 
them what the climate was like in 1950 or 1920 or 1900.
    And that is interesting. If these adjustments are merited, 
if an adjustment in the official recorded observed temperature 
because Gavin Schmidt at NASA wasn't standing out by the 
thermometer in the year 1920, but he suddenly decides a century 
on--what are we now, 95 years on--the 1920s temperature needs 
adjusting, that tells you how uncertain the science is.
    I would also like, Senator, just to say a word about this 
whole national security thing because I have never heard 
anything quite so ridiculous. We are a country in which we have 
an enemy overseas who so-called radicalizes suburban couples in 
California who go out and kill people. But we are planning now 
for global security threats a century hence because the 
Maldives might have been swept away by water by then.
    The entire population of the Maldives are all Sunni Muslim. 
So they will fit in perfectly fine if they all move to this 
Brussels suburb that produced the shooters in Paris.
    But the biggest--climate change is irrelevant to the long-
term patterns. And I cannot tell you how absurd it is to be 
talking about climate change as a security threat compared to, 
say--just to pluck at random--population. In 1920, the British 
Isles and British West Africa had the same population, about 45 
million people for England, Scotland, Ireland, Wales on the one 
hand and what are now Nigeria, Sierra Leone, Ghana, the Gambia 
on the other hand.
    Now the British Isles has a combined population--England, 
Scotland, Ireland, Wales--about 69 million, and British West 
Africa has a population of 250 million. So the security threat 
is exactly what we see in Europe at the moment that Niger, a 
country that can't--that has increased its population by 50 
percent in this century, since the year 2000, and had millions 
of starving people already that it couldn't feed and is 
expected to increase its population tenfold by the end of the 
century, and all those people are just going to get on a boat 
and walk into Italy, Greece, Spain, Portugal.
    And the idea that somehow climate changes impact on that is 
absolutely trivial to the remorselessness of those numbers. And 
I understand that governments find it easier to deal with 
cloud-cuckoo fantasyland, saving the planet type issues. But 
this is a complete waste of time for an already-beleaguered 
Defense Department having difficulty fighting the wars it is 
actually in right now in Afghanistan and Iraq and elsewhere 
suddenly dealing with sea levels in the Maldives in the 22nd 
century.
    It is completely preposterous and complete waste of time.
    Senator Cruz. So I will leave that aside for a moment.
    [Laughter.]
    Senator Cruz. And simply observe if we look to the 
satellite data, we see for 18 years no significant recorded 
warming. We see no response from the Democratic Senators.
    If we look to the raw data, according to the raw data, 
1940, it appears from this chart, the 5-year mean temperature 
was higher than it is in recent time. But once you adjust it, 
if you subtract from the old temperatures and add to the new 
ones, then you can have measurements that reflect your theory.
    Dr. Happer, you wanted to comment on this?
    Dr. Happer. Yes, I just wanted to say one more thing about 
the satellite data, and that is that they are cross-calibrated 
with weather balloons all over the world. And so it is not 
simply a couple groups measuring satellites. There is a quality 
check that goes on, and there is no similar check for the 
surface data that I know of.
    Senator Cruz. It is a very good point, and indeed, Dr. 
Christy's chart, as he described, was an average of several 
measurements of both the satellites and the weather balloon.
    If we could move to the next two charts, I want to--the 
final line of questioning I want to address is the effect of 
censorship, of dogmatism, of intimidation. So both of these 
come from barack
obama.com, a website I will admit I don't spend a lot of time 
perusing.
    On barackobama.com, the President of the United States is 
issuing a call, ``Call out the climate deniers. Too many of our 
elected officials deny the science of climate change. Along 
with their polluter allies, they are blocking progress in the 
fight against climate change. Find the deniers near you. Find 
the heretics and call them out today.''
    And indeed, they show a number. And I will say when I first 
looked at that chart, I was quite disappointed. I thought I was 
omitted, but then I discovered I am, indeed, included, along 
with a number of other elected officials. Indeed, I might note, 
a number of elected officials.
    What does it do to scientific debate when anyone who dares 
question political ideology is branded a denier and a heretic? 
What are the consequences in the academic world when that 
occurs? Dr. Curry?
    Dr. Curry. There is a chilling effect, OK? People keep 
their heads down. They look for opportunities just to do 
something else and to move on, retire, get out of the business. 
I have talked to any number of scientists who have done this, 
recent Ph.D. recipients on up to very senior scientists. It has 
a very chilling effect.
    As a tenured scientist who is relatively senior, I felt 
sufficiently secure to speak out. But younger scientists, 
scientists who are not tenured, fear for their jobs. They have 
mortgage payments, whatever, and you know--and kids to support. 
They can't afford to speak out.
    The social contract currently between the Obama 
Administration and climate scientists is if you say alarming 
things, you will get plenty of funding. That seems to be how it 
is working. And that is very, very pernicious for science.
    Senator Cruz. And do you get funded----
    Dr. Curry. I am----
    Senator Cruz.--if you are researching anything other than 
the orthodoxy of global warming alarmists?
    Dr. Curry. I am no longer applying for government grants. I 
can't get funded to do anything I want.
    Senator Cruz. Let me speak more in the aggregate. Does one 
get funded? If one is a scientist and one--you know, I recall 
being back in high school and studying science, the scientific 
method that you started with a hypothesis, and then you look to 
evidence to prove or disprove the hypothesis. And often 
disproving it is the more useful thing to try to do.
    Do those who are actually trying to disprove the 
hypotheses--mind you, the hypotheses that will drive up the 
electric bills and the cost of living for millions of 
Americans, will hurt people who are struggling, will hurt 
single moms, will hurt Hispanics, will hurt African Americans. 
Does anyone doing any research that might contradict the 
political dogma, are they at all likely to get funding?
    Dr. Curry. OK. The funding--the issue is this. The funding 
agencies do a call for proposals or an announcement of 
opportunity, and they are already implicitly assuming that 
human-caused climate change is dangerous. There is not even an 
opportunity or something that even makes sense to submit a 
proposal.
    Senator Cruz. All right.
    Dr. Curry. So that is the real problem. So a lot of the 
skeptical research is really being conducted by independent 
scientists who are not asking for any Government funding.
    Senator Cruz. OK. So my final two questions. One of the 
letters that the minority has submitted into the record is a 
letter from the American Association for the Advancement of 
Science. A sentence within that letter.
    ``We are committed to the principle that scientific inquiry 
and open scientific communication, regardless of field of 
study, should proceed unhampered by intrusions on academic 
freedom.''
    Now that is a noble-sounding statement and one that I--with 
which I agree emphatically. I want to ask the members of the 
panel, how does that noble sentiment comport with the call from 
our colleague Democratic Senator Sheldon Whitehouse that anyone 
who dares dispute the global warming alarmist orthodoxy should 
face criminal prosecution under RICO?
    Are those two statements somehow compatible, that you can 
have academic freedom and robust debate when you have got 
politicians saying we will criminally prosecute you as a 
racketeer if you dispute our political orthodoxy?
    Dr. Curry. Well, that statement by Science, the AAAS is 
really a myth because about 2 months ago, well, maybe 3 months 
ago, the editor of Science, Marcia McNutt, had an op-ed in 
Science that said the debate is over. Urgent action needed, 
essentially. And this was the editor of Science, which is the 
flagship journal of the American Association for the 
Advancement of Science.
    When an editor of a scientific journal makes a statement 
like that, it gives all of the editors a license to completely 
ignore any publication that is submitted that questions a 
consensus, and this is the real pernicious thing that is going 
on. So right now we are more ruled by the RICO mentality than 
we are by those lofty sentiments expressed by the American 
Association for the Advancement of Science.
    Mr. Steyn. Senator, you said your parents were, I think, 
mathematicians, statistical modelers. We have had a lot of talk 
today about climate science. I compiled a book that you were 
kind enough to mention the title of, and what was fascinating 
to me about that book was that climate science evolves. Twenty 
years ago, it was basically a branch of--30 years ago, physical 
geography. Now it is basically computer modeling.
    Yet at the same time, the majority of statisticians who 
look at the climate models think they are grossly 
unprofessional. Mathematicians and statisticians who look at 
the--at the way these climate models and the way the hockey 
stick were constructed are not onboard with it at all. A 
majority of engineers are not onboard with it. A majority of 
physicists, non-climate physicists are not onboard with this.
    So this idea that climate science is this hermetically 
sealed specialty that is sealed off from the rest of the world 
is nonsense. Climate science, there is--you have 
dendrochronology types. You have statistical modeling types. 
And there are elements of all in the work that they do. But 
certain people--mathematicians, engineers, statisticians--are 
not onboard with this.
    And Judith mentioned--Judith mentioned Science magazine. 
Nature magazine went even further. They are the two most 
prestigious science journals on the planet, Nature and Science. 
And Nature printed a statement recently from a group of climate 
scientists who said, ``Climate justice,'' climate justice is 
more important than democracy.
    So that the fake 97 percent consensus is no longer enough. 
The fake 97 percent consensus of so-called climate scientists 
now has to trump the 51 percent of the electorate.
    No science in history has conducted itself like this, and 
it would be unrecognizable to Sir Isaac Newton or Charles 
Babbage or the Curies to see a self-sustaining, malign, 
politico science nexus supporting itself and excluding all 
other voices. It is at odds with scientific inquiry across the 
centuries.
    Senator Cruz. Let me--in 2009, August 31, 2009, then-
Senator John Kerry, as I discussed in my opening, said, 
``Scientists project that the Arctic will be ice free in the 
summer of 2013. Not in 2050, but 4 years from now.'' The nice 
thing about this is, unlike theories that can't necessarily be 
disproven, this is actually a statement that can be tested by 
actual facts and evidence.
    Dr. Happer, was it, in fact, accurate in the summer of 2013 
the Arctic was ice free?
    Dr. Happer. No, it certainly wasn't ice free. But if I 
could follow up on something my colleague just said, this 
dogmatism is not unprecedented. If you look at the Soviet 
Union, for 30 years, Lysenko had complete control over biology. 
You got fired or worse if you didn't agree with his brand of 
biology.
    And that was finally brought to an end, partly because of 
people from other fields. For example, Andrei Sakharov, the 
inventor of the Soviet hydrogen bomb, led some of the 
opposition because he had enough stature to stand up and push 
back.
    But most people were afraid. So there was a state of fear 
that was actually quite a bit worse than that associated with 
climate science right now. It is a good lesson to remember.
    Senator Cruz. And my final question, Dr. Titley, based on 
your three decades serving in the Navy, do you agree with 
President Obama, who said holding a global warming summit in 
Europe was a powerful rebuke to the ISIS terrorists who just 
committed a horrific act of terrorism in Paris and, indeed, 
likewise in San Bernardino?
    Admiral Titley. Senator, thanks, sir, for the question.
    The way I describe these geostrategic risks of climate 
change, climate is the risk, and it makes the threats, threats 
such as ISIS worse. So this doesn't--this is not an either/or. 
It is not a false----
    Senator Cruz. But I am asking your judgment as a military 
man if you agree with President Obama that holding a global 
warming summit was a powerful rebuke to the ISIS terrorists? I 
find that statement absurd on its face.
    I am asking, based on your military judgment, do you agree 
with the President?
    Admiral Titley. We have to address both, sir. Thank you.
    Senator Cruz. From your declining to answer, I take it that 
the inference of that is that your answer is no?
    Admiral Titley. My answer is, sir, we have to address both 
the risk of climate change and the threat of ISIS.
    Thank you.
    Senator Cruz. Thank you.
    Senator Peters?
    Senator Nelson. Mr. Chairman, I am going to go first, with 
your permission.
    Senator Cruz. Senator Nelson?
    Senator Nelson. And Mr. Chairman, I might say, just 
supporting the Admiral, sea level rise is a threat to an area 
such as Bangladesh. It would cause a huge--it will cause a huge 
displacement of population, which will cause turmoil, which is 
the conditions that are ripe for extremists to exploit.
    So there are answers to that, and I would just conclude my 
remarks by saying, you know we have been talking about 
censorship here. Mr. Chairman, you are my friend, and as you 
know, I am respectful to you and the other Senators. I find it 
somewhat ironic that we are talking about censorship against 
those that speak against climate change when, in fact, it has 
been exactly the opposite over and over.
    And it was so much so that we saw examples where various 
levels of government said that you couldn't even use the term 
``climate change'' that I offered an amendment in March in 
front of the full Senate. A majority voted for my amendment, 
including two Republican members of this committee, Senator 
Rubio and Senator Ayotte.
    And so when we start talking about muzzling of scientists, 
I think we better watch out how we are talking about which side 
is trying to do the muzzling because that amendment to prevent 
muzzling of scientists on the subject of climate change, it 
actually had a majority, and it was a bipartisan majority that 
voted for it in the Senate.
    Thank you, Mr. Chairman.
    Senator Cruz. Thank you, Senator Nelson.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    And I certainly have enjoyed the hearing and the testimony, 
but actually, to pick up on comments by Senator Nelson about 
muzzling, certainly that didn't occur in this hearing. We heard 
from three witnesses, scientific witnesses, as well as the 
political commentator about issues related to climate change 
that represented a particular point of view that is not shared 
by the vast majority of the scientific community, has been very 
clearly demonstrated in numerous documented studies, the 97 
percent figure, for example, that has been documented by a 
number of studies.
    So I was curious. We had three folks testifying with 
concerns about the science. And if you look at it in a ratio of 
97 folks, we had 3 scientists who had some questions who 
represent not 60 percent of the scientific consensus. We have 
Mr. Steyn, the political commentator, which I know if we had 
all the political commentators on both sides of the issue, it 
would be a lot more than one out of five, I am sure. It would 
probably fill several rooms here.
    Dr. Titley, you were here by yourself. But if we put it in 
perspective, we had the three that took this perspective, and I 
think there is probably--I don't know if there is 100 people in 
this room, but probably everybody else in this room would have 
a different position.
    Certainly, as policymakers, this is about leadership. It is 
about making decisions. It is about someone who has to make 
decisions that are going to impact the country.
    Dr. Titley, we talked about military commanders that have 
to make decisions based on intelligence reports and best 
estimates of the risk involved and then weigh that against the 
potential consequences. That is exactly what we have to do here 
in this committee. It is what we have to do as U.S. Senators is 
that we have to listen to experts.
    I am not a climatologist. I rely on climatologists to give 
me information and then make policy decisions based on that. 
And oftentimes, it is--this is about weighing, weighing the 
opinions of folks, and in this case, the scales of justice are 
weighing are clearly on a side different than what we have 
heard from four of the five witnesses.
    So today you had that opportunity to present that view and 
in a very unbalanced way. It would have been great if we could 
have had 100 scientists and had 97 telling us one thing and the 
3 of you something else. That is not what we had, but I think 
it is important to keep that image in mind.
    And if we are going to be serious policymakers that are 
going to make decisions that are going to impact this country 
and are going to impact the world, we have to make decisions 
based on expertise from those who understand this science 
better than anyone. And that is where I come. I try to come 
from a dispassionate side. Let us listen to the science. Let us 
listen to folks who are experts.
    And that is why I am disappointed that we didn't have a 
more balanced hearing, but I certainly appreciate your 
testimony, Dr. Titley. And I would like to just ask you a few 
questions related to that because we heard quite a bit about 
satellite data. And Chairman Cruz had a line of questioning 
related to that.
    And I am concerned that from listening to that, people 
might think that satellites are just basically thermometers in 
space running around. We know that that is not the case. In 
fact, I would like to enter into the record, Mr. Chairman, this 
report that is a 2006 Synthesis and Assessment Report of the 
U.S. Climate Change Science Program.
    And it really underscores the difficulty in using satellite 
data in that it is a complex numerical model that converts 
satellite observations to--in order to determine temperature. 
If we could put that in, I would appreciate it.
    Senator Cruz. Without objection, it will be entered in the 
record.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

    Senator Peters. Thank you, Mr. Chairman.
    And given that thought, Admiral Titley, if you could 
explain briefly, a little bit expand on that, how satellites is 
a complex mechanism in order to do that, as well as if you 
could briefly explain the corrections that have been made over 
time to UAH satellite datasets since the original estimates 
were published.
    These datasets are revised on a regular basis because of 
the difficulty in correlating. Is that correct?
    Admiral Titley. Senator, thank you. Thank you, sir.
    I mean, kind of the bottom line, it is not rocket science. 
It is actually harder. Once you get the satellite up in the 
air, then you have to do something with the data.
    And as has been talked about I think several times in this 
committee, they are not thermometers in space. There is all 
different types of frequencies, all the way from visible, the 
pictures that you see on the TV, infrared, and there is also 
some things called micrometer. So it is basically almost like 
radar. It is not exactly, but some of them are.
    And what you do is you are trying to look down through the 
atmosphere. But of course, the atmosphere doesn't say, oh, here 
is the low part, and then there is a nice dividing, and here is 
the middle. So you have different frequencies that are mostly 
sensitive, but not entirely sensitive to those different parts. 
And then you have to put all of that stuff together, and it is. 
It is complicated.
    A lot of work in meteorology was done in this, and it was 
one of the real big advances when we figured out how to use 
these data directly and not make them like thermometers. That 
happened around the turn of--around the year 2000 or so, and it 
was a big advance.
    As you have mentioned, sir, there have been just a number 
of corrections that have had to be made to the UAH dataset. 
Merging overlapping satellite records. So when you have 
satellite A and satellite B, how do you, in fact, cross-
calibrate? How do you compare them?
    As the satellites go around and around, they actually start 
falling back to Earth. Very slightly, but they fall back to 
Earth. You have to account for that orbital decay.
    You have to account for the stratosphere, the air up above 
what we have been talking about, this where we live or near 
where we live, and is that contaminated? And then there is even 
things like the diurnal heating correction. So like when the 
satellite is in where the Sun, you have to account for that.
    And those have--it has taken other people, such as Mears 
and Wentz from Remote Sensing Systems and other external 
scientists, to help with those datasets to get them corrected. 
And again, it is not easy stuff to do. It is hard stuff to do, 
but there have been a number of errors.
    Senator Peters. So I get from that testimony that satellite 
data alone may be inadequate. We need to look at a variety of 
other measurements of climate indicators. So how do climate 
models compare with these measurements and observations in the 
aggregate when we are looking at a variety of tools to measure 
what is happening on our planet?
    Admiral Titley. There is a saying certainly in the weather 
community and other communities as well that all models are 
wrong, but some are useful. And in a technical sense, it is 
really hard to find a weather or a climate model that is 
exactly right all the time. But they can tell you very useful 
things.
    So even back in 1979, Jim Hansen of NASA published in 
Nature--it was published, I think, in May 1980--his climate 
model. This is from 35 years ago, when probably his computer 
system was not even as powerful as our iPhones today. And what 
that showed in published record, anybody can look it up, is the 
temperature was going to start going up.
    And then when you overlay the actual temperatures on there, 
he was wrong. But he was wrong because he was actually slightly 
too cold. But it was very useful because it said, guys, we are 
going to get on this escalator and we are going to start going 
up.
    So the climate models are useful. They are certainly 
getting better. Are they perfect? No. Could we use more 
research and development, better computers? Yes. Could we use 
better observations? Yes.
    But they are very useful, and they do help us understand 
the future.
    Thank you, sir.
    Senator Peters. Well, thank you, Dr. Titley.
    One, another question here. We have heard about or had 
testimony that folks sometimes have difficulty getting their 
positions heard. If you could explain to us the importance of 
skepticism in the scientific process, that that is, indeed, 
very important and specifically how the peer review process 
works, which leads to these academic journals and studies?
    Admiral Titley. I mean, skepticism is what drives science. 
I mean, very frankly, it is what drives science. It is people 
who ask different questions in different ways. They either get 
inspired. They come up with a new dataset. They see a way to 
use a new dataset. And that can sometimes challenge the very 
orthodoxy. I mean, you look at Darwin, who challenged the very 
orthodoxy.
    As far as the peer review, the peer review doesn't mean 
that this is the final settled science, but it does mean there 
is a logical flow. It means that the scientist or the author 
has, in fact, correctly taken a look at his or her field 
previously and documented that. The methods are clear, and the 
conclusions are consistent with the evidence that was 
presented.
    It may not be the final word, but it is sort of that Good 
Housekeeping Seal of Approval, if you will. So that if you are 
reading from another field or if you are policymaker, if you 
understand it is peer reviewed, there is some sort of 
certification or quality control. It may not be perfect, but 
over time, it is a pretty good process.
    Senator Peters. So these papers aren't based on dogma. It 
is a very robust scientific process that has significant review 
by peers who have expertise in the area?
    Admiral Titley. Senator, in my opinion, the vast majority 
of papers are based on data and not dogma.
    Senator Peters. Doctor--or Admiral Titley as well, what do 
we understand about the natural phenomena that has contributed 
to warming from the last 150 years versus effect of carbon that 
humans have released? We have heard that from some of our other 
panelists that there is other natural phenomena. Could you kind 
of dive into that a little more and give us a better sense of 
what we know about humans' impact?
    Admiral Titley. Yes, sir. The humans' impact is really 
primarily, although not exclusively, from greenhouse gases. 
Land use also has an impact. Agriculture has an impact. But 
primarily, it is our energy uses, fossil fuels. And what they 
are doing is putting billions of tons of greenhouse gases into 
the atmosphere.
    So even though in absolute terms, 400 parts per million 
doesn't sound like that much, compared to where we started the 
pre-Industrial Revolution at about 275, 280 parts per mission, 
it is a significant increase. And we are seeing those effects. 
We are seeing the temperatures come up, but we are also seeing 
the rainfall come up. A warmer atmosphere has a potential to 
hold, if you will, more water vapor. So when it rains, it can 
rain harder.
    The temperatures are melting the ice. We have already 
talked about, I believe, with Senator Schatz, the sea level or 
the thermal expansion. So we are seeing all these different 
independent lines of evidence. And since we built human 
civilization based on climate stability, that is the challenge 
that we have.
    We now have to adapt. And I think I have heard some of the 
other panelists say we need to adapt. So we are going to have 
to adapt to the climate changes that are coming that we cannot 
stop, but at the same time, we need to figure out how not to 
drive over the cliff, how to change ourselves so that all we 
have is a bumpy ride, put your seatbelts on, and we will be OK.
    But if we don't get serious with this, we could have a 
very, very rough ride, indeed.
    Senator Peters. Well, hopefully, that is where we will 
spend time in this committee in the future is thinking through 
how do we adapt, how do we design policy prescriptions to what 
is a complex, but potentially dangerous change in the climate.
    I want to go back because I didn't hear the response, I 
think Dr. Happer talked about carbon dioxide, and I just want 
to have opportunity for you to respond, Dr. Titley. Is that we 
know that there have been periods in Earth's history prior to 
the evolution of photosynthesis, I believe, when carbon dioxide 
levels in the atmosphere were much higher than they are now.
    Can you talk about what the Earth was like in times past 
when carbon dioxide levels were much higher and what that might 
mean for us now? And you heard Dr. Happer's testimony. Perhaps 
your response would be helpful now.
    Admiral Titley. Yes, sir. There certainly have been times 
in the past where carbon dioxide levels have been much, much 
higher, but there weren't modern humans, and there certainly 
weren't billions of humans. So our challenge is how do we deal 
with these new rises in carbon dioxide with 7, 8 billion people 
onboard?
    The plants--certainly, in general, plants do better, but so 
do the weeds. So if you are looking at agriculture, what you 
have to deal with is not only are the plants that you want to 
grow are going to do better, the weeds are going to grow 
better, but they are going to do so in a hotter environment.
    Do you start crossing thresholds, either not only daytime 
thresholds, nighttime thresholds? Does it mess up with the 
germination? Does it mess up with the pollination? Where are 
you going to get the water from if you have changed the basic 
water cycle?
    So all of those issues become a great challenge, and you 
need to be able to look at the entire system of agriculture in 
a changing climate to see where the risks are and where the 
challenges are.
    Senator Peters. Well, I think those are important points, 
Dr. Titley, and I would actually like to enter in the record 
two studies, one in 2006 by Stephen Long and another study here 
by Samuel Myers, also has a little different perspective on 
CO<INF>2</INF> levels than what we heard in testimony today.
    If I could introduce that in the record, Mr. Chairman?
    Senator Cruz. Without objection, they will be made part of 
the record.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Peters. Thank you, Mr. Chairman.
    And then I also have--we have had some references by 
members of the panel regarding Senator Whitehouse and some 
comments that he had made. I would like to enter into the 
record as well a speech that he made that should be entered 
into the record as to refute some of the comments that were 
made by the panel.
    Senator Cruz. Without objection.
    [The information referred to follows:]

                 Time to Wake Up: The Pause That Wasn't

Senate Floor Speech by Sen. Sheldon Whitehouse
Tuesday, September 29, 2015

    Mr. President, I rise today for my 113th ``Time to Wake Up'' speech 
on climate change. They say 13 is unlucky. I don't know what 113 is, 
but I do know what climate change is. It is very real. We shouldn't kid 
ourselves. And it is an urgent challenge for our country and our world. 
Our leading scientific organizations say so. Our national security 
leaders say so. All of our National Laboratories say so. Major American 
businesses say so. Religious leaders of all faiths say so. Pope Francis 
certainly said so last week. But the Senate is jammed by persistent, 
meretricious climate denial. The denial comes in many guises, but, like 
a compass, all the denial points in the same direction: whatever helps 
the fossil fuel industry keep polluting. That is the true north of 
climate denial--whatever helps the fossil fuel industry. Look at the 
fossil fuel money pouring into the Republican Party and tell me this is 
a coincidence.
    We have Senators who deny that anything is happening, who say it is 
a hoax. We have Senators who deny that we can solve this. We have 
Senators who deny their faith in the American economy to win if we 
innovate. We have Senators who simply shrug and say: I am not a 
scientist. A bunch of Senators say: Don't even worry about it; climate 
change has stopped. The junior Senator from Florida tells us, ``Despite 
17 years of dramatic increases in carbon production by humans, surface 
temperatures [on] the earth have stabilized.'' The junior Senator from 
Texas proclaims that ``satellite data demonstrate for the last 
seventeen years, there's been zero warming. None whatsoever.''
    Let's leave aside for a moment the cherry-picked data this 
conclusion is based on, which leaves out the oceans, which cover a mere 
70 percent of the Earth's surface. I will get back to oceans in a 
minute. But even this cherry-picked data needs a trick to deny the 
long-term trend. Using their trick, you could convince yourself climate 
change has stopped six times in the history of this increase from 1970. 
It is easy to do. You pick a spot here and you pick a spot there, and 
in the variability you make it a flat line and you say: There, you see 
a pause. The problem is that these manufactured pauses keep climbing.
    When this bogus climate pause idea was trotted out in an op-ed in 
the Providence Journal, my home state paper, PolitiFact quickly 
determined that it uses ``cherry-picked numbers and leaves out 
important details that would give a very different impression.''
    When we look at the linear trend for this whole data set, from 1970 
to 2013, no one can deny that the Earth is warming. Research shows that 
climate change is marching on. The past decade was warmer than the one 
before that, which was warmer than the one before that. Seventeen of 
the 18 hottest years in the historical record have occurred in the last 
18 years. NOAA and NASA count 2014 as the hottest year on record, and 
so far 2015 is on track to be even hotter than 2014. Fluctuations do 
not statistically alter the trend.
    It is a disservice to the truth and to this Senate to suggest that 
this heralds the end of climate change. As noted UC Berkeley physics 
professor Richard Muller put it, ``When walking up stairs in a tall 
building, it is a mistake to interpret a landing as the end of the 
climb.''
    Plus, for what reason would it have stopped? There is no basis for 
the pause. We know why it is happening. Global warming is caused by 
carbon pollution. We have known that science since Abraham Lincoln wore 
a top hat around this town. That is not news. And our carbon pollution 
sure hasn't stopped.
    We just broke 400 parts per million of carbon in the atmosphere for 
the first time in the history of the human species.
    There is no intellectual basis behind the pause theory. These 
claims of a climate change pause have been debunked. Just a couple of 
weeks ago, researchers from Stanford University published a study: 
``There is no hiatus in the increase in the global mean temperature, no 
statistically significant difference in trends, no stalling of the 
global mean temperature, and no change in year-to-year temperature 
increases.'' In other words, there is no pause.
    A different study prepared for the U.S. Climate Variability and 
Predictability Program reviewed this so-called pause data and said 
this: It ``not only failed to establish a trend change with statistical 
significance, it failed by a wide margin. [A]ny argument that global 
warming stopped 18 or 20 years ago is just hogwash,'' said one of that 
report's authors--just hogwash. When legitimate scientists and 
statisticians examine the data for global mean temperature, they don't 
find any so-called pause.
    This chart I have in the Chamber shows global average temperatures 
since the late 1800s, which is about the time we began burning fossil 
fuels in the Industrial Revolution. In yet another study out this 
month, researchers did a little test. They showed this chart to 25 
economists, but instead of temperature they told the economists that 
the chart showed world agricultural output. That stripped the data of 
any political baggage of climate change. It made this a simple 
statistical question: Does this chart show that the measured 
phenomenon--climate change, temperature, world agricultural output--
does this chart show whatever the measured phenomenon is stopped in 
1998? The economists looked, and they flat out rejected that 
conclusion. What they agreed was that claiming the phenomenon had 
stopped would be misleading and ill-informed.
    So why did this pause theory appear that is a mistake, that is 
hogwash, that is based on cherry-picked numbers all toward a conclusion 
that is misleading and ill-informed? Why? Because the big carbon 
polluters and their allies in Congress don't want us to act. So we keep 
getting this mischief fed to us.
    The enterprise that performs that evil task of feeding mischief 
into this debate is perhaps the biggest and the most complex racket in 
American history. It is phony. They cherry-pick a handful of 
statistically insignificant data points and tell us the whole problem 
went away on its own. Then the real scientists take a look at it and 
say that is bunk. But in the meantime, the polluter enterprise notched 
a public relations victory. It bought some time to keep polluting for 
free, and sadly it got some of our colleagues to be party to it.
    Telling the American people there is a pause in global warming may 
lull the gullible to sleep, but it is phony, it is inaccurate, and it 
is wrong. It ignores the truth. It ignores the science. Basically what 
it is, is cheesy fossil fuel PR dressed up in a lab coat to look like 
science, just enough to fool people that little bit.
    Now let's turn back to the oceans--that 70 percent of the Earth's 
surface the other data left out. These data show the decades-long 
warming of the surface oceans--1960 to 2010. No pause. Remember, the 
deniers conveniently left all this data out when they cherry-picked 
their pause data--70 percent of the Earth's surface left out.
    The first law of thermodynamics, conservation of energy, decrees 
that all of that heat in the ocean had to come from somewhere. Research 
shows that greenhouse gases trap excess heat in the atmosphere and that 
over 90 percent of that excess heat went into the oceans, was absorbed 
by our oceans. People who insist that the climate has not warmed in 
recent decades ignore this one little thing--the oceans, which cover 70 
percent of the surface of the Earth. The oceans don't lie. This warming 
is changing the oceans and our fisheries. Water expands when it warms. 
That is the law of thermal expansion--unless somebody wants to come and 
deny that. The seas are rising across the globe. In Rhode Island, we 
measure it at the Newport Naval Station tide gauge. Basically it is a 
glorified yardstick. It is not complicated. There is no theory 
involved. It is a measurement. It says we are up nearly 10 inches since 
the 1930s. That may be funny to landlocked States, but when there are 
10 more inches of sea to be thrown against your shores by a big ocean 
storm, coastal states take that stuff very seriously. NASA measures it 
around the world with satellites; it is not just the coastal stations 
that take these measures. NASA measures from satellites. We measure the 
exploding acidity of the seas. The exploding acidities of the sea are 
directly related to CO<INF>2</INF> absorption--unless people want to 
deny chemistry. You can put CO<INF>2</INF> seawater in a high school 
lab and you can make the pH change. That is what we are doing on a 
global scale, and we don't get to repeal laws of chemistry around here, 
no matter how powerful the special interests.
    Last week, His Holiness Pope Francis called on us to work together 
to protect our common home. He warned us in his recent encyclical: 
``Those who will have to suffer the consequences of what we are trying 
to hide will not forget this failure of conscience and 
responsibility.'' But first we have to want to protect our common home. 
If what we want to protect is the fossil fuel industry, at all costs, 
at any cost, we need a priority adjustment.
    In our rotten, post-Citizens United, billionaire special interests 
politics, perhaps the Pope would have had more effect if he had a super 
Pac, but it shouldn't take a super Pac for us to heed the Pope's 
warning or to heed the science or to heed our national security leaders 
or to heed everyone else who has lined up to try to wake us up.
    Pope Francis also said ``to avert the most serious effects of the 
environmental deterioration caused by human activity,'' now is the time 
for courageous actions and strategies.
    Today's New York Times has this headline: ``Many Conservative 
Republicans Believe Climate Change Is a Real Threat.'' Once you get 
away from this building and the pernicious influence of the fossil-fuel 
industry and its relentless money and threats, it is not a question of 
ideology, it is a question of special interest influence, and 
conservative Republicans increasingly understand that this is real. 
Eleven of them just broke rank in the House.
    It is time to come together in good faith to tackle this real and 
persistent threat--the threat of climate change.
    It is time for us to wake up.
    I yield the floor.

    Senator Peters. Thank you very much. I yield back, Mr. 
Chairman.
    Senator Cruz. Thank you, Senator Peters.
    I want to thank each of the witnesses for being here. Dr. 
Happer, you wanted to briefly----
    Dr. Happer. I just wanted to make one response about 
satellite temperature measurements. They measure temperature 
the same way as hospitals do today. Nobody sticks a thermometer 
in your mouth anymore. They use a temporal scanner or they put 
something in your ear. And so they are measuring radiation in 
exactly the same way the satellites do, except medical 
thermotheres use infrared radiation, not microwave radiation.
    Senator Cruz. Thank you, Dr. Happer. That is helpful.
    This hearing was a hearing to discuss facts and evidence 
and data rather than partisan dogma and ideology, and there are 
at least seven facts that our witnesses have laid out here to 
which there have been, I believe, no effective response.
    Number one, that carbon dioxide, rather than being a 
pollutant, is good for plant life.
    Number two, that the Earth right now, today, is greening.
    Number three, that for significant periods in history there 
has been markedly more CO<INF>2</INF> in our atmosphere, and 
that was prior to the Industrial Revolution. So it could not 
have come from the burning of fossil fuels.
    Number four, that for the last 18 years the satellite data 
and the weather balloon data both demonstrate no significant 
warming whatsoever. That fact in particular not a single 
Democratic Senator had an effective response to.
    Number five, that the satellite data and the weather 
balloon data are the best evidence we have of whether warming 
is occurring, and that evidence, the actual data, demonstrate 
that it is not.
    Number six, that the seas were rising more in the first 
half of the 20th century prior to the significant increase in 
carbon dioxide emissions than they are now.
    And number eight, that the computer models, the apocalyptic 
computer models that are telling us we need to raise every 
hard-working American's electric bills, gas bills, cost of 
living, we need to make it harder for single moms, for 
immigrants, for African Americans, for Hispanics, for hard-
working men and women, we need to make it harder for them to 
make a living and make ends meet, the computer models are 
profoundly wrong. Not a little bit wrong, but profoundly 
inconsistent with the data and the evidence.
    None of these eight facts tend to make it through the media 
gatekeepers that instead enforce, like the Inquisition, a 
discipline on the heretics that would dare stand in the way of 
their political ideology of imposing trillions of dollars of 
cost on people who are struggling.
    Policy should be driven by facts, and as John Adams said, 
``Facts are stubborn things.''
    In addition to the number of things entered in the record, 
I have got a series of newspaper articles describing the 
persecution of so-called climate deniers that without objection 
are going to be entered into the record.
    [The information referred to follows:]

              Should Climate Change Deniers Be Prosecuted?

                  By Walter Olson On 10/1/15 at 5:17PM
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Around 400 demonstrators participated in a protest over climate 
change denialby burying their heads in the sand at Sydney's Bondi Beach 
November 13, 2014, ahead of a G20 summit in Brisbane. Half-truths and 
the selective use of data are the common currency of political debate 
over climate change, the author writes.

David Gray/Reuters

    In June, I took note of Senator Sheldon Whitehouse's (D-R.I.) op-ed 
''urg[ing] the U.S. Department of Justice to consider filing a 
racketeering suit against the oil and coal industries for having 
promoted wrongful thinking on climate change, with the activities of 
'conservative policy' groups an apparent target of the investigation as 
well.''
    I pointed out that this was a significant step toward criminalizing 
policy differences and using litigation and government enforcement to 
punish opponents in public debate, and meshed with an existing fishing-
expedition investigation of climate-skeptic scholarship by Whitehouse 
and other Democrats on Capitol Hill.
    Others had already gone farther than the senator himself, calling 
for making ``climate denial'' a ``crime against humanity,'' holding 
public trials of fossil fuel executives for having resisted the truth 
and so forth. (Gawker: ``arrest climate change deniers.'')
    And I noted a recurring argument-''we did it to the tobacco 
companies, so there's no reason we can't do it here too''-that tended 
to confirm my fears that the Federal government set a dangerous 
precedent back then when it ''took the stance that pro-tobacco advocacy 
could amount to a legal offense.''
    Now there are further signs that a concerted campaign is under way. 
``Letter to President Obama: Investigate Deniers Under RICO'' is the 
headline over a letter from 20 scientists, most at respected 
institutions, endorsing the Whitehouse idea and calling for the Federal 
government to launch a probe under the racketeering (RICO) law. The 
letter was soon being widely promoted around the Web, even at 
BoingBoing, often regarded as a pro-free-speech outlet.
    It is not clear that all the scientists who signed the letter have 
thought carefully about the tension between what they are asking and 
the continuing freedom to pursue lines of inquiry in public debate that 
the government may find unwelcome or unreasonable. ''I have no idea how 
it affects the First Amendment,'' says one Vermont scientist who backs 
the probe, quoted by Bruce Parker of Vermont Watchdog.
    In a companion piece, Parker interviewed me about the 
constitutional implications of this extremely bad idea. (I should note 
that when I discuss RICO in the interview transcript, I'm referring to 
the civil-litigation side of the law, so-called civilRICO, which seems 
to be the part of the law the advocates hope to use.)
    It is remarkable how many advocates of this scheme seem to imagine 
that the First Amendment protects only truthful speech and thus (they 
think) has no application here because climate skepticism is false.
    That's not the way it works. As Cato and many others (compare ACLU 
of Ohio) argued at various stages in the case of Susan B. Anthony List 
v. Driehaus, which reached the Supreme Court on a different issue last 
year, controversial speech need not be true to be protected. In 
practice an ''only truth has rights'' approach chills advocacy 
generally and gives the state (or sometimes private litigants and 
complainants) a dangerous power to stifle advocacy in debates that it 
considers settled.
    It is certainly strange to see many supporters of the Whitehouse 
approach suggest that the speech they dislike is actionable because 
they find in it half-truths, selectively marshaled data, scientific 
studies that spring from agendas, arguments whose ultimate sincerity is 
open to question, evasion of telling points made by the other side and 
so forth. Those are the common currency of everyday debate in 
Washington (and not just in Washington).
    Nothing could be more common than to find both sides in an argument 
using these argumentative techniques. Hawks and doves do it; so do 
protectionists and free traders, and labor interests and business 
interests. The same techniques are also accepted as standard currency 
within the adversary process itself, in which the law takes such pride, 
which makes it particularly absurd to propose defining it as unlawful 
racketeering to (quoting one paraphrase) ''use dubious information to 
advance a cause.'' The interview, again, is here.

Walter Olson is a senior fellow at the Cato Institute's Center for 
Constitutional Studies.
                                 ______
                                 

                            The Climate Fix

             Various musings on climate science and policy

                           by Roger Pielke Jr

                      I am Under ``Investigation''

                    FEBRUARY 25, 2015--ROGERPIELKEJR

    As some of you will already know, I am one of 7 U.S. academics 
being investigated by U.S. Representative Raul Grijalva (D-AZ) who is 
the ranking member of the House of Representatives Committee on 
Environment and Natural Resources. Rep. Grijalva has sent a letter to 
the president of my university requesting a range of information, 
including my correspondence, the letter is here in PDF (http://
democrats.naturalresources.house.gov/sites/
democrats.naturalresources.house.gov/files/Roger percent20Pielke 
percent2C percent20Colorado.pdf).
    Before continuing, let me make one point abundantly clear: I have 
no funding, declared or undeclared, with any fossil fuel company or 
interest. I never have. Representative Grijalva knows this too, because 
when I have testified before the U.S. Congress, I have disclosed my 
funding and possible conflicts of interest. So I know with complete 
certainty that this investigation is a politically-motivated ``witch 
hunt'' designed to intimidate me (and others) and to smear my name.
    For instance, the Congressman and his staff, along with compliant 
journalists, are busy characterizing me in public as a ``climate 
skeptic'' opposed to action on climate change. This of course is a lie. 
I have written a book calling for a carbon tax (http://
rogerpielkejr.blogspot.com/2010/04/climate-fix.html), I have publicly 
supported President Obama's proposed EPA carbon regulations (http://
rogerpielkejr.blogspot
.com/2014/06/some-perspective-on-us-epa-carbon.html), and I have just 
published another book strongly defending the scientific assessment of 
the IPCC with respect to disasters and climate change (http://
www.amazon.com/The-Rightful-Place-Science-Disasters/dp/0692297510/
ref=sr_1_11?ie=UTF8&qid=1412174550&sr=8-11&keywords=pielke). All of 
this is public record, so the smears against me must be an intentional 
effort to delegitimize my academic research.
    What am I accused of that prompts being investigated? Here is my 
crime:

        Prof. Roger Pielke, Jr., at CU's Center for Science and 
        Technology Policy Research has testified numerous times before 
        the U.S. Congress on climate change and its economic impacts. 
        His 2013 Senate testimony featured the claim, often repeated, 
        that it is ``incorrect to associate the increasing costs of 
        disasters with the emission of greenhouse gases.''

    The letter goes on to note that John Holdren, President Obama's 
science advisor, ``has highlighted what he believes were serious 
misstatements by Prof. Pielke.'' (For background on this see here 
(http://www.newrepublic.com/article/116887/does-climate-change-cause-
extreme-weather-i-said-no-and-was-attacked) and her (http://rog
erpielkejr.blogspot.de/2014/03/john-holdrens-epic-fail.html)e.) My 2013 
testimony to the Senate is here (http://sciencepolicy.colorado.edu/
publications/special/senate
_testimony2013.html) and House is here in pdf (http://
sciencepolicy.colorado.edu/admin/publication_files/2013.38.pdf) (Q&A 
following hearing here (http://rogerpielkejr.blogspot.com/2014/01/
questions-from-congress-part-1.html) and here (http://
rogerpielkejr.blogspot.com/2014/01/questions-from-congress-part-
2.html)). The testimony was the basis for my recent book on Disasters & 
Climate Change (http://www.amazon.com/The-Rightful-Place-Science-
Disasters/dp/0692297510/).
    Congressman Grijalva doesn't have any evidence of any wrongdoing on 
my part, either ethical or legal, because there is none. He simply 
disagrees with the substance of my testimony--which is based on peer-
reviewed research funded by the U.S. taxpayer, and which also happens 
to be the consensus of the IPCC (despite Holdren's incorrect views).
    Adam Sarvana, communications director for Natural Resources 
Committee's Democratic delegation, reinforced the politically-motivated 
nature of the investigation in an interview (http://www.al.com/news/
huntsville/index.ssf/2015/02/arizona_congressman_asking_que.html):

        ``The way we chose the list of recipients is who has published 
        widely, who has testified in Congress before, who seems to have 
        the most impact on policy in the scientific community''

    Let's see--widely published, engaged with Congress, policy impact--
these are supposed to be virtues of the modern academic researcher, 
right? (Here in PDF (http://sciencepolicy.colorado.edu/admin/
publication_files/2013.32.pdf) is my view on the importance of 
testifying before Congress when asked. I still think it is important.)
    I am pleased that some colleagues with whom I have had professional 
disagreements with in the past have condemned the investigation via 
Twitter, among them Eric Steig (of Real Climate), Bob Ward (LSE) and 
Simon Donner (UBC). This shows some real class. In contrast, Michael E. 
Mann, who I defended when a Virginia politician came after him (http://
rogerpielkejr.blogspot.com/2010/07/cuccinellis-fishing-
expedition.html), used the ``investigation'' as a chance to lob 
childish insults my way via Twitter. Some things you can always count 
on in the climate arena!
    So far, I have been contacted by only 2 reporters at relatively 
small media outlets. I'd say that the lack of interest in a politician 
coming after academics is surprising, but to be honest, pretty much 
nothing surprises me in the climate debate anymore. Even so, there is 
simply no excuse for any reporter to repeat incorrect claims made about 
me, given how easy I am to find and just ask.
    The incessant attacks and smears are effective, no doubt, I have 
already shifted all of my academic work away from climate issues. I am 
simply not initiating any new research or papers on the topic and I 
have ring-fenced my slowly diminishing blogging on the subject. I am a 
full professor with tenure, so no one need worry about me--I'll be just 
fine as there are plenty of interesting, research-able policy issues to 
occupy my time. But I can't imagine the message being sent to younger 
scientists. Actually, I can: ``when people are producing work in line 
with the scientific consensus there's no reason to go on a witch hunt 
(http://www.wired.com/2015/02/anti-gmo-activist-seeks-expose-e-mails-
food-scientists/).''
    When ``witch hunts'' are deemed legitimate in the context of 
popular causes, we will have fully turned science into just another 
arena for the exercise of power politics. The result is a big loss for 
both science and politics.
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 

                              Watchdog.org

  Democrat-led witch hunt into `climate change deniers' picks up force

               Posted By M.D. Kittle On February 27, 2015

    In the left's latest assault on the First Amendment, three 
Democrats on the Senate's Committee on Environment and Public Works 
<SUP>[1]</SUP> have sent out 100 letters to free-market think tanks and 
energy companies asking them to turn over funding records related to 
any research they've conducted on climate change.
    In short, U.S. Sens. Ed Markey <SUP>[2]</SUP>, D-Massachusetts, 
Barbara Boxer,<SUP>[3]</SUP> D-California, and Sheldon 
Whitehouse,<SUP>[4]</SUP> D-Rhode Island, apostles in President Barack 
Obama's climate change war, are on another political witch hunt 
demanding donor information and other records that are protected under 
the Constitution.
    First Amendment defenders rallied to the side of the targeted 
groups, asserting the Democrats had overreached in setting up their 
enemies list, another thinly veiled quest in taxpayer-funded political 
opposition research.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <SUP>[5]</SUP> GIVE IT TO ME: Skeptical of climate change? U.S. 
Sen. Barbara Boxer, D-California, wants to know why. She's asking free-
market think tanks to turn over donor information.
    ``These folks have been trying to open the vaults of donor lists 
from all of our organizations over time. They have not been 
successful,and they are not going to be successful,'' said Kory 
Swanson, president of the John Locke Foundation <SUP>[6]</SUP>, a North 
Carolina-based free-market think tank.
    The organization received a letter <SUP>[7]</SUP> from the senators 
requesting information about ``payments made . . . in support of 
scientific research and scientists, as well as support for other 
efforts related to climate change, if such payments have been made.''
    As members of the Senate committee, the lawmakers claim they are 
interested in understanding how the organizations have ''undertaken 
such efforts and the degree to which these efforts have been publicly 
disclosed . . .''
    Their sudden interest arises following a piece in the New York 
Times that attacks, or by some accounts, ``smears,'' Wei-Hock 
``Willie'' Soon, an outspoken critic of man-made climate change.
    The piece, headlined ``Deeper Ties to Corporate cash for Doubtful 
Climate Researcher,''<SUP>[8]</SUP> uses documents obtained by 
Greenpeace showing that Soon received more than $1 million from 
ExxonMobil, Southern Company and others in his work tracking the flaws 
in climate change research.
    The story was picked up by the ''growing mega industry of climate-
alarmist blogs and organizations that receive billions of dollars from 
government agencies, tax-exempt foundations, and major corporations,'' 
according to the New American.<SUP>[9]</SUP>
    ``Following the typical smear pattern, many of the stories attempt 
to tar Dr. Soon with the 'denier' label a vicious assault aimed at 
equating (man-made climate change) skepticism with Nazi Holocaust 
denial,'' the publication states.
    Soon did not disclose his fundi.ng in his peer-reviewed study.
    The senators are going after anyone who would dare contest the 
science behind the climate change narrative.
    They want it all, and they want it now.
    In their letter,<SUP>[7]</SUP> the senators demand the past 10 
years of information from the organizations, including:

        ``Lists of funded research efforts (including but not limited 
        to grants, fellowships, scholarships, consulting contracts, 
        contracts, honoraria, and speaking events) on or related to 
        climate, climate change, global warming, environmental issues, 
        air quality, atmospheric or oceanic topics, greenhouse gas 
        emissions, associated impacts of greenhouse gas in missions, 
        carbon dioxide . . .''

    For each payment made to individuals or organizations associated 
with the funded research efforts, the senators seek:

  <bullet> Name of the recipient

  <bullet> Institutional affiliation

  <bullet> Payment and duration of the term of the funded research 
        effort

  <bullet> Reason for the payment

    Majority members of the Senate committee reportedly were sending 
out letters Friday advising the target groups that they do not have to 
comply with the senators' unconstitutional requests. Anonymous 
donations still are protected under the First Amendment.
    First Amendment expert Hans von Spakovsky called the senators\1\ 
actions ``outrageous.''
    ``This is clearly an attempt to intimidate anyone who has a 
different opinion on the issue than theirs,'' said von Spakovsky, a 
former commissioner on the Federal Election Commission and senior legal 
fellow in The Heritage Foundation's <SUP>[10]</SUP> Edwin Meese III 
Center for Legal and Judicial Studies. ``This is an abuse of power. 
Maybe these senators don't understand or don't care about the 
fundamental First Amendment rights of Americans and their membership 
organizations.''
    The demand for donor information von Spakovsky said, is no 
different than what the state of Alabama did to the NAACP in the 19sos. 
n this case, the result could be freezing out political speech by 
shutting down potential donor contributions.
    ``What these 100 organizations need to do is to get together and 
what they ought to do is send one letter signed onto by every single 
organization that says, `We're not providing you with this information 
and your attempt to get it is unconscionable,' '' he said. ``There is 
strength in numbers and they ought to stand for and push forward the 
principle that the government is not entitled to this information 
because it is a violation of their First Amendment rights.''
    Swanson said he is not overly concerned by the senators' political 
grandstanding now that he has been informed he does not have to turn 
over the targeted information. The think tank president said many 
donors do not want their identities released because of government-led 
reprisals for their beliefs.
    ``We will proceed on with our work and not get distracted by 
this,'' Swanson said.
    Article printed from Watchdog.org: http://watchdog.org
    URL to article: http://watchdog.org/203041/climate-change-senate-
first-amend
ment/
    URLs in this post:
    [1] Committee on Environment and Public Works: http://
www.epw.senate.gov/pu blic/?CFlD=130001363&CFTOKEN=17633631
    [2] Ed Markey: http://www.markey.senate.gov/
    [3] Barbara Boxer,: http://www.boxer.senate.gov/
    [4] Sheldon Whitehouse,: http://www.whitehou se.senate.gov/contact/
    [5] Image: http://watchdog.org/wp-content/blogs.dir/l/files/2015/
02/Barbara
Boxer.jpg
    [6] John Locke Foundation: http://www.john locke.org/about/
    [7] letter: http://www.markey.senate.gov/news/press-releases/
markey-boxer
whitehouse-query-fossil-fuel-companies-climate-denial-organizations-on-
science funding
    [8] ``Deeper Ties to Corporate Cash for Doubtful Climate 
Researcher,'': http://www.nytimes.com/2015/02/22/us/ties-to-corporate-
cash-for-climate-changeresearcher-Wei-Hock-Soon.html?_r=O
    [9] New American.: http://www.thenewamerican.com/tech/environment/
item/20191-nytimes-greenpeace-smear-warming-skeptic-dr-soon
[10] The Heritage Foundation's: http://www.heritage.org/about/staff/v/
        hans-vonspakovsky
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 

                The Daily Caller http://dailycaller.com

       Scientists Ask Obama To Prosecute Global Warming Skeptics

    Posted By Michael Bastasch On 4:39 PM 09/17/2015 In/No Comments

    The science on global warming is settled, so settled that 20 
climate scientists are asking President Barack Obama to prosecute 
people who disagree with them on the science behind manmade global 
warming.
    Scientists from several universities and research centers even 
asked Obama to use the Racketeer Influenced and Corrupt Organizations 
Act (RICO) to prosecute groups that ``have knowingly deceived the 
American people about the risks of climate change, as a means to 
forestall America's response to climate change.''
    RICO was a law designed to take down organized crime syndicates, 
but scientists now want it to be used against scientists, activists and 
organizations that voice their disagreement with the so called 
``consensus'' on global warming. The scientists repeated claims made by 
environmentalists that groups, especially those with ties to fossil 
fuels, have engaged in a misinformation campaign to confuse the public 
on global warming.
    ``The actions of these organizations have been extensively 
documented in peer reviewed academic research and in recent books,'' 
the scientists wrote.
    But these riled up academics aren't the first to suggest using RICO 
to go after global warming skeptics. The idea was first put forward by 
Rhode Island Sen. Sheldon Whitehouse, who argued using RICO was 
effective at taking down the tobacco industry.
    ``In 1999, the Justice Department filed a civil RICO lawsuit 
against the major tobacco companies . . . alleging that the companies 
`engaged in and executed--and continue to engage in and execute--a 
massive 50year scheme to defraud the public, including consumers of 
cigarettes, in violation of RICO,' '' Whitehouse wrote in the 
Washington Post in May.
    ``We strongly endorse Senator Whitehouse's call for a RICO 
investigation,'' the scientists wrote to Obama. ``The methods of these 
organizations are quite similar to those used earlier by the tobacco 
industry. A RICO investigation (1999 to 2006) played an important role 
in stopping the tobacco industry from continuing to deceive the 
American people about the dangers of smoking.''
    ``If corporations in the fossil fuel industry and their supporters 
are guilty of the misdeeds that have been documented in books and 
journal articles, it is imperative that these misdeeds be stopped as 
soon as possible so that America and the world can get on with the 
critically important business of finding effective ways to restabilize 
the Earth's climate, before even more lasting damage is done,'' the 
scientists added.
    This year has been a trying one for global warming skeptics. 
Earlier this year, Democratic lawmakers began an investigation into 
scientists who disagreed with the White House's stance on global 
warming. Many of these skeptical scientists were often cited by those 
critical of regulations to curb greenhouse gas emissions.
    Arizona Democratic Rep. Raul Grijalva went after universities 
employing these researchers, which resulted in one expert being forced 
to get out of the field of climate research altogether.
    ``I am simply not initiating any new research or papers on the 
topic and I have ringfenced my slowly diminishing blogging on the 
subject,'' Dr. Roger Pielke Jr. of the University of Colorado wrote on 
his blog.
    ``Congressman Grijalva doesn't have any evidence of any wrongdoing 
on my part, either ethical or legal, because there is none,'' Pielke 
wrote. ``He simply disagrees with the substance of my testimony--which 
is based on peerreviewed research funded by the U.S. taxpayer, and 
which also happens to be the consensus of the IPCC (despite Holdren's 
incorrect views).''
                                 ______
                                 

                          Washington Examiner

           EPA chief says climate change deniers not `normal'

              By John Siciliano <bullet>  6/23/15 7:26 PM

    The head of the Environmental Protection Agency appeared to hurl 
barbs at Congress on Tuesday, referring to an unnamed group of climate 
change ``deniers'' who aren't ``normal'' and who won't ``carry the 
day'' in a democracy.
    EPA Administrator Gina McCarthy made the comments while addressing 
a climate change summit at the White House Tuesday to frame the effects 
of global warming on public health.
    McCarthy said a report her agency released Monday makes the case 
for taking action against climate change by calculating the price 
Americans will pay for not taking action, including the thousands of 
lives lost due to global warming and the impact felt on the economy.
    She said the EPA put out the report ``not to push back against 
climate deniers,'' but to help ``normal people'' make a decision about 
the kind of world they and their children want to live in.
    ``I've batted my head against the wall too many times'' trying to 
convince climate change deniers that global warming is occurring, she 
said. ``You can have fun doing that if you want,'' but ``if the science 
hasn't already changed their mind then it never will.''
    She said she is convinced that the climate deniers will not win in 
the campaign to address global warming. ``In a normal democracy, it is 
not them that carries the day,'' McCarthy said. ``It is normal human 
beings that haven't put their stake into politics above science.''
    ``It's normal human beings that want us to do the right thing,'' 
she added. ``And we will.''
    Her comments were being made around the same time Republican Sen. 
Shelley Moore Capito of West Virginia was holding a hearing on the harm 
the EPA's Clean Power Plan poses to energy producer states and small 
businesses. The EPA plan is the centerpiece of President Obama's plan 
to address climate change by curbing emissions from existing power 
plants.
    ``We are going to get our Clean Power Plan out. It is going to 
happen,'' McCarthy told those attending the summit, which included a 
broad range of public health advocates and environmentalists.
    The climate summit follows another last week to announce $4 billion 
in private investment to develop renewable energy and other low mission 
technologies. Observers say the summits are being used to push the 
issue of climate change ahead of the Clean Power Plan being issued in 
August.
    Yet at the same time, the House is preparing to pass legislation as 
soon as Wednesday that would delay implementation of the plan. The 
House measure would give states the ability to opt out of the rules, 
while allowing them to forego compliance until judicial review has 
concluded.
    In the Senate, Capito said that companion legislation she 
introduced in May continues to gain strength. Capito said she is 
``proud to have more than 30 cosponsors,'' including Majority Leader 
Mitch McConnell, R-Ky., and Energy and Public Works Committee Chairman 
James Inhofe, R-Okla.
                                 ______
                                 

                The Daily Caller http://dailycaller.com

       Another Global Warming Skeptic Gets Suspended From Twitter

    Posted By Michael Bastasch On 2:14 PM 04/02/2015 In/No Comments

    For the second time within two weeks, another global warming 
skeptic blogger has had his Twitter account suspended, this time 
repeating profanity used by a NASA climate scientist--and no the 
scientist did not get his account suspended.
    On April 1st, Twitter locked the account of science blogger Tom 
Nelson, who runs the blog the ``Hockey Schtick.'' Twitter told Nelson 
to delete a tweet that contained the word--are you ready for it?--
``crap'' or else his account would not be unlocked. Nelson then posted 
the ``Delete Tweet'' screen to his blog, after which Twitter promptly 
suspended his account. As of April 2nd, Nelson's account was still 
suspended.
    Interestingly enough, Nelson was simply repeating a word used by 
NASA climate scientist Gavin Schmidt who tweeted at Nelson that [graph] 
is crap as I've frequently pointed out. The temperature is hand drawn. 
Not even you can take it seriously, surely?''
    Nelson tweeted back on March 22nd ``is this graph crap too?'' About 
a week and a half later, Twitter locked his account and the suspended 
it. But Gavin Schmidt's account has not been suspended--which has 
raised the ire of other global warming skeptics and conservative 
pundits on Twitter.
    ``If calling a graph `crap' is grounds for suspension, why isn't 
@ClimateofGavin suspended?'' Nelson asked on his blog.
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ea0cecde2e7e3effaebc1e8c9eff8e7e0">[email&#160;protected]</a> You wouldn't happen to know why @twitter 
``suspended'' another climate dissident, Tom Nelson @tan123? 
#BigClimateEnforcers?
--Mark Steyn (@MarkSteynOnline) April 1, 2015
    Nelson's suspension comes within two weeks of Twitter suspending 
global warming skeptic Steven Goddard, a noted blogger who has been 
labelled as a ``denier'' by environmentalists.
    Goddard, a pseudonym he blogs under, was suspended for violating 
Twitter's rules. goddard had been previously warned by Twitter of that 
other users had accused him of ``nonviolent threats'' and ``abusive 
behavior.'' Goddard denied these accusations.
    ``I have never violated any Twitter rules, and Twitter has failed 
to respond to my requests to provide any details,'' Goddard said.
    Both Goddard and Nelson have been highly critical of views human 
activity is causing the planet to warm at an alarming rate. 
InsideClimate News even featured Goddard on its ``Who's Who List of 
Climate Denialists''--list put together by environmentalists of global 
warming ``deniers'' targeted by e-mail hackers.
    But Twitter's actions against the bloggers seem to come from 
complaints by other Twitter users. Indeed, Nelson's account was locked 
about a week and a half after he used the word ``crap'' in a tweet. 
Some in the skeptic community have suggested climate scientists and 
environmental activists are complaining to get skeptic's account 
suspended.
    Indeed, Penn State University climate scientist Michael Mann has 
threatened ``trolls'' with being reported and blocked if they 
interrupted an #AskDrMann session on Twitter.
    But Twitter doesn't disclose such information. So any accusations 
of who is behind getting skeptics' account suspended is speculative at 
this moment.

    Senator Cruz. I am also going to enter into the record the 
op-ed that Senator Whitehouse wrote calling for RICO criminal 
prosecution of anyone who dares stand in the way of the 
political ideology that hurts working men and women.
    [The information referred to follows:]

                     The Washington Post--Opinions

 ``The fossil-fuel industry's campaign to mislead the American people''

                   By Sheldon Whitehouse May 29, 2015

Sheldon Whitehouse, a Democrat, represents Rhode Island in the Senate.

    Fossil fuel companies and their allies are funding a massive and 
sophisticated campaign to mislead the American people about the 
environmental harm caused by carbon pollution.
    Their activities are often compared to those of Big Tobacco denying 
the health dangers of smoking. Big Tobacco's denial scheme was 
ultimately found by a Federal judge to have amounted to a racketeering 
enterprise.
    The Big Tobacco playbook looked something like this: (1) pay 
scientists to produce studies defending your product; (2) develop an 
intricate web of PR experts and front groups to spread doubt about the 
real science; (3) relentlessly attack your opponents.
    Thankfully, the government had a playbook, too: the Racketeer 
Influenced and Corrupt Organizations Act, or RICO. In 1999, the Justice 
Department filed a civil RICO lawsuit against the major tobacco 
companies and their associated industry groups, alleging that the 
companies ``engaged in and executed--and continue to engage in and 
execute--a massive 50-year scheme to defraud the public, including 
consumers of cigarettes, in violation of RICO.''
    Tobacco spent millions of dollars and years of litigation fighting 
the government. But finally, through the discovery process, government 
lawyers were able to peel back the layers of deceit and denial and see 
what the tobacco companies really knew all along about cigarettes.
    In 2006, Judge Gladys Kessler of the U.S. District Court for the 
District of Columbia decided that the tobacco companies' fraudulent 
campaign amounted to a racketeering enterprise. According to the court: 
``Defendants coordinated significant aspects of their public relations, 
scientific, legal, and marketing activity in furtherance of a shared 
objective--to . . . maximize industry profits by preserving and 
expanding the market for cigarettes through a scheme to deceive the 
public.''
    The parallels between what the tobacco industry did and what the 
fossil fuel industry is doing now are striking.
    In the case of fossil fuels, just as with tobacco, the industry 
joined together in a common enterprise and coordinated strategy. In 
1998, the Clinton administration was building support for international 
climate action under the Kyoto Protocol. The fossil fuel industry, its 
trade associations and the conservative policy institutes that often do 
the industry's dirty work met at the Washington office of the American 
Petroleum Institute. A memo from that meeting that was leaked to the 
New York Times documented their plans for a multimillion-dollar public 
relations campaign to undermine climate science and to raise 
``questions among those (e.g., Congress) who chart the future U.S. 
course on global climate change.''
    The shape of the fossil fuel industry's denial operation has been 
documented by, among others, Drexel University professor Robert Brulle. 
In a 2013 paper published in the journal Climatic Change, Brulle 
described a complex network of organizations and funding that appears 
designed to obscure the fossil fuel industry's fingerprints. To quote 
directly from Brulle's report, it was ``a deliberate and organized 
effort to misdirect the public discussion and distort the public's 
understanding of climate.'' That sounds a lot like Kessler's findings 
in the tobacco racketeering case.
    The coordinated tactics of the climate denial network, Brulle's 
report states, ``span a wide range of activities, including political 
lobbying, contributions to political candidates, and a large number of 
communication and media efforts that aim at undermining climate 
science.'' Compare that again to the findings in the tobacco case.
    The tobacco industry was proved to have conducted research that 
showed the direct opposite of what the industry stated publicly--
namely, that tobacco use had serious health effects. Civil discovery 
would reveal whether and to what extent the fossil fuel industry has 
crossed this same line. We do know that it has funded research that--to 
its benefit--directly contradicts the vast majority of peer-reviewed 
climate science. One scientist who consistently published papers 
downplaying the role of carbon emissions in climate change, Willie 
Soon, reportedly received more than half of his funding from oil and 
electric utility interests: more than $1.2 million.
    To be clear: I don't know whether the fossil fuel industry and its 
allies engaged in the same kind of racketeering activity as the tobacco 
industry. We don't have enough information to make that conclusion. 
Perhaps it's all smoke and no fire. But there's an awful lot of smoke.

    Senator Cruz. The hearing record is going to remain open 
for 2 weeks. During this time, Senators are asked to submit any 
questions for the record, and upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible.
    I want to thank the witnesses for being here. I want to 
thank you for the time in preparing your testimony.
    And with that, this hearing is adjourned.
    [Whereupon, at 5:52 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Admiral David Titley
Issue: Climate Change and Refugees
    Question 1. The globe is currently facing a refugee crisis as 
innocent civilians are being forced to flee war-torn areas like Syria 
in an attempt to find safety. There are now 4.2 million registered 
refugees spread across Turkey, Lebanon, Egypt, Iraq, and Jordan.
    Climate scientists hold that as climate change worsens, global 
crises of mass population displacements can increase. As droughts 
become more severe or as the sea level continues to rise and puts at 
risk coastal communities and settlements, millions of people can end up 
displaced because of drinking water shortages, crop shortages, and 
retreating land.
    Not only will there the issue of resettling millions of displaced 
people, but as resources grow more scarce, conflict becomes more 
likely.
    Thirty governors have declined to accept refugees as people are now 
fleeing the violence of ISIS. Yet, many of the same people who argue 
against opening our borders to refugees refuse to take action to 
mitigate and reverse climate change.
    Can you speak to how significant of an issue displacement may 
become if we do not take steps to address climate change?
    Answer. Climate refugees, although not a formally recognized term, 
will become an increasingly urgent problem for the world to deal with. 
Whether people are forced from their land due to rising seas and storm 
surges, salt-water contamination of fresh water supplies, or are no 
longer able to grow food for their families and communities due to a 
combination of increased heat or drought, they will move. They will 
then be either ``internally displaced'' refugees within their own 
country or international refugees. These problems will almost certainly 
be worse and most severe in regions where there is already poor 
governance, endemic corruption, and existing ethnic strife. Syria today 
is a tragic example, and ominously a window to a future where this 
challenge is ignored.

    Question 2. How serious are the Departments of Defense and Homeland 
Security taking this potential future risk as a result of climate 
change?
    Answer. This administration has taken the risk of climate change 
seriously as part of its duties. The risks of climate change are 
prominently acknowledged in the highest strategy documents of these 
departments. In addition, in January 2016 the Department of Defense 
issued a ``Department of Defense Directive'' http://www
.dtic.mil/whs/directives/corres/pdf/471521p.pdf that gives very 
specific guidance to the Under and Assistant Secretaries of Defense, 
the Services, Combatant Commanders and the Joint Staff as to their 
duties and responsibilities with respect to addressing climate risk and 
security. For more details, see: https://climate
andsecurity.org/2016/01/20/new-dept-of-defense-directive-on-climate-
security/

    Question 3. I imagine that because of the grave responsibility of 
national security these two departments are charged with upholding, any 
official position they take has been well researched and reviewed. Can 
you speak to how well researched the DOD and DHS's predictions as a 
result of climate change are and how reliable their science is?
    Answer. Both the DOD and DHS rely on the scientific enterprise's 
collective knowledge, judgment and wisdom. This knowledge is best 
summarized in the U.S. National Academy of Science's body of work on 
climate change (http://nas-sites.org/americasclimatechoices/sample-
page/panel-reports/), the National Climate Assessment (http://
nca2014.globalchange.gov/), and the fifth assessment report of the 
Intergovernmental Panel on Climate Change (https://www.ipcc.ch/report/
ar5/). In addition, specific NASA, NOAA, Department of Energy, U.S. 
Geological Survey, academic, intelligence community and other technical 
assets are consulted as required.
Issue: Climate Change Considerations at DOD
    Question 4. In addition to the rise in regional instability across 
the globe and the potential to exacerbate the displacement of 
significant populations of people, climate change has the potential to 
pose other national security risks like threats to military 
installations.
    The Department of Defense has done extensive climate research and 
is also taking steps to increase its use of alternative fuels and 
further its research into alternate fuel resources to reduce its carbon 
foot print.
    The DOD has also taken several steps to incorporate climate 
mitigation into its planning. In a statement from this July, the 
department stated that ``the ability of the United States and other 
countries to cope with the risks and implications of climate change 
requires monitoring, analysis and integration of those risks into 
existing overall risk management measures, as appropriate for each 
combatant command.''
    What are some other national security risks that the DOD warns of 
if climate change isn't mitigated?
    Answer. Please refer to the CNA Military Advisory Board reports of 
2007 https://www.cna.org/CNA_files/pdf/
National%20Security%20and%20the%20Threat%20of
%20Climate%20Change.pdf and 2014 https://www.cna.org/CNA_files/pdf/MAB_
5-8-14.pdf.
    In summary the risks are:

  <bullet> changes in the Arctic for which we are not prepared

  <bullet> climate threats to DOD and critical civilian infrastructure 
        upon which our military and economic security reside. Climate 
        threats include:

    <ctr-circle> rising sea levels and attendant storm surges;

    <ctr-circle> drought and excessive heat impacting a base's 
            operating capacity;

    <ctr-circle> direct or indirect threat from wildfires

  <bullet> increase in the ``demand signal'' for world-wide 
        Humanitarian Assistance and Disaster Relief (HA/DR) missions. 
        While the U.S. military conducts HA/DR missions in a very 
        capable and professional manner, a significant increase in 
        these missions has the potential to disrupt training and 
        capacity for higher-end war-fighting missions that can only be 
        accomplished by the U.S. military.

  <bullet> Increase in the geo-strategic threats, where climate is not 
        the sole cause of instability, but, like a link in a chain, is 
        one of the reasons a region or nation tips into chaos and 
        extremism, with unpredictable and unknown security and 
        stability consequences.

    Question 5. What has been the extent of its efforts to reduce its 
carbon footprint and transition to cleaner fuels?
    Answer. Please refer to Mr. John Conger's 3 March 2015 written 
testimony before the House Appropriations Committee, pgs 11-13 and pgs 
19-23. http://docs.house
.gov/meetings/AP/AP18/20150303/103047/HHRG-114-AP18-Wstate-CongerJ-2015
0303.pdf

    Question 6. In your testimony, you spoke to the risk management 
approach to addressing climate change recommended by the CNA Military 
Advisory Board, a panel of former three and four star generals. How 
concerned is the DOD with climate change and how much is it built into 
future planning?
    Answer. Please see my previous answer regarding the DOD's concern 
for climate change. In my personal opinion, the leadership has done a 
good job of balancing and addressing this long-term, strategic risk 
with the shorter-term crises that the DOD must always handle. The 
issuance by Deputy Secretary Work of the DOD Directive on climate 
change in January 2016 is a good example of their commitment to 
addressing this risk.
Issue: Negative Economic Impact of Climate Change as Indicated by 
        Connecticut-originated Research
    Question 7. The NOAA Northeast Fisheries Research Lab in Milford, 
CT has demonstrated that ocean acidification is one of the greatest 
risks to the healthy development of shellfish like clams and oysters. I 
constantly hear from my state's aquaculture and shellfish harvesting 
communities that they are catching smaller and more underdeveloped 
shellfish by the year as acidification hinders the calcification 
process necessary to produce a strong and robust shell.
    The University of Connecticut has also been pioneering a lot of 
sound and reliable climate science. One study, conducted by Dr. Baumann 
of UConn, investigates the impact of climate change on coastal marine 
fishes. His most recent NSF and NOAA funded study on the Atlantic 
silverside, a common fish in eastern North America and a source of food 
for commercially important fish species like bluefish and striped bass, 
showed that high levels of carbon dioxide are likely to severely impact 
the larvae of this species in years to come. This will likely have a 
cascading effect to the fish that rely on them as a food source, which 
in turn will have a negative impact on the commercial fishing industry.
    As climate deniers continue to do the bidding of the fossil fuel 
industry, protecting the profits of big oil and gas interests, what 
will the impact be on other industries that will be harmed by climate 
change, like the aquaculture and commercial fishing industries?
    Answer. While some select industries may temporarily benefit from 
delaying action on climate change, particularly those connected with 
extracting, transporting or burning fossil fuel assets, many industries 
and communities will be negatively impacted from the changes in 
climate. The impacts may be direct, as your constituents in the 
aquaculture industry have relayed to you, or indirect, in that 
taxpayers will ultimately shoulder the cost of combatting sea-level 
rise, higher food prices, and increased health risks, to name a few.

    Question 8. Won't most of the economy be negatively impacted by 
climate change? Won't the short-sighted denial of climate change really 
only benefit one industry at the detriment of everyone else?
    Answer. Yes sir. The number of industries that benefit directly 
from delaying action are small in number compared to those who are 
seeing adverse effects.
Issue: Sea Level Rise in the Long Island Sound
    Question 9. The Long Island Sound Study (LISS), a federal, state 
partnership between the EPA, Connecticut, and New York that monitors 
water quality and changes in the climate in the Long Island Sound, has 
been recording changes in sea level rise in the Sound for decades--
since 1932 in Kings Point, NY and since 1967 in Bridgeport, CT.
    What LISS has found is that the sea level in the Sound has been 
steadily increasing due to warming temperatures causing the water 
molecules in the Sound to expand, consistent with global findings. 
However, what scientists monitoring the Long Island Sound have also 
discovered is that sea level rise is over 50 percent higher than the 
global average over the same timeframe. This seems to indicate that as 
warming continues, the regions surrounding the Sound are especially 
vulnerable to flooding, storm surges, and other consequences of rising 
ocean levels.
    Additionally, research by Dr. Lisa Park Boush of UConn shows that 
although hurricane frequency is tied to El Nino, it is also influenced 
by global climate change.
    Hurricane Sandy devastated the coast of Connecticut. These storms 
are only becoming more extreme. If we do not take action to curb 
climate change, what type of damage are areas like the Connecticut 
coast in for, where they are especially sensitive to rising sea levels?
    Answer. I think your local experts are best qualified to talk about 
the specifics of damage to the Connecticut coastline. We do understand 
though, that hurricanes in the northeast U.S. are likely to become 
stronger, and that those storm-surges will come in on top of an ever-
rising sea level. Please see the recent article published in the 
Proceedings of the National Academy of Science by my colleagues Andra 
Reed and Michael Mann and others: http://www.ncbi.nlm.nih.gov/pmc/
articles/PMC
4611656/ for details on the increased threat to the coastline.

    Question 10. Communities along the coast are still rebuilding. 
Small businesses are implementing resiliency plans, efforts are 
underway to restore historic structures damaged in the storm, and 
aquaculture beds are recovering. The economic impact of the storm was 
nothing short of devastating. What are the economic risks associated 
with rising sea levels?
    Answer. They will of course be very significant. I often use as a 
point of reference how much more money the Netherlands believes they 
need to invest in their sea-level defenses, already seen as the best in 
the world, will need to invest an additional $150B by 2100. http://
www.wired.com/2008/12/ff-dutch-delta/ For scale, the length of Dutch 
coastline is roughly equivalent to the coasts of Massachusetts and 
Connecticut, combined. One way or another, we are all going to pay this 
carbon tax, either in preparations and fortifications of our coast--or 
in economic disruption and devastation if we do not.

    Question 11. Some in the climate denial camp point to deviations in 
temperature in the atmosphere's tropospheric level--the lowest level of 
the atmosphere--as indication that the verdict is still out on climate 
change. Can you explain why measurements like sea level rise give a 
better indication of climate change than variations in tropospheric 
temperatures?
    Answer. Please see my response to Sen. Markey's QFR on this same 
topic.
Issue: The Importance of Funding Geo and Climate Science
    Question 12. As a member of the Commerce, Science, and 
Transportation Committee, I have had the opportunity to meet with and 
hear issues of importance from climate and geo-scientists from 
Connecticut. These scientists specialize in researching how our climate 
works, how the Earth responds to different climate patterns, and how 
our climate is currently changing.
    One recurring theme that I continue to hear from scientists from 
around Connecticut, whether it is from climatologists at UConn or 
researchers at Wesleyan and Yale, is that they are worried about the 
threatened Federal funding for geosciences. Funding proposals that have 
come from the House or supported by the other side of the aisle 
undervalue the significance of this important science field.
    Geoscience and climate science is how we understand what is 
happening to the Earth's climate systems, and if this field is 
undermined, we cannot adequately prepare for changes we might 
encounter.
    What are some of the consequences we can expect if we do not 
adequately fund these science disciplines?
    Answer. This letter, signed by many Universities, including Penn 
State, and scientific organizations, explains both the benefits to 
funding and consequences of not funding very well: https://
www.ametsoc.org/ams/index.cfm/about-ams/ams-formal-letters-of-support/
joint-letter-supporting-nsf-geosciences/

    Question 13. Do you believe there is a multiplier effect for 
investing in geo and climate science? As we develop new technologies or 
ways to fend off the costs of climate change, don't our investments pay 
off in greater returns?
    Answer. Yes sir.

    Question 14. Given the importance of these science disciplines, 
what possible explanation is there for cutting funding in this area?
    Answer. I do not believe that credible arguments can be made to 
dis-invest in this area of science. We only have one Earth on which to 
live and base our economy. It's in everyone's interest to have the 
greatest possible understanding of, and predictions about, our home 
planet for the benefit of all.
Issue: Climate Sensitivity to CO<INF>2</INF> and Time Scales
    Question 15. There seems to be a broad consensus on the correlation 
between CO<INF>2</INF> in the atmosphere and the average temperature of 
the planet. Climate scientists at Wesleyan produced a research paper in 
which they studied past states of the climate and found strong 
correlations between low CO<INF>2</INF> levels and lower temperatures 
and higher CO<INF>2</INF> levels and higher temperatures.
    This research was backed up by findings that researchers at Yale 
contributed to, which studied climate sensitivity to CO<INF>2</INF> and 
also determined that the best indicators were revealed over long time 
periods on the scale of centuries or millennia.
    How well do we understand the correlation between CO<INF>2</INF> 
and temperature? How confident is the scientific community in idea that 
high levels of CO<INF>2</INF> in the atmosphere contribute to a warming 
climate? Isn't this concept very well understood and widely 
acknowledged?
    Answer. Yes, sir, there is extremely high confidence in this 
relationship. The following article from the ``American Institute of 
Physics'' https://www.aip.org/history/climate/co2.htm describes our 
scientific understanding of Greenhouse Gases, beginning with Joseph 
Fourier's work in the 1820s. I know of no credible climate scientist 
who disputes this fundamental relationship.

    Question 16. Can you speak to the importance of taking measurements 
over long periods of time when attempting to understand climatic 
changes? Why might shorter time periods that many climate skeptics use 
be misleading when compared to long-term studies?
    Answer. Please see my response to Sen. Markey's QFR where I 
describe ``internal variability'', ``external forcing'' and ``manmade 
forcing'' on the climate system. Over short time periods, internal and 
external forcing can counteract the manmade increase in greenhouse 
gases, but over the long term the interval variability just becomes 
``noise'' and any changes in the sun and greenhouse gasses become the 
``signal''. NASA and many others have measured the sun's energy 
reaching the earth to see if it is the reason for our warming 
temperatures--it is not. In fact, the sun's energy has decreased 
slightly over the past several decades, leaving greenhouse gases (and 
supported by over 150 years of theory) as the reason for our warming 
climate.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                          Admiral David Titley
    Question 1. Does the natural variability of the climate system in 
the past, like the episodic cool periods that occurred in the northern 
hemisphere during the so-called ``Little Ice Age'' and may have 
impacted the Pilgrim colony at Plymouth Rock, affect in any way our 
understanding of how greenhouse gases, such as carbon dioxide released 
from the burning of fossil fuels, are affecting the climate system now? 
Please explain.
    Answer. Climate change can be forced by multiple different external 
factors: reduced sunlight, either because of changes in the sun's orbit 
or intensity, or an increase in volcanic eruptions can cool the planet. 
Conversely, increases in the sun's intensity, a relative minimum in 
volcanic activity, or an increase in greenhouse gas (GHG) concentration 
can warm the planet. Through research, we understand the so-called 
`Little Ice Age' reflected a decrease in the sun's energy reaching 
Earth and also relatively high volcanic activity. Today we also 
understand with extremely high confidence why our climate is warming: 
the overwhelming driver for sustained warming is the increase in GHG 
concentration in the atmosphere. Scientists began to understand this 
effect as early as the middle of the 19th Century, and by the 1950s the 
theory was well established and well accepted. With the advent of 
Keeling's CO<INF>2 </INF>measurements atop Mauna Loa in Hawaii, we have 
a continual record of the increase in GHG that correlates with the 
increase in global surface temperatures. (See Fig. 3, page 8, in my 
written testimony submitted for this hearing). While correlation per se 
does not equate to causation, the theory is well understood and science 
has systematically ruled out other reasons (primarily an increase in 
incoming energy from the sun) that would cause the Earth to warm so 
rapidly in such a short period of time.

    Question 2. In the attached peer-review article by Richard Muller 
and his Berkeley Earth group's independent assessment of temperatures 
found temperature to have increased 2.7 +F in the last 250 years, with 
1.6 +F of that rise occurring in the last 50 years. They find that the 
temperature changes can be explained by human greenhouse gas emissions 
and volcanoes, but not solar forcing. They also disclose their funding 
sources, one of which is the Charles G. Koch Charitable Foundation. Are 
the findings of this paper comparable to the scientific consensus that 
global temperatures are rising and that human are causing it?
    Answer. Yes, the paper by Muller et. al. is broadly consistent with 
the scientific consensus that human-induced GHG increases are 
responsible for the overwhelming increase in 20th Century surface 
temperature increase. Although partially funded by the Charles G. Koch 
Charitable Foundation, Muller et. al. appear to have processed the data 
correctly, and have obtained basically the same answer as NASA, NOAA, 
the UK Met Office, the Japanese Meteorological Agency, and other 
reputable organizations who have studied this issue. Interestingly, 
Exxon-Mobil (then Esso) also reached this same conclusion back in the 
late 1970s and early 1980s. See Fig. 4, page 9 of my written testimony 
submitted for this hearing.

    Question 3. During the hearing Dr. Curry claimed that the IPCC and 
the scientific consensus have no explanation for the increase of ice in 
the Antarctic. Can you comment on the scientific community's current 
understanding of changes in Antarctic land and sea ice and how they 
relate to anthropogenic climate change?
    Answer. While the expansion of Antarctic Sea ice is still a topic 
of active research, it would be incorrect to that that science has ``no 
explanation'' for this phenomenon. A good summary of our state of 
knowledge can be found at: https://www
.skepticalscience.com/increasing-Antarctic-Southern-sea-ice-
intermediate.htm

        ``If the Southern Ocean is warming, why is sea ice increasing? 
        There are several contributing factors. One is the drop in 
        ozone levels over Antarctica. The hole in the ozone layer above 
        the South Pole has caused cooling in the stratosphere (Gillet 
        2003). A side-effect is a strengthening of the cyclonic winds 
        that circle the Antarctic continent (Thompson 2002). The wind 
        pushes sea ice around, creating areas of open water known as 
        polynyas. More polynyas leads to increased sea ice production 
        (Turner 2009).

        Another contributor is changes in ocean circulation. The 
        Southern Ocean consists of a layer of cold water near the 
        surface and a layer of warmer water below. Water from the 
        warmer layer rises up to the surface, melting sea ice. However, 
        as air temperatures warm, the amount of rain and snowfall also 
        increases. This freshens the surface waters, leading to a 
        surface layer less dense than the saltier, warmer water below. 
        The layers become more stratified and mix less. Less heat is 
        transported upwards from the deeper, warmer layer. Hence less 
        sea ice is melted (Zhang 2007).

        Antarctic sea ice is complex and counter-intuitive. Despite 
        warming waters, complicated factors unique to the Antarctic 
        region have combined to increase sea ice production. The 
        simplistic interpretation that it's caused by cooling is 
        false.''

    Question 4. During the hearing Dr. Curry claimed that the IPCC 
report has no explanation for the fact that the rate of sea level rise 
from 1920 to 1950 was large. Please describe the trends in sea level 
rise from 1920 to today and what is known about how they relate to 
anthropogenic climate change.
    Answer. Dr. Curry's question ignores the broader implications of an 
ever-rising sea level. Although this reference http://
www.skepticalscience.com/Sea-level-rise-the-broader-picture.html is 
nearly six years old, it provides a good overview and shows that sea 
level rise in the period from 1920-1950 was not anomalous.

        ``Sea level rises as ice on land melts and as warming ocean 
        waters expand. Sea level rise mutually corroborates other 
        evidence of global warming as well as being a threat to coastal 
        habitation and environments.

        The blue line in the graph below clearly shows sea level as 
        rising, while the upward curve suggests sea level is rising 
        faster as time goes on. The upward curve agrees with global 
        temperature trends and with the accelerating melting of ice in 
        Greenland and other places.

        Because the behavior of sea level is such an important 
        diagnostic aid for tracking climate change, skeptics seize on 
        the sea level record in an effort to cast doubt on this 
        evidence. Sea level bounces up and down slightly from year to 
        year so it's possible to cherry-pick data falsely suggesting 
        the overall trend is flat, falling or linear. You can try this 
        yourself. Starting with two closely spaced data points on the 
        graph below, lay a straight-edge between them and notice how 
        for a short period of time you may create almost any slope you 
        prefer, simply by being selective about what data points you 
        use. Now choose data points farther apart. Notice that as your 
        selected data points cover more time, the more your mini-graph 
        reflects the big picture. The lesson? Always look at all the 
        data, don't be fooled by selective presentations.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    (graph from Church 2008)

        Other skeptic arguments about sea level concern the validity of 
        observations, obtained via tide gauges and more recently 
        satellite altimeter observations.

        Tide gauges must take into account changes in the height of 
        land itself caused by local geologic processes, a favorite 
        distraction for skeptics to highlight. Not surprisingly, 
        scientists measuring sea level with tide gauges are aware of 
        and compensate for these factors. Confounding influences are 
        accounted for in measurements and while they leave some noise 
        in the record they cannot account for the observed upward 
        trend.

        Various technical criticisms are mounted against satellite 
        altimeter measurements by skeptics. Indeed, deriving 
        millimeter-level accuracy from orbit is a stunning technical 
        feat so it's not hard to understand why some people find such 
        an accomplishment unbelievable. In point of fact, researchers 
        demonstrate this height measurement technique's accuracy to be 
        within 1mm/year. Most importantly there is no form of residual 
        error that could falsely produce the upward trend in 
        observations.

        As can be seen in an inset of the graph above, tide gauge and 
        satellite altimeter measurements track each other with 
        remarkable similarity. These two independent systems mutually 
        support the observed trend in sea level. If an argument depends 
        on skipping certain observations or emphasizes uncertainty 
        while ignoring an obvious trend, that's a clue you're being 
        steered as opposed to informed. Don't be mislead by only a 
        carefully-selected portion of the available evidence being 
        disclosed.

        Current sea level rise is after all not exaggerated, in fact 
        the opposite case is more plausible. Observational data and 
        changing conditions in such places as Greenland suggest if 
        there's a real problem here it's underestimation of future sea 
        level rise. The IPCC synthesis reports offer conservative 
        projections of sea level increase based on assumptions about 
        future behavior of ice sheets and glaciers, leading to 
        estimates of sea level roughly following a linear upward trend 
        mimicking that of recent decades. In point of fact, observed 
        sea level rise is already above IPCC projections and strongly 
        hints at acceleration while at the same time it appears the 
        mass balance of continental ice envisioned by the IPCC is 
        overly optimistic (Rahmstorf 2010).''

    More to the point, the rate of sea level rise is accelerating, as 
shown in recent papers summarized by Climate Central http://
www.climatecentral.org/news/study-reveals-acceleration-of-sea-level-
rise-20055 and researchers at Penn State http://news.psu.edu/story/
400758/2016/03/30/research/sea-level-rise-antarctic-ice-sheet-could-
double?utm_source=newswire&utm_medium=e-mail&utm_term=401922_
HTML&utm_content=04-04-2016-16-55&utm_campaign=daily%20newswire These 
are the real risks to our society--not dissecting the noise in the sea 
level record from over half a century in the past.

    Question 5. Climate change deniers have often pointed to a hiatus 
or pause in warming since 2000. However, the attached peer-reviewed 
study by Thomas Karl et. al. shows that newly corrected and updated 
global surface temperatures from NOAA's NCEI do not support a global 
warming ``hiatus'' and that there is no discernable decrease in the 
rate of warming between the second half of the 20th century and the 
first 15 years of the 21st century. From your review of the latest 
scientific evidence, do you agree that the global temperatures have 
continued to rise over the past 15 years? Also, please address the 
scientific problem with making conclusions about climate change based 
on short-term trends.
    Observed climate change is the net result of `internal variability' 
(analogous to changes in water level that's sloshing about in a shallow 
pan; no water is added or lost, but the height of the water (or 
temperature in case of the earth) bounces up and down--but the average 
does not change over time), external forcing (e.g., changes in the 
sun's energy reaching the earth, changes in the number and intensity of 
volcanic eruptions), and man-made forcing (primarily addition of 
greenhouse gasses but also by the addition of very small particles 
(aerosols) that tend to have a net cooling on the planet). Sometimes 
these forces all act in the same direction at the same time--at other 
times they can oppose one another. Michael Mann and colleagues have 
published convincing peer-reviewed research (summarized here: http://
www.realclimate.org/index.php/archives/2015/02/climate-oscillations-
and-the-global-warming-faux-pause/) that shows the `internal 
variability' of the climate system has been counter-acting much but not 
all of the continuing warming caused by the man-made addition of GHG to 
the atmosphere. Despite such temporary cooling factors, overall 
temperatures have continued to rise. You can see this in Figure 3 (page 
8) of my written testimony submitted for this hearing. In addition the 
World Meteorological Organization (WMO) has a chart of temperatures 
averaged over every decade starting from 1890 (here's the source: 
http://library.wmo.int/pmb
_ged/wmo_1119_en.pdf)
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
     Response to Written Question Submitted by Hon. Gary Peters to 
                          Admiral David Titley
    Question. Dr. Titley, there were a number of claims made in the 
hearing that run counter to scientific findings and conclusions. Some 
examples include claims about carbon dioxide and its effect on plant 
life and agriculture, the historical abundance of CO<INF>2</INF> in the 
atmosphere, the so called warming ``hiatus'' and the relative value of 
satellite and balloon data versus direct measurements, sea level rise, 
and inconsistency of model predictions and measured observations.
    Could you please briefly address any false or misleading claim not 
already covered in your testimony, and also please provide references 
to quality, peer-reviewed scientific publications that dispute these 
false or misleading claims?
    Answer. Senator, I addressed the recent temperature record and sea-
level rise issues in my QFR's in response to Senator Markey. The single 
most comprehensive source to the issues you raise is in the Fifth 
Assessment Report (AR5) of the Intergovernmental Panel on Climate 
Change (IPCC). http://www.ipcc.ch/ This report summarizes and 
synthesizes the body of peer-reviewed research and addresses what we 
do--and do not know--about our changing climate, and the degree of 
confidence to which we understand specific aspects of climate change. 
If there is a fault of the IPCC process, it's a consensus body of the 
world's nations, so its conclusions are that of a `least common 
denominator' agreed to by all. If the IPCC reports are wrong, it's 
because the climate is changing faster than the consensus body of 
literature would indicate, and that the `fat tail' risks are 
underestimated.
    For a detailed accounting of how drastically over-simplified and 
false the argument that ``more CO<INF>2 </INF>is better for plants'' 
is, please see https://www.skeptical
science.com/co2-plant-food-advanced.htm The article contains multiple 
references to respected, peer-reviewed articles.
    An advanced and technical description of the challenges of re-
creating surface temperature record proxies from satellite-derived 
measurements can be found here: https://www.skepticalscience.com/
satellite-measurements-warming-troposphere-advanced.htm, again with 
embedded peer-reviewed references.

                                  <all>

                  
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
